    THE FEDERAL BUREAU OF
   PRISONS INMATE RELEASE
PREPARATION AND TRANSITIONAL
      REENTRY PROGRAMS
       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 04-16
             March 2004
                   THE FEDERAL BUREAU OF PRISONS
                  INMATE RELEASE PREPARATION AND
                  TRANSITIONAL REENTRY PROGRAMS

                              EXECUTIVE SUMMARY


      The Federal Bureau of Prisons’ (BOP) stated mission is to protect
society by confining offenders in the controlled environments of prisons and
community-based facilities that are safe, humane, cost-efficient,
appropriately secure, and that provide work and other self-improvement
opportunities to assist offenders in becoming law-abiding citizens. It is a
strategic objective of the BOP to “provide productive work, education,
occupational training, and recreational activities which prepare inmates for
employment opportunities and a successful reintegration upon release, and
which have a clear correctional management purpose which minimizes
inmate idleness.”1

      During Fiscal Year (FY) 2000 through FY 2002, the BOP reported that
74,401 federal prison inmates were released from its institutions. It is
expected that a large percentage of inmates released will recidivate. Based
on the most recent statistics available on federal inmates from the
U.S. Department of Justice (DOJ), Bureau of Justice Statistics (BJS),
approximately 16 percent of federal inmates released will return to federal
prisons within 3 years.2 Further, according to the most recent study
conducted by the BOP on recidivism rates for federal inmates, about
41 percent of federal inmates released to the community in 1987 were
rearrested or had their parole revoked within 3 years of release.3

      According to the DOJ Strategic Plan, since a majority of inmates will be
released at some point, it is important for the DOJ to provide them the
means to increase their chances for successful reentry into society. The
Strategic Plan states that the BOP has a responsibility to offer program
opportunities to inmates that provide the skills necessary for successful
reentry into society. Therefore, in addition to the basic services (such as

        1
            The BOP, State of the Bureau 2002, Accomplishments and Goals.
        2
         The DOJ BJS, Special Report, Offenders Returning to Federal Prisons, 1986-97,
dated September 2000.
        3
            The BOP, Recidivism Among Federal Prisoners Released in 1987, dated August 4,
1994.



                                              i
clothing, food, and access to health care), the BOP provides inmates with a
variety of educational, vocational, recreational, religious, and psychological
programs. The BOP’s inmate programs are geared, ultimately, toward
preparing inmates for eventual release.

      In addition to programs offered during incarceration designed to
prepare inmates for reentry into society (reentry programs), the BOP
requires that all eligible inmates receive transitional reentry services through
placement in Community Corrections Centers (CCC), also referred to as
halfway houses, prior to release. This placement is intended to help inmates
adjust to life in the community and find suitable post-release employment.4

      The DOJ Office of the Inspector General (OIG) conducted this audit to
evaluate whether the BOP ensures that federal inmates participate in its
programs designed to prepare them for successful reentry into society. The
objectives of our audit were to determine whether the BOP ensures that:

   •   each of the BOP’s institutions maximize the number of inmates that
       complete programs designed to prepare them for reentry into society,
       including occupational, educational, psychological, and other
       programs; and

   •   all eligible inmates are provided the opportunity to transition through a
       CCC in preparation for reentry into society.


Background

       The DOJ is responsible for the detention and incarceration of persons
charged with violating federal statutes. The DOJ defines detention as the
temporary confinement of individuals and incarceration as the imprisonment
of individuals convicted and sentenced for federal crimes. The U.S. Marshals
Service and the BOP share the DOJ’s detention responsibilities; the
incarceration of federal inmates is the sole responsibility of the BOP.

       As of November 2003, the BOP consisted of 103 institutions, 6 regional
offices, a central office, 2 staff training centers, and 28 community
corrections offices. The BOP is currently responsible for the custody and
care of approximately 174,000 federal offenders.

       4   As of October 2003, the BOP had 6,451 inmates placed in CCCs.




                                             ii
      In conducting the audit, we interviewed officials from the BOP Central
Office and 3 of the 6 BOP regional offices. We conducted fieldwork or
obtained information through questionnaires from 27 institutions.
Additionally, we examined reported data for 82 institutions, including the
Administrative Maximum Security (ADX) institution, and all Federal
Correctional Institutions (FCI), Federal Prison Camps (FPC), and United
States Penitentiaries (USP). We excluded Federal Detention Centers (FDC),
Federal Medical Centers (FMC), Federal Transfer Centers (FTC), Metropolitan
Correctional Centers (MCC), Medical Centers for Federal Prisoners (MCFP),
and Metropolitan Detention Centers (MDC) because of the unique missions of
these institutions.

     Additional information related to our audit objectives, scope, and
methodology appears in Appendix III of this report.


Summary of Audit Findings

      Research conducted by both governmental and private institutions
concludes that successful completion of occupational, educational,
psychological, and other programs during an inmate’s incarceration leads to
both a reduction in recidivism and an increase in post-release employment
opportunities. Research in this area also concludes that inmates who
transition into the community through a CCC are less likely to recidivate.
Therefore, our audit focused on whether the BOP ensures that federal
inmates receive the maximum benefit from its programs designed to prepare
them for successful reentry into society. Overall, our audit concluded that
each BOP institution offers similar types of reentry programs that are
generally recognized to reduce recidivism. However, we found that the BOP
does not provide assurance that its institutions are maximizing the number
of inmates that complete these programs and that all eligible inmates are
provided the opportunity to transition through a CCC to help prepare them
for reentry into society.


Reentry Program Completions

      We reviewed the types of reentry programs offered by the BOP to
prepare inmates for successful reentry into society and found that each of
the 82 BOP institutions included in our audit offer a full range of
occupational, educational, psychological, and other programs that, based on
studies, are shown to be effective in helping inmates successfully reenter
society. We found that:


                                     iii
•   According to BOP officials, the BOP has been working to establish an
    effective strategic management process for monitoring and evaluating
    goals and outcomes since 1998 through various initiatives, such as
    developing program guidelines, directing regions to establish
    educational goals, and implementing quarterly performance reports.
    However, the BOP has not yet implemented a standardized process
    followed by all institutions to establish realistic occupational and
    educational completion goals. We found that institutions with similar
    security levels and populations had set very different goals. Further,
    the program completion goals are stated as the number of completions
    rather than a percentage of completions. This does not accurately
    reflect program performance because it does not take into account the
    effect of the number of enrollments or the total inmate population that
    could participate in programs, which would allow the BOP to compare
    performance among its institutions.

•   During FY 1999 through FY 2002, 31 to 69 percent of institutions we
    looked at failed to meet their occupational, General Educational
    Development (GED), English-as-a-Second Language (ESL), Adult
    Continuing Education (ACE), or parenting goals. Despite this failure
    rate, the BOP did not have a mechanism in place to hold institutions
    accountable for meeting goals. In addition, institutions were not
    required to develop or implement corrective actions plans to remedy
    performance and ensure that goals are met in the future.

•   The BOP did not routinely review program performance at each of its
    institutions, despite the fact that there was a wide range in the
    percentage of inmates successfully completing occupational and GED
    programs at institutions of the same security level.

•   We were unable to analyze trends related to psychological program
    performance (e.g. completions rates, failure rates, and withdrawal
    rates) because the BOP only began reporting this data for most of its
    psychological programs starting in January 2003. Although the BOP
    has only recently begun reporting monthly participation data, we found
    that the BOP did not have a standardized process in place among its
    regions for reviewing program participation at each of its institutions to
    ensure that institutions maximize program participation.

•   One of the expected outcomes of the BOP’s Release Preparation
    Program (RPP), which started in 1996, is that inmate recidivism would
    be reduced. However, to date the BOP has not conducted any
    follow-up studies demonstrating that successful participation in its RPP


                                    iv
       leads to a reduction in recidivism. The BOP also does not track the
       percentage of inmates that successfully complete the RPP at each of
       its institutions prior to release.


Community Corrections Centers (CCC)

      In addition to reentry programs offered at its institutions, the BOP
provides services that assist inmates in transitioning from incarceration into
the community. The primary transitional service provided by the BOP is the
placement of inmates in CCCs, also known as halfway houses. Prior studies
conducted by the BOP have found that CCC placement prior to release
increases the chances of an inmate’s successful reentry into society. The
BOP’s strategic plan establishes annual CCC utilization targets for its
minimum, low, and medium security institutions.5 Our audit revealed that
the BOP does not assure that all eligible inmates are being transitioned
through a CCC. Specifically, we found that:

   •   The BOP has not established a CCC utilization target for its high
       security institutions. In our judgment, inmates in high security
       institutions have the greatest need for transitioning through the
       controlled CCC environment prior to being released directly into the
       community.

   •   According to BOP officials, at each quarterly executive staff meeting
       CCC utilization rates are reviewed and the regional directors may be
       required to comment on any utilization rate outliers (institutions with
       CCC utilization rates that are significantly lower that the target
       utilization rate). Only one specific security level (minimum, low,
       medium or high) is addressed at each quarterly meeting. However,
       we found that during FY 2000 through FY 2002, between 28 and 54
       percent of institutions we looked at failed to meet their CCC utilization
       targets.

   •   We also found that the CCC utilization targets cannot be used to
       determine whether all eligible inmates at each institution were
       released to the community through a CCC, as required by BOP policy.

       5
          The CCC utilization rate is equal to the number of inmates placed in a CCC prior to
release divided by (the total number of inmates placed in a CCC plus total number of
inmates released directly into the community). The CCC utilization rate measures the
percentage of inmates that transition into the community through the controlled CCC
environment as compared to those inmates released directly into the community.



                                              v
      Currently, the CCC utilization targets range from 65 percent for
      medium security level institutions to 80 percent for minimum security
      level institutions; therefore, even if an institution achieves or exceeds
      the CCC utilization target for its security level, the BOP can not assure
      that all eligible inmates were transitioned through a CCC.


Recommendations

      We make thirteen recommendations that focus on specific steps that
the BOP should take to maximize the number of inmates that complete its
programs designed to prepare inmates for successful reentry into society
and to ensure that eligible inmates are transitioned into society through a
CCC. Our recommendations include:

  •   establishing realistic occupational and educational completion goals
      stated as a percentage of enrollments, and ensuring that institutions
      are held accountable for meeting occupational and educational goals
      and outcomes on an annual basis;

  •   evaluating the performance factors for occupational programs to
      ensure that institutions are held accountable for low performance;

  •   developing a suitable measure of literacy program performance and
      evaluating the percentage of citizen inmates required to participate in
      the literacy program who have dropped out;

  •   evaluating participation data for psychological programs and tracking
      RPP participation to ensure that institutions are held accountable for
      low performance;

  •   screening inmates prior to enrollment in occupational programs to
      ensure that they have the ability and are willing to commit to
      completing the course; and

  •   establishing a CCC utilization target for high security institutions and
      developing a CCC utilization monitoring process that ensures that all
      eligible inmates are transitioned through a CCC as required by BOP
      policy.




                                       vi
                  THE FEDERAL BUREAU OF PRISONS
                 INMATE RELEASE PREPARATION AND
                 TRANSITIONAL REENTRY PROGRAMS

                              TABLE OF CONTENTS


INTRODUCTION ................................................................................1

  Incarceration and Recidivism Statistics ...............................................2
  BOP Reentry Programs ....................................................................6
         Occupational and Educational Programs .....................................6
         Psychological Programs ......................................................... 12
         Release Preparation Program.................................................. 17
         Inmate Placement Program.................................................... 18
         Faith-Based Programs ........................................................... 19
         Recreational Programs .......................................................... 19
         Community Corrections Centers (CCC)..................................... 20
  Release Planning .......................................................................... 21
  Inmate Skills Development Re-engineering Initiative .......................... 23

FINDINGS AND RECOMMENDATIONS .................................................. 24

  I.     REENTRY PROGRAM COMPLETIONS ......................................... 24
         Institution’s Annual Goals and Outcomes .................................. 26
         Percentage of Reentry Program Completions ............................. 31
         Psychological Programs and RPP Participation............................ 45
         Conclusion .......................................................................... 48
         Recommendations ................................................................ 48

  II.    Community Corrections Centers (CCC)..................................... 50
         Recommendations ................................................................ 57
APPENDIX I - STATEMENT ON COMPLIANCE WITH LAWS AND
  REGULATIONS ............................................................................. 58

APPENDIX II - STATEMENT ON MANAGEMENT CONTROLS ...................... 59

APPENDIX III - OBJECTIVES, SCOPE, AND METHODOLOGY..................... 61

APPENDIX IV - ANALYSIS OF THE OCCUPATIONAL EDUCATION GOALS
  AND OUTCOMES FY 2001 THROUGH FY 2002 .................................... 66
  Occupational Education Completion Goals and Outcomes FY 2001 ......... 67
  Occupational Education Completion Goals and Outcomes FY 2002 ......... 70

APPENDIX V - ANALYSIS OF THE GED GOALS AND OUTCOMES FY 2001.... 73
  GED Completion Goals and Outcomes FY 2001................................... 74

APPENDIX VI - ANALYSIS OF THE ESL GOALS AND OUTCOMES
  FY 2001 THROUGH FY 2002 ........................................................... 77
  ESL Completion Goals and Outcomes FY 2001 ................................... 78
  ESL Completion Goals and Outcomes FY 2002 ................................... 81

APPENDIX VII - ANALYSIS OF THE ACE GOALS AND OUTCOMES
  FY 2001 THROUGH FY 2002 ........................................................... 84
  ACE Completion Goals and Outcomes FY 2001 ................................... 85
  ACE Completion Goals and Outcomes FY 2002 ................................... 88

APPENDIX VIII - ANALYSIS OF THE PARENTING GOALS AND
  OUTCOMES FY 2001 THROUGH FY 2002 ........................................... 91
  Parenting Completion Goals and Outcomes FY 2001............................ 92
  Parenting Completion Goals and Outcomes FY 2002............................ 95

APPENDIX IX - ANALYSIS OF THE PERCENT PARTICIPATION GOALS
  AND OUTCOMES FY 2002............................................................... 98
  Percent Participation Goals and Outcomes FY 2002............................. 99
APPENDIX X - ANALYSIS OF THE OCCUPATIONAL TECHNICAL
  PERFORMANCE FACTORS FY 2001 THROUGH FY 2002....................... 102
  Occupational Technical Performance Factors FY 2001 ........................ 103
  Occupational Technical Performance Factors FY 2002 ........................ 106

APPENDIX XI - ANALYSIS OF THE OCCUPATIONAL VOCATIONAL
  PERFORMANCE FACTORS FY 2001 THROUGH FY 2002....................... 109
  Occupational Vocational Performance Factors FY 2001....................... 110
  Occupational Vocational Performance Factors FY 2002....................... 113

APPENDIX XII - ANALYSIS OF THE PERCENTAGE OF CITIZEN GED
  DROPPED NON-PROMOTABLE INMATES FY 2001 THROUGH FY 2002 ... 116
  GED Dropped Non-promotable FY 2001 .......................................... 117
  GED Dropped Non-promotable FY 2002 .......................................... 120

APPENDIX XIII - ANALYSIS OF THE CCC UTILIZATION TARGETS AND
  OUTCOMES FY 2001 THROUGH 2002 ............................................. 123
  CCC Utilization Goals and Outcomes FY 2001................................... 124
  CCC Utilization Goals and Outcomes FY 2002................................... 127

APPENDIX XIV - FEDERAL BUREAU OF PRISONS RESPONSE TO THE
  DRAFT REPORT ...........................................................................130

APPENDIX XV - ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
  CLOSE THE REPORT ................................................................... 136
                                  INTRODUCTION


      During Fiscal Year (FY) 2000 through FY 2002, 74,401 inmates were
released from federal custody.6 Based on the most recent statistics
available on federal inmates from the Department of Justice (DOJ) Bureau of
Justice Statistics (BJS), approximately 16 percent of federal inmates
released will return to federal prisons within 3 years.7 Further, according to
the most recent study conducted by the Federal Bureau of Prisons (BOP) on
recidivism rates for federal inmates, approximately 41 percent of federal
inmates released to the community were rearrested or had their parole
revoked within 3 years.8

      One strategic objective of the BOP is to “provide productive work,
education, occupational training, and recreational activities which prepare
inmates for employment opportunities and a successful reintegration upon
release, and which have a clear correctional management purpose which
minimizes inmate idleness.”9

      According to the DOJ Strategic Plan, since a majority of inmates will be
released at some point, it is important to provide them the means to
increase their chances for successful reentry into society. The Strategic Plan
states that the BOP has a responsibility to offer program opportunities to
inmates that provide the skills necessary for successful reentry into society.
Therefore, in addition to the basic services (such as clothing, food, and
access to health care), the BOP provides inmates with educational,
vocational, recreational, religious, and psychological programs. The BOP’s
inmate programs are geared, ultimately, toward preparing inmates for
eventual release.



        6
          The Federal Bureau of Prisons (BOP), Key Indicators, A Strategic Support System
of the Federal Bureau of Prisons, Volume 14, Number 1, January 2003. The BOP’s Key
Indicators system provides statistical information related to inmate programs, strategic
goals and outcomes, inmate population characteristics, etc., to assist in the management
and monitoring of the BOP and its institutions.
        7
         The DOJ BJS, Special Report, Offenders Returning to Federal Prisons, 1986-97,
dated September 2000.
        8
            The BOP, Recidivism Among Federal Prisoners Released in 1987, dated August 4,
1994.
        9
            The BOP, State of the Bureau 2002, Accomplishments and Goals.



                                              1
      The DOJ Office of the Inspector General (OIG) conducted this audit to
evaluate whether the BOP ensures that federal inmates participate in its
programs designed to prepare them for successful reentry into society. The
objectives of our audit were to determine whether the BOP ensures that:

   •   each of the BOP’s institutions maximize the number of inmates that
       complete programs designed to prepare them for reentry into society
       including occupational, educational, psychological, and other
       programs; and

   •   all eligible inmates are provided the opportunity to transition through a
       Community Correction Center (CCC) in preparation for reentry into
       society.

      In conducting the audit, we interviewed officials from the BOP Central
Office and 3 of the 6 BOP regional offices. We conducted fieldwork or
obtained information through questionnaires from 27 institutions.
Additionally, we examined reported data for 82 institutions including the
Administrative Maximum Security (ADX) institution, and all Federal
Correctional Institutions (FCI), Federal Prison Camps (FPC), and United
States Penitentiaries (USP). We excluded Federal Detention Centers (FDC),
Federal Medical Centers (FMC), Federal Transfer Centers (FTC), Metropolitan
Correctional Centers (MCC), Medical Centers for Federal Prisoners (MCFP),
and Metropolitan Detention Centers (MDC) because of the unique missions of
these institutions.

     Additional information related to our audit objectives, scope, and
methodology appears in Appendix III of this report.


Incarceration and Recidivism Statistics

     According to a recent BJS report, as of the end of 2001, approximately
4.3 million U.S. residents were formerly federal, state, and local prison
inmates, and an additional 1.3 million are currently confined in prisons.10
Between 1974 and 2001, the number of U.S. adult residents that had ever
served time in prison, including current prison inmates, increased by about
3.8 million.



       10
         The DOJ BJS, Special Report, Prevalence of Imprisonment in the U.S. Population,
1974-2001, dated August 2003.



                                           2
       There are four measures generally accepted for determining
recidivism: rearrest, reconviction, resentence, and reconfinement in prison.
As a part of our audit, we reviewed government and private studies
conducted on recidivism; however, we found no studies on recidivism of
federal inmates that are comprehensive and current.11 The most recent data
available from the BJS revealed the following statistics.

   •   About 61 percent of federal inmates had been convicted of a prior
       offense, while 39 percent had no previous prison sentence.12 Of the
       current federal inmates with prior convictions, 23 percent had current
       or prior violent convictions, and 38 percent had current or prior
       nonviolent convictions.

   •   Additionally, 76 percent of state inmates had been convicted of prior
       offenses, while 24 percent had no previous prison sentence.

   •   Approximately 16 percent of federal inmates released to the
       community will return to federal prisons within 3 years.13 Information
       was not available on the number of federal inmates released to the
       community who were subsequently imprisoned for a state offense.

   •   The proportion of offenders returning to federal prisons within 3 years
       increased from 11 percent in 1986 to 19 percent in 1994. Of the
       offenders returning to prison between 1986 and 1997, 54 percent
       returned within 1 year of release, 34 percent within 2 years, and
       12 percent within 3 years.

   •   The rate at which federal inmates return to federal prison increases
       with the amount of time that they served prior to release.14 Overall,
       11
           The most recent study on recidivism of federal inmates, the DOJ BJS Special
Report Offenders Returning to Federal Prisons, 1986-97, dated September 2000, does not
include information on federal inmates released to the community who were subsequently
imprisoned for a state offense. Further, the study does not contain any information on
inmates who were rearrested or reconvicted. The most recent comprehensive study on
recidivism rates of federal inmates, the BOP’s Recidivism Among Federal Prisoners Released
in 1987, dated August 4, 1994, was issued 9 years ago and was based on inmates released
over 16 years ago.
       12
            The DOJ BJS, Sourcebook of Criminal Justice Statistics, 2000.
       13
          The DOJ BJS, Special Report, Offenders Returning to Federal Prisons, 1986-97,
dated September 2000.
       14
          The DOJ BJS, Special Report, Offenders Returning to Federal Prisons, 1986-97,
dated September 2000.



                                              3
       14 percent of inmates that served sentences of less than 1 year
       returned to federal prison, as compared to 25 percent of inmates that
       served sentences of more than 5 years.

   •   About 32 percent of federal inmates originally convicted of violent
       offenses return to federal prison within 3 years of release, as
       compared to 13 percent of drug offenders.

      The most recent BOP study on recidivism rates for federal inmates
indicates that about 41 percent of federal inmates released to the
community were rearrested or had their parole revoked within 3 years.15 Of
the 41 percent of federal inmates that recidivated, 11 percent were
rearrested or had their parole revoked withi n 6 months after release, and
20 percent within 1 year after release.

       This BOP study also identifies the variables that correlate to the
likelihood that a federal inmate released to the community will recidivate.
Specifically, the major findings of the study concluded that:

   •   Male and female inmates recidivated at about the same rate.
       Forty-one percent of male inmates released recidivated, as compared
       to 40 percent of female inmates.

   •   Older inmates were less likely to recidivate than younger inmates.
       Fifteen percent of inmates released that were 55 years of age or older
       recidivated, as compared to 57 percent of inmates that were 25 years
       of age or younger.

   •   Inmates that were employed full time or attended school for at least
       6 months within 2 years prior to incarceration were less likely to
       recidivate than those who did not. Twenty-seven percent of inmates
       released who were employed full time or attended school for at least
       6 months within 2 years prior to incarceration recidivated, as
       compared to 60 percent of inmates who did not.

   •   Inmates that were living with a spouse after release were less likely to
       recidivate than inmates with other living arrangements.

       15
            The BOP, Recidivism Among Federal Prisoners Released in 1987, dated August 4,
1994. It should be noted that federal inmates that are rearrested are not necessarily
reincarcerated in federal prisons, which is why the recidivism rate based on rearrest is
significantly higher than the recidivism rate based on federal inmates that are
reincarcerated in federal prisons.



                                            4
       Twenty percent of inmates released were living with a spouse
       recidivated, as compared to 48 percent of inmates with other living
       arrangements.

      As demonstrated by the above studies, there are many variables
associated with the likelihood that an inmate will recidivate and most of
these variables are outside of the BOP’s control. Therefore, in our judgment,
it becomes important for the BOP to focus its resources and programs on
those variables that are within its control while the inmate is in their custody
to help decrease an inmate’s chance of recidivism. For example, the same
BOP study also found a positive correlation between recidivism and actions
that relate to some extent to the programs (discussed later in this report)
offered by the BOP. Specifically,

   •   Inmates that successfully completed one or more educational
       programs every 6 months while incarcerated were less likely to
       recidivate than inmates who did not participate. Thirty-six percent of
       inmates released that successfully completed one or more educational
       programs every 6 months while incarcerated recidivated, as compared
       to 44 percent of inmates who did not participate.

   •   Inmates who had arranged for employment prior to release were less
       likely to recidivate than inmates who did not. Twenty-eight percent of
       inmates released that had arranged for employment prior to release
       recidivated, as compared to 54 percent of inmates who did not.

   •   Inmates transitioned into the community through a CCC were less
       likely to recidivate than inmates released directly to the community.
       Thirty-one percent of inmates released that were transitioned into the
       community through a CCC recidivated, as compared to 51 percent of
       inmates that were released directly to the community.

       As a part of our audit, we reviewed additional studies on the
effectiveness of reentry programs to determine the types of programs that
are most likely to prepare inmates for successful reentry into society. We
compared these studies to the programs offered by the BOP. Based on our
comparison, we determined that the BOP offers a full range of occupational,
educational, psychological, and other programs that are shown to prepare
inmates for successful reentry into society. The studies as they relate to the
types of programs offered by the BOP are discussed in the following sections
of this report.




                                       5
BOP Reentry Programs

      For FY 2003, the BOP received funding of $216 million for all inmate
programs, which equates to about 5 percent of the BOP’s $4.5 billion total
agency budget.16 Of the $216 million budgeted for inmate programs,
$148 million was designated for reintegration efforts that include
occupational and educational programs, psychological support programs,
release preparation programs, and other programs that are geared towards
preparing inmates for reentry into society and increasing post-release
employment opportunities. This amount represents an increase of
$23 million (19 percent) of the total BOP reintegration funding from
FY 2002.

      The following sections provide an overview of each of the reentry
programs offered by the BOP and the studies on recidivism that we found
are associated with these types of program. Almost all of the studies found
a positive correlation between the kind of program offered by the BOP and a
reduction in recidivism. It should also be noted that several of the programs
offered by the BOP are similar to programs or services that are offered by
the community to non-inmates, such as General Educational Development
(GED) and English-as-a-Second Language (ESL).


Occupational and Educational Programs

      The following studies support a link between occupational and
educational programs and successful reentry of inmates upon release into
the community.

   •   The Practice and Promise of Prison Programming 17 - The results
       of this study indicate that the majority of research studies that
       evaluated prison programming support the hypothesis that inmate
       participation in occupational and educational programs leads to a
       reduction in recidivism and an increase in employment opportunities,
       as shown in the following table.



       16
           This amount does not include funding for Federal Prison Industries (FPI), which is
self funded.
       17
         The Urban Institute, Justice Policy Center, The Practice and Promise of Prison
Programming, dated May 2002.



                                              6
                            THE EFFECTIVENESS OF
                        CORRECTIONAL PROGRAMMING

            Occupatio nal Programs
              • 9 of 13 studies found participants were less likely to
                recidivate
              •   5 of 7 studies found participants were more likely to
                  be employed after release
            Pre-College Education (Elementary/Secondary/GED)
              • 9 of 14 studies found participants were less likely to
                 recidivate
              •   3 of 4 studies found participants were more likely to
                  be employed after release
            College-Level Education
              • 10 of 14 studies found an inverse relationship
                 between college education and recidivism
              •   3 of 3 studies found participants more likely to be
                  employed after release
        Source: The Urban Institute, Justice Policy Center, The Practice and
        Promise of Prison Programming, dated May 2002.

   •   PREP: Training Inmates through Industrial Work Participation,
       and Vocational and Apprenticeship Instruction 18 - This study was
       designed to evaluate the impact of prison work experience and
       occupational and apprenticeship training on an inmate’s behavior upon
       release into the community. The results of this study indicate that
       prison programs have a positive impact on post-release employment
       and recidivism. The inmates who worked in prison industries or
       participated in an occupational or apprenticeship training program
       were 14 percent more likely to be employed 12 months after release
       than statistically similar inmates who did not participate. Additionally,
       inmates who worked in prison industries or participated in an
       occupational or apprenticeship training program were 35 percent less
       likely to recidivate within the first 12 months (6.6 percent vs.
       10.1 percent). Further, inmates who worked in prison industries were
       24 percent less likely to recidivate in the long term (8 to 12 years),


       18
           The BOP, Office of Research and Evaluation, PREP: Training Inmates through
Industrial Work Participation, and Vocational and Apprenticeship Instruction, dated
September 24, 1996.



                                            7
       and inmates who participated in an occupational or apprenticeship
       program were 33 percent less likely to recidivate in the long term.

   •   Three State Recidivism Study 19 - The preliminary results of this
       study support the hypotheses that inmates who participate in
       educational programs have lower rearrest, reconviction, and
       reincarceration rates than those offenders that do not participate. The
       study found that: (1) 48 percent of inmates who participated in
       educational programs were rearrested, as compared to 57 percent of
       those who did not participate; (2) 27 percent of inmates who
       participated in educational programs were reconvicted, as compared to
       35 percent of inmates who did not participate; and (3) 22 percent of
       inmates who participated in educational programs were reincarcerated,
       as compared to 31 percent of inmates who did not participate.

   •   Recidivism Among Federal Prisoners Released in 198720 - This
       study found that among other characteristics related to recidivism,
       inmates that successfully completed one or more educational
       programs every 6 months while incarcerated were less likely to
       recidivate than inmates who did not participate. Overall, 36 percent of
       inmates released that successfully completed one or more educational
       programs every 6 months while incarcerated recidivated, as compared
       to 44 percent of inmates who did not participate.

   •   Prison Education Program Participation and Recidivism: A Test
       of the Normalization Hypothesis 21 - This study concludes that there
       is a three-way relationship between inmate participation in educational
       programs, the level of education achieved while incarcerated, and
       recidivism. The study found that a much larger percentage of persons
       sentenced to federal prisons (43 percent) are in need of a high school
       degree or equivalent to function adequately in society than the general
       U.S. population (14 percent). The study also found that 30 percent of
       inmates who completed an average of 0.5 education courses per each
       6 months of confinement recidivated, as compared to 45 percent of
       inmates who completed no education courses during confinement.

       19
          The U.S. Department of Education, Office of Correctional Education, Three State
Recidivism Study, Preliminary Summary Report, dated September 30, 2001.
       20
           The BOP, Office of Research and Evaluation, Recidivism Among Federal Prisoners
Released in 1987, dated August 4, 1994.
       21
            The BOP, Office of Research and Evaluation, Prison Education Program
Participation and Recidivism: A Test of the Normalization Hypotheses, dated May 1995.



                                            8
      We compared the types of reentry programs offered by the BOP with
the studies and research noted above and found that the BOP offers a wide
range of occupational and educational programs that correspond to the
types of activities shown to help prepare inmates for successful reentry into
society, as described below.

   •    Occupational Programs – BOP policy requires that each institution
        provide occupational programs that allow interested inmates the
        opportunity to obtain marketable skills to enhance employment
        opportunities after release into the community. 22 These occupational
        programs also contribute to the operation and maintenance of the BOP
        institutions. Not all occupational programs are offered at each
        institution; however, the wide variety of occupational programs offered
        to inmates by the BOP includes those listed in the following table.


                            Occupational Programs

       • Computer Skills                     •   Dentistry
       • Business Management                 •   Horticulture and Landscaping
       • Computer Aided Drafting             •   Barbering and Cosmetology
       • Culinary Arts                       •   Small Appliance Repair
       • Housekeeping                        •   Construction and Carpentry
       • Building Maintenance                •   Masonry
       • Auto and Small Engine               •   Plumbing, Electrical and
         Mechanics                               Welding


   •    Federal Prison Industries – According to the Federal Prison
        Industries, Inc. (FPI) Annual Report, “It is the mission of the FPI to
        employ and provide job skills training to the greatest practicable
        number of inmates confined within the BOP; [and] contribute to the
        safety and security of our Nation’s federal correctional facilities by
        keeping inmates constructively occupied . . .” In its annual budget the
        BOP establishes goals for the number of inmates employed by the FPI.
        During FY 2002, the number of inmates employed by the FPI was
        21,778 (13 percent of total BOP inmates), and the goal for FY 2003


        22
         BOP Program Statement No. 5300.18, Occupational Education Programs, dated
December 23, 1996.



                                         9
       was 24,788. The FPI includes work skills programs related to the
       areas listed in the following table.

                  Federal Prisons Industries Programs
              and Number of Inmates Employed in FY 2002
                                               Inmates
                 Industrial Program           Employed
              Clothing and Textiles                      6,665
              Electronics                                3,171
              Fleet Management/
              Vehicular Components                       1,706
              Graphics                                    930
              Industrial Products                        1,816
              Office Furniture                           5,304
              Recycling Activities                        833
              Services                                   1,020
              Customer Service & Support                  333
                            Total                       21,778
             Source: The BOP FPI, 2002 Annual Report.


   •   Inmate Work Program – The BOP operates inmate work programs
       within all of its institutions. BOP policy requires that every medically
       able inmate will be assigned to a work program and perform work
       activities that contribute to the operation of the institution.23 In its
       annual budget the BOP establishes goals for the percent of medically
       able inmates that are employed. For FY 2002 and FY 2003, the goal
       was 100 percent. According to BOP policy, the purpose of the BOP’s
       inmate work programs is to reduce inmate idleness while allowing
       inmates to improve or develop useful job skills, work habits, and work
       experience that will assist the inmate in finding employment upon
       release into the community. The inmate work programs also ensure
       that the day-to-day tasks associated with operating the institution are
       completed.



       23
         BOP Program Statement No. 5251.05, Inmate Work and Performance Pay, dated
December 7, 1998.



                                         10
   •   Literacy Program - Individuals without a basic level of education
       frequently encounter serious difficulty in obtaining employment.
       Therefore, the BOP requires that each inmate should have the
       opportunity to complete a literacy program leading to a GED certificate
       and/or high school diploma.24 The intent of this policy is to provide
       inmates with the basic literacy skills necessary to compete for
       employment.

   •   English-as-a-Second Language Program - Pursuant to federal
       statute, limited English proficient inmates confined in federal
       institutions are required to attend an ESL program until they can
       function at the equivalent of the eighth-grade level on a nationally
       recognized education achievement test.25 The BOP also requires that
       inmates with limited English proficiency skills will be afforded the
       opportunity to enhance their communication skills through its ESL
       programs.26

   •   Adult Continuing Education Programs – The BOP offers a variety of
       Adult Continuing Education (ACE) programs in formal instructional
       classes that provide inmates with learning in areas that may be of
       special interest. Inmates rather than education staff members teach
       many ACE courses, which enables the BOP to offer a large number of
       these courses. The type of ACE programs offered to inmates by the
       BOP includes those listed in the table on the following page.




       24
         BOP Program Statement No. 5300.21, Education, Training and Leisure Time
Program Standards, dated February 18, 2002.
       25
            The Crime Control Act of 1990, codified in 18 U.S.C § 3624 (f).
       26
           BOP Program Statement No. 5350.24, English-as-a-Second Language Program,
dated July 24, 1997.



                                              11
                      Adult Continuing Education Programs
            •   Foreign Languages              •   Chess
            •   Mathematics                    •   Motivation
            •   Commercial Drivers             •   Cardiopulmonary
                License                            Resuscitation (CPR)
            •   Writing                        •   Typing
            •   Finance                        •   Sign Language
            •   History                        •   Floral Design
            •   Legal Research                 •   Health
            •   Literature                     •   Life Skills
            •   Public Speaking                •   Time Management



   •   Postsecondary Education Programs – Postsecondary education
       programs generally include correspondence courses provided through
       junior or community colleges, 4-year colleges and universities, and
       postsecondary vocational or technical schools. Inmates are expected
       to pay the tuition for these postsecondary programs from personal
       funds or other sources such as scholarship awards provided through
       FPI programs.

   •   Parenting Program – The BOP requires that parenting programs be
       provided in all institutions.27 The BOP parenting programs are
       expected to promote and reinforce positive relationships, family
       values, and mutual support among inmates and their spouses that
       may be sustained after the inmate is released into the community.


Psychological Programs

      In addition to occupational and educational programs, BOP policy
requires that psychology services within each institution be sufficient to
ensure that every inmate with a documented need or interest in
psychological treatment has access to a level of care comparable to that

       27
          BOP Program Statement No. 5355.03, Parenting Program Standards, dated
January 20, 1995.



                                         12
offered in the community. 28 Through its psychology services, the BOP seeks
to create an environment where inmates can develop habits and skills that
will make them more productive members of society upon release to the
community.

      According to the BOP, the main priority of the BOP’s psychology
services is acute crisis intervention. However, the BOP also provides
counseling services, including individual or group treatment. At a minimum,
a psychology services staff member must screen all inmates entering into a
BOP institution within 14 days (30 days for transferred inmates).
Additionally, the BOP offers the following psychological programs.

   •   Drug Abuse Education Program – This program provides inmates
       with specific instruction on the risks involved with drug use and abuse,
       and presents strategies toward living a drug free lifestyle while
       introducing the inmate to the concepts of drug treatment and
       motivating the inmate to enter and participate in the BOP’s Residential
       Drug Abuse Treatment Program.

   •   Residential Drug Abuse Treatment Program – This program is
       designed for intensive drug abuse treatment. Inmates are housed
       separately in residential drug abuse treatment units for up to
       12 months. The specialized drug units provide extensive assessment,
       treatment planning, and individual and group counseling.

   •   Non-Residential Drug Abuse Treatment Program – This program
       consists of both group and individual therapy delivered through the
       psychology services department in each institution. This program
       offers flexibility to inmates who are not eligible for or do not choose to
       enter the BOP’s Residential Drug Abuse Treatment Program.
       Non-residential treatment services are also provided as a follow-up to
       the BOP’s Residential Drug Abuse Treatment Program while inmates
       are awaiting release.

   •   Transitional Drug Abuse Treatment Program – This program was
       developed for successful Residential Drug Abuse Treatment Program
       graduates who are released to the community under BOP custody.
       The continuation of treatment, through community-based drug
       treatment, is required of these inmates during their transition back

       28
          BOP Program Statement No. 5310.12, Psychology Services Manual, dated
August 30, 1993.



                                         13
    into society. Additionally, the community transition program now
    accepts inmates who have not participated in a Residential Drug Abuse
    Treatment Program but have later been identified to be in need of drug
    abuse treatment.

•   Sex Offender Management Plan – The Sex Offender Management
    Plan is a comprehensive management strategy for all sex offenders
    incarcerated in BOP institutions. The purpose of the program is to
    increase institution security and ensure effective transition of inmates
    into the community.

•   Sex Offender Treatment Program – The Sex Offender Treatment
    Program is a residential program offered at FCI Butner to help sex
    offenders manage their sexual deviance in order to reduce recidivism.
    The program is based on the notion that, while there is probably no
    permanent cure, criminal sexual behavior can be effectively managed
    in most cases through a combination of treatment and intensive
    supervision.

•   Challenge, Opportunity, Discipline and Ethics (CODE) Program –
    The CODE program is a residential treatment program offered in high
    security institutions designed for inmates whose psychological distress,
    mental illness or neurocognitive deficits interfere with the inmate’s
    ability to adjust satisfactorily to incarceration. The program is
    designed to teach inmates basic core values such as respect for self
    and others, responsibility for personal actions, honesty in relationships
    with others, and tolerance towards the actions of others.

•   E-CODE Program – The E-CODE program is an intensive, multi-
    phase, non-residential and residential treatment program for
    maximum security inmates. The purpose of the program is to teach
    inmates self-discipline, the value of conforming to pro-social lifestyles,
    and changing negative thoughts and behaviors that lead to
    incarceration-related problems. The program is designed to manage
    and treat violent and predatory inmates housed at USP Marion.

•   Impulsive-Aggressive CODE Pilot – The Impulsive-Aggressive
    CODE Pilot is a residential program designed to identify inmates with
    impulsive-aggressive disorders and to provide effective treatment and
    management to reduce their maladaptive behavior.




                                    14
   •   Bureau Responsibility and Values Enhancement Program
       (BRAVE) – The BRAVE program was established in response to the
       BOP’s research which revealed that medium security inmates 30 years
       old or younger have the greatest difficulty adapting to institution rules.
       The goals of the BRAVE program are to: (1) assist in the adjustment
       of medium security inmates entering the BOP custody for the first
       time; (2) improve institutional adjustment and reduce incidents of
       misconduct through organized activities that promote positive
       behavior; and (3) identify psychological disorders that may contribute
       to criminal activity and poor institutional adjustment, and provide
       appropriate clinical intervention.

   •   Skills Program – The Skills Program is a specialized treatment
       program for inmates that have significant learning and social
       functioning deficits. The Skills Program is a cooperative working
       arrangement between unit, education, recreation, and psychology
       staff. The primary program components include: (1) assessment and
       orientation, (2) intensive treatment that includes relational, academic,
       and wellness skill building, and (3) transitional planning. Additionally,
       the Skills Program includes the use of well-screened inmate mentors.

   •   New Pathways Program – The New Pathways Program was
       established in response to research concluding that many women with
       criminal and substance histories also have a history of sexual,
       psychological and/or physical abuse, either as children or adults. The
       objectives of the New Pathways Program are to treat the trauma
       resulting from sexual, psychological, or physical abuse and to assist
       female inmates in developing the skills that will lead to independence
       and healthy decision making.

     The following studies support a link between the BOP’s psychological
programs, inmate misconduct, and successful reentry of inmates into the
community.

   •   Triad Drug Treatment Evaluation Project, Final Report of
       Three-Year Outcomes29 - This report is based on inmates who had
       been released from BOP custody for 3 years. The report revealed that
       male inmates who completed the Residential Drug Abuse Treatment
       Program and had been released to the community for a minimum of

       29
         The BOP, Triad Drug Treatment Evaluation Project, Final Report of Three-Year
Outcomes, dated September 2000.



                                           15
       3 years were 16 percent less likely to be rearrested and use drugs
       than those inmates who had not received treatment. Female inmates
       who completed the Residential Drug Abuse Treatment Program and
       had been released to the community for a minimum of 3 years were
       18 percent less likely to be rearrested, and 17 percent less likely to
       use drugs, than those inmates who had not received treatment.

   •   Technical Report for Preliminary Results From the Evaluation of
       the Beckley Responsibility and Values Enforcement (BRAVE)
       Program30 - The major finding of this evaluation was that inmates
       who participated in the BRAVE program had substantially lower rates
       of misconduct when compared to all other inmates who met the
       criteria used to select participants for the program that were
       incarcerated in the BOP during the same time period. The study found
       that inmates who participated in the BRAVE program, overall, had an
       average misconduct rate that was 26 percent lower than the
       comparison group. The study concluded that since inmates are
       directly designated into the BRAVE program upon incarceration, the
       lower misconduct rate could be attributed to the program itself.

       The study also found that 87 percent of the inmates successfully
       completed the program and the rate of misconduct among inmates
       successfully completing the program was 55 percent lower than the
       comparison group.

   •   Misconduct Rates by Drug Abuse Program (DAP) graduates in
       USPs31 - This review of misconduct rates among DAP graduates
       revealed a substantial decline in the rate of misconduct among USP
       inmates after graduation. Overall, the rate of misconduct among
       these inmates was 49 percent lower after they had graduated from
       DAP. For these inmates, the rate of violent offenses was reduced by
       46 to 54 percent depending on the level of offense, the rate of drug
       offenses was reduced by 57 percent, the rate of alcohol offenses was
       reduced by 35 percent, the rate of refusal/insubordination offenses
       was reduced by 55 percent, and the rate of other offenses was
       reduced by 44 percent.

       30
           The BOP, Office of Research and Evaluation, Technical Report for Preliminary
Results from the Evaluation of the Beckley Responsibility and Values Enhancement (BRAVE)
Program, (not dated).
       31
         The BOP, Office of Research and Evaluation, memorandum, Misconduct rates by
DAP graduates in USPs, dated October 8, 1996.



                                           16
Release Preparation Program

       To prepare inmates for final release into the community, the BOP
implemented the Release Preparation Program (RPP).32 The purpose of the
RPP is to provide inmates with the basic information and contacts necessary
for successful reentry into society and the work force. The BOP requires
each institution to have a RPP for all sentenced inmates reentering into the
community, with the exception of administrative maximum security
institutions. Each institution is responsible for developing the curriculum for
its RPP to suit the specific needs of its inmates. However, the RPP must be
based on core topics and include courses for each of the following six broad
categories: (1) health and nutrition, (2) employment, (3) personal finance
and consumer skills, (4) information and community resources, (5) release
requirements and procedures, and (6) personal growth and development.
BOP policy requires that eligible inmates enroll in the RPP no later than
30 months prior to release to the community or a CCC.

       The expected results of the RPP are that:

   •   inmates will participate in the RPP to enhance their chances for
       successful reintegration into society;

   •   the BOP will provide releasing inmates with information, programs,
       and services by entering into partnerships with private industry, other
       federal agencies, community services providers, and CCCs; and

   •   inmate recidivism will be reduced through participation in the RPP and
       contact with community resources.

       All sentenced inmates committed to BOP custody are required to
participate in the RPP except those: (1) committed for study and
observation; (2) committed to the BOP serving a sentence of 6 months or
less; (3) committed to the BOP with a sentence of "death"; (4) confined in
an administrative maximum security institution; or (5) deportable aliens.

       The BOP requires that its unit staff strongly encourage and support
inmate participation in the institution’s RPP. Inmates who refuse to
participate in the RPP are considered to lack the responsibility necessary for



       32
          BOP Program Statement No. 5325.06, Release Preparation Program, dated
March 4, 2002.



                                         17
CCC placement and will not ordinarily participate in these types of
community-based programs.

       The BOP has not conducted any studies related to successful
participation in its RPP and recidivism.


Inmate Placement Program

       The BOP’s Inmate Placement Program was established because many
inmates do not have basic skills necessary to secure and retain employment
after release. Many BOP institutions hold mock job fairs at which inmates
are interviewed by recruiters from real companies. The mock job fairs assist
inmates in developing interviewing skills. The Inmate Placement Program
also assists inmates in preparing employment portfolios that include a
resume, education certificates, diplomas, transcripts, and other documents
necessary for employment.

       The BOP contracted for three studies of its mock job fairs conducted at
FCI Terminal Island, FPC Phoenix, and FCI Big Spring.33 All three studies
generally concluded that inmate participation in mock job fairs:
(1) increased their awareness of employment opportunities that are
available to them upon release into the community, (2) provided them with
tools to assist them in finding employment upon release into the community,
and (3) increased their self-confidence and self-esteem. The studies also
concluded that after participating in the mock job fairs, employers perceived
inmates as confident, motivated, and employable, rather than as “ex-cons”
and “felons.”

       The BOP Inmate Placement Program Branch also conducted surveys
related to inmates that participated in mock job fairs prior to their release.
The surveys were conducted by sending questionnaires to the probation
officers of inmates that had participated in a mock job fair during
incarceration. The BOP survey results revealed that as of June 2001,
69 percent of inmates had jobs with an average monthly income of $1,288,
and only 7 percent of inmates had been reincarcerated. The second year
study revealed that as of May 2002, 61 percent of the inmates had jobs with
an average monthly income of $1,552, and again only 7 percent of inmates

      33
          Workplace Learning Resource Center, First Annual Mock Job Fair, “Gateway to
Success, Federal Correctional Institution Terminal Island, dated December 15, 1998;
Development Systems Corporation, Mock Job Fair, FCI Big Spring, dated May 17, 1999; and
Development Systems Corporation, Mock Job Fair, FPC Phoenix, dated May 26, 1999.



                                          18
had been reincarcerated. The surveys of inmates participating in mock job
fairs do not include an scientific correlation between inmate participation in
mock job fairs and post-release employment. Further, the surveys do not
include a comparison group consisting of inmates who did not participate in
a mock job fair during incarceration.


Faith-Based Programs

       One BOP Strategic Objective is to “ensure reasonable accommodations
exist for all recognized faith groups.”34 Further, BOP policy requires its
institutions to provide inmates of all faith groups with reasonable and
equitable opportunities to pursue religious beliefs and practices, within the
constraints of budgetary limitations and consistent with the security level
and orderly operation of the institution.35 The BOP provides religious
services and meeting times for numerous faith groups. Inmates can also
participate in self-improvement forums such as scripture study and religious
workshops. Additionally, the BOP also offers the following residential faith-
based program.

   •   Life Connections Program – The BOP recently established the Life
       Connections Program. According to the BOP, the purpose of the
       program is to foster personal growth and responsibility, and to use the
       inmate’s faith commitment “to bring reconciliation and restoration to
       the relationship among the victim, inmate, and the community.”
       Additionally, inmates are connected with faith-based support groups in
       the community in which they will be released. The program goals are
       to change behavior, improve adjustment to incarceration, and reduce
       recidivism. The BOP has established a FY 2003 goal of 545 inmates
       participating in a Life Connections program in its budget.


Recreational Programs

      BOP policy requires its institutions to encourage inmates to use their
leisure time effectively by offering a variety of activities, including sports,



       34
            The BOP, State of the Bureau 2002, Accomplishments and Goals.
       35
          BOP Program Statement No. 5360.08, Religious Beliefs and Practices, dated
May 25, 2001.



                                            19
wellness, arts, and hobby crafts.36 The expected results of offering
recreational activities to inmates are that the programs will: (1) keep
inmates occupied and reduce idleness; (2) enhance the physical, emotional,
and social well being of inmates; (3) encourage and assist inmates in
adopting healthy lifestyles through participation in physical fitness and
health education programs; and (4) decrease the need for inmate medical
treatment.


Community Corrections Centers (CCC)

      In addition to programs offered at its institutions, the BOP provides
services that assist inmates in transitioning from incarceration into the
community. The primary transitional service is the placement of inmates in
CCCs, also known as halfway houses. BOP policy requires that eligible
inmates should be released to the community through a CCC, unless there is
some impediment outlined by the BOP.37

       According to the BOP, during the transitional period at a CCC inmate
activities are closely monitored while inmates are provided with a suitable
residence, structured programs, job placement, and counseling. Further, all
CCCs offer drug testing and counseling for alcohol and drug-related
problems. During their stay, inmates are required to pay a subsistence
charge to defer the cost of their confinement in a CCC (25 percent of their
gross income, not to exceed the average daily cost of their CCC placement).

      We found that the following studies support a link between the BOP’s
transitional services offered through CCC placement and recidivism.

   •   PREP: Training Inmates through Industrial Work Participation,
       and Vocational and Apprenticeship Instruction 38 - The results of
       this study indicate a link between inmates who transition into the
       community through the BOP’s CCC placement program and
       post-release employment. The study found that 87 percent of inmates

       36
          BOP Program Statement No. 5370.10, Recreation Programs, Inmate, dated
February 23, 2000.
       37
            BOP Program Statement No. 7310.04, Community Corrections Center (CCC)
Utilization and Transfer Procedure, dated December 16, 1998.
       38
           The BOP, Office of Research and Evaluation, PREP: Training Inmates through
Industrial Work Participation, and Vocational and Apprenticeship Instruction, dated
September 24, 1996.



                                           20
       who transitioned into the community through a CCC achieved full-time
       employment, as compared to 62 percent of inmates who were released
       directly into the community. Further, an additional 9 percent of
       inmates who transitioned into the community through a CCC achieved
       day labor, as compared to 1 percent of inmates who were released
       directly into the community.

   •   Recidivism Among Federal Prisoners Released in 198739 - This
       study found that among other characteristics related to recidivism,
       inmates transitioned into the community through a CCC were less
       likely to recidivate than inmates released directly to the community.
       Thirty-one percent of inmates that were transitioned into the
       community through a CCC recidivated, as compared to 51 percent of
       inmates that were released directly to the community.


Release Planning

      The BOP has implemented a unit management concept to manage and
encourage inmate participation in its reentry programs. Under the unit
management concept, multi-discipline unit teams determine an inmate’s
program needs and monitor the inmate’s participation in programs that
encourage pro-social behaviors that benefit the inmates, staff, and the
community. The unit teams make decisions concerning supervision, work
assignments, and programming for the inmate, and at a minimum include
the unit manager, a case manager, and a counselor. Additionally, an
education advisor and psychology services representative are generally
members of the teams.

       The BOP requires that each newly committed inmate be scheduled for
an initial classification within 4 weeks of the inmate's arrival at the
institution. The initial classification occurs at a meeting with the unit team,
at which time the preliminary release preparation needs of the inmate are
assessed and the preparation of federal inmates for reentry into society
begins .

      In preparation for the initial classification, the BOP requires the unit
team to prepare a program review report. This report ordinarily includes
information on the apparent needs of the inmate and offers a correctiona l

       39
           The BOP, Office of Research and Evaluation, Recidivism Among Federal Prisoners
Released in 1987, dated August 4, 1994.



                                           21
program designed to meet those needs. In our review of inmate case files,
we found that generally the inmate's initial classification program review
report includes information on: (1) work requirements, (2) RPP
requirements, (3) educational and occupational program requirements, and
(4) CCC recommendations. According to BOP policy, the correctional
program plans are required to be stated in measurable terms, establishing
time limits, performance levels, and specific expected program
accomplishments.

      The primary source of data used to determine inmate’s needs at the
time of initial classification is the Presentence Investigation Report prepared
by the U.S. Probation Office. The Presentence Investigation Report includes
information related to the inmate’s: (1) criminal history, (2) substance
abuse, (3) education, (4) vocational skills, and (5) employment history.

      According to the BOP, release planning and preparation begins with
the initial classification and is reassessed throughout confinement during
program reviews conducted by the unit team. The unit team is required to
conduct a program review for each inmate at least once every 180 days.
Further, the unit team is required to conduct a program review at least
every 90 days when an inmate is wi thin 12 months of the inmate’s projected
release date. At the time of the program review, the unit team also
prepares a report that documents the inmate’s progress toward expected
program accomplishments and any program changes identified during the
program review process.

       However, regardless of the BOP’s emphasis on release preparation and
planning, the inmate may choose not to participate in the offered programs,
unless the program is a work assignment, mandated by federal statute,
court order, or BOP policy. Programs mandated by federal statute are the
literacy program for inmates who do not have a verified GED credential or
high school diploma and the ESL program. Further, federal statute requires
that 100 percent of eligible inmates participate in drug treatment programs.

      During our audit, we found that at the institutions we visited release
planning was continuous from initial classification through final release as
documented in inmate files. Additionally, our review of the inmate program
review reports included in the inmate files indicated that the BOP staff
strongly encouraged participation in its reentry programs.




                                      22
Inmate Skills Development Re-engineering Initiative

        In May 2000, the BOP established an Inmate Skills Development
Re-engineering Workgroup to examine how the BOP could improve efforts to
equip inmates with the necessary skills to succeed upon release. The
purpose of the re-engineering workgroup was to conduct an investigation of
successful agencies, institutions, and programs, as well as, literature and
other research, to identify best practices related to preparation of inmates
for release into the community. The workgroup also utilized focus groups
throughout the BOP to assist in the identification of the necessary inmate
skills including, educational, vocational, interpersonal, leisure time,
cognitive, wellness, and mental health.

      Based on the recommendation of the re-engineering workgroup, in
June 2003, the BOP established the Inmate Skills Development branch
within the Correctional Programs Division. The mission of the Inmate Skills
Development Branch is to “coordinate the [BOP’s] efforts to implement
inmate skill development initiatives and provide a centralized point of liaison
with external agencies to equip inmates with the necessary skills to succeed
upon release.”

      In order to achieve its mission the Inmate Skills Development branch
has been charged with the (1) development of an inmate skill assessment
process which includes the design of an individualized skill development plan
to monitor progress; (2) coordination of program linkage to address skill
needs; and (3) collaborative partnership building to assist with community
transition.

      To accurately evaluate inmate abilities and assess reentry needs, the
BOP has developed an Inmate Skills Assessment Tool. The assessment tool
was demonstrated over a six-month period at six institutions (one within
each of the BOP’s six regions) representing a wide range in security levels
and male and female inmates. Currently, the BOP’s Office of Research and
Evaluation is conducting an evaluation of the assessment tool and related
data.




                                      23
              FINDINGS AND RECOMMENDATIONS


I.    REENTRY PROGRAM COMPLETIONS

      The BOP does not demonstrate that its institutions
      maximized the number of inmates that complete programs
      designed to prepare inmates for successful reentry into
      society. We found that the BOP does not ensure that:
      (1) institutions set realistic occupational and educational
      completion goals, (2) institutions are held accountable for
      meeting goals, (3) data for occupational and educational
      programs is reviewed to identify low performance, and
      (4) statistical data related to psychological programs and
      RPP performance is maintained and utilized.

      As stated previously in this report, the research we reviewed related to
inmate recidivism concludes that the completion of occupational,
educational, psychological, and other programs during incarceration leads to
a reduction in recidivism and an increase in post-release employment
opportunities. We reviewed the types of programs offered by the BOP and
found that the 82 institutions included in our audit offer a full range of
occupational, educational, psychological, and other programs. We compared
the programs offered by the BOP to the research and concluded that the
BOP offers the types of programs that have been shown in these studies to
better prepare inmates for successful reentry into society. Therefore, our
audit focused on whether the BOP ensures that each of its institutions
maximize the number inmates that successfully complete its reentry
programs.

      To determine the process by which the BOP monitors its reentry
programs, we conducted site visits at institutions of each security level,
three regional offices, and the BOP Central Office. At the institutions, we
reviewed inmate files to determine whether the unit teams assessed inmate
reentry program needs and monitored inmate participation in reentry
programs. We found that at the institutions we visited, release planning was
continuous from initial classification through final release as documented in
inmate files. Additionally, our review of the inmate files revealed that the
BOP staff strongly encouraged participation in its reentry programs. At the
BOP Central Office and regional offices, we identified the process by which
the BOP monitors reentry program performance at its institutions. We found
that the BOP relies on its program review process and staff assistance visits
conducted by regional office officials to monitor reentry program


                                     24
performance. We reviewed program review reports and staff assistance
reports prepared by the BOP and found that the reports generally focused on
compliance with BOP policies rather than actual program performance.

       The BOP has a process that requires each institution to establish
annual program completion goals. If this process is used effectively, it could
ensure that each of its institutions maximize the number of inmates that
participate in and complete occupational and educational programs. Each
fiscal year the institution’s Supervisor of Education is required to report on
achievements towards the occupational and educational program goals in an
Annual Program Report for Education and Recreation Services. The BOP
does not require its institutions to establish goals and outcomes for
psychological programs or the RPP.

       According to BOP officials, since 1998 the BOP’s Education Branch has
systematically been working on establishing an effective strategic
management process for monitoring and evaluating education program
outcomes. This included the development of draft outcome based program
review guidelines, that were recently issued in December 2003; directing
regional staff to negotiate education completion goals for FY 2003 with the
institutions; and the development of a Quarterly Performance Indicator
Report to provide detailed educational program data to the institutions for
verification which became operational in February 2002.

       For each of the 82 institutions included in our audit, we reviewed the
institution’s Annual Program Report for Education and Recreation Services
for FY 1999 through FY 2002 to determine whether the institutions met their
occupational and educational program completion goals. We analyzed the
annual reported completion goals and the institution’s outcomes for
occupational, GED, ESL, ACE, and parenting programs to determine whether
stated goals were achieved and, as a result, whether the BOP as a whole
was able to maximize the number of inmates who completed these reent ry
programs. For FY 2002, we also reviewed the BOP’s goals and outcomes for
the overall percentage of inmates enrolled in one or more educational
programs during the year.

      We also compared the number of inmates who completed occupational
and educational programs to the number of inmates who eventually
withdrew from the programs. We calculated a program performance factor,
based on the number of completions divided by the number of completions
plus total withdrawals for each fiscal year. (We used completion and
withdrawal data that was reported in the BOP’s Key Indicators system for
educational and occupational programs to calculate the performance factor.)


                                     25
In our judgment, this comparison is an important indicator of an institution’s
success and can be used to compare program performance among
institutions. We were unable to analyze the percentage of inmates who
completed the BOP’s psychological programs and the RPP because the BOP
does not maintain completion and withdrawal statistics for these programs in
its Key Indicators system. The results of our performance factor calculations
and comparison are described later in this report.


Institution’s Annual Goals and Outcomes

       As stated previously, the BOP stated that it has been working to
establish an effective strategic management process for monitoring and
evaluating occupational and educational goals and outcomes since 1998.
However, we found that the BOP has not implemented a standardized
process followed by all institutions to establish occupational and educational
completion goals. Our review of the goals and outcomes reported in each
institution’s Annual Program Report for Education and Recreation Services
for FY 1999 through FY 2002 revealed that the institutions did not always set
realistic occupational, GED, ACE, and parenting goals. The institutions, in
conjunction with the BOP regional offices, establish their own completion
goals. Our review revealed that the goal setting process is inadequate and
inconsistent, resulting in institutions setting their goals too high or too low
when compared to the prior year’s performance. We found instances where
institutions consistently exceeded their goals for each fiscal year by a
significant margin, yet failed to establish goals for the following fiscal that
adequately reflected prior years outcomes.

   •   One institution with an occupational completion goal of 35 inmates and
       an actual outcome of 103 inmates completing the program in FY 2001,
       decreased its occupational completion goal to 20 inmates in FY 2002,
       but had an actual outcome of 111 inmates completing the program.

   •   One institution with an ESL completion goal of 60 inmates and an
       actual outcome of 74 inmates completing the program in FY 2001,
       kept the same ESL completion goal of 60 inmates in FY 2002, and had
       an actual outcome of 72 inmates completing the program. The same
       ESL completion goal of 60 inmates was also established for FY 2003.

   •   One institution with an ACE completion goal of 65 inmates and an
       actual outcome of 192 inmates completing the program in FY 2001,
       only increased its ACE completion goal to 120 inmates in FY 2002, and
       had an actual outcome of 293 inmates completing the program.


                                      26
      Conversely, we found institutions consistently did not meet their goals
by a significant margin, yet failed to establish goals for the following fiscal
that reflected prior years outcomes. For example, we found the following
instances where the established goals appear inconsistent with the prior
year’s performance and the annual report did not include an adequate
explanation for the increase or decrease in the goals from the prior year.

   •   One institution with a GED completion goal of 150 inmates had an
       actual outcome of 98 inmates completing the program in FY 1999, but
       increased its GED completion goal to 240 inmates in FY 2000, and had
       an actual outcome of 161 inmates completing the program.

   •   One institution with an ACE completion goal of 88 inmates had an
       actual outcome of 49 inmates completing the program in FY 2000, but
       increased its FY 2001 ACE goal to 132 completions.

       Additionally, we found a lack of consistency in setting goals between
institutions with similar security levels and populations. These institutions
had set very different goals for the fiscal year. Further, we found that the
program completion goals are stated as the number of completions rather
than a percentage of completions, which does not take into account the
number of enrollments or the effect the inmate population could have when
comparing among institutions.

      During our audit, BOP officials we interviewed agreed that the BOP
should standardize the goal setting process among institutions to enhance
consistency based on security level and population. In our judgment, the
factors considered in setting program goals should include not only the
security level of the institution and the inmate population, but also other
factors such as classroom size, number of classes, number of instructors,
whether the institution has a wait list for its program, and historical program
completion data.

      Although our audit concluded that the BOP’s goal setting process is
inadequate and inconsistent, we found that the completion goals were the
only available source of data within the BOP we could use to determine
whether the BOP institutions maximize the number of inmates that complete
occupational and educational reentry programs. Therefore, we analyzed the
goals and outcomes reported for each institutions’ occupational, GED, ESL,
ACE, and parenting programs using this information. For FY 2002, we were
able to also use the National Strategic Plan goal and outcome for
the percentage of inmates enrolled in one or more educational programs
during the fiscal year at each institution, which was only included in the


                                      27
annual report for FY 2002. The details of our analysis of each institution’s
completion goals and outcomes for FY 2001 and FY 2002 are included in
Appendix IV for occupational programs, Appendix V for GED programs
(FY 2001 only), Appendix VI for ESL programs, Appendix VII for ACE
programs, and Appendix VIII for parenting programs.

      Overall, based on the BOP’s reported information, we found that
during FY 1999 through FY 2002, a large percentage of the 82 institutions
included in our audit failed to meet their annual completion goals established
in the Annual Program Report for Education and Recreation Services for
occupational, GED, ESL, ACE, and parenting programs, as shown in the
following chart.

                  Percentage of Institutions Failing to Meet
                       Completions Goals by Program
                         FY 1999 through FY 2002

              Occupational           GED           ESL          ACE         Parenting
    1999            38%              49%           55%          38%             34%
    2000            42%              51%           58%          31%             53%
    2001            51%              39%           66%          47%             49%
    2002            64%              N/A40         69%          45%             47%

      We also found that 46 percent of the institutions we looked at failed to
meet their stated National Strategic Plan goal for the percentage of inmates
enrolled in one or more education programs in FY 2002 (Appendix IX).

      To determine which factors may have contributed to the large
percentages of institutions not meeting their occupational and educational
goals, we sent questionnaires to 24 of the 82 institutions included in our
audit. We selected our sample based on institution security level and inmate
population as of the end of FY 2002. For each of the four security levels
(minimum, low, medium, and high), we selected six institutions consisting of
the two institutions with the largest inmate populations, the two institutions
with the lowest inmate populations, and the two institutions with inmate
populations in the middle range. We received a response to our
questionnaire from all 24 institutions included in our sample. Based on the

       40
         The BOP did not require its institutions to establish goals for its GED programs for
FY 2002 because of a change in the GED testing format that was implemented at the
beginning of calendar year 2002.



                                             28
responses to our questions, we found that institutions that met their
completion goals cited the following factors:

  •   The education department at the institution was fully staffed or
      received increased staffing during the years that the goals were met or
      exceeded.

  •   The institution added additional classes to meet its goals.

  •   The inmate population at the institution increased resulting in
      increased enrollments.

  •   The institution increased enrollments by shortening weekly class time
      allowing more inmates to be enrolled or increased class size.

  •   Institution staff encouraged inmates not to withdraw from the reentry
      programs.

  •   Institution staff screened inmates prior to enrollment in voluntary
      programs to ensure that they have the ability and are willing to
      commit to completing the courses.

  •   The unit team assisted in providing inmates with information about the
      program benefits and encouraged participation.

      Based on the responses to our questions, we found that institutions
that did not meet their completion goals cited the following factors:

  •   The education department was not fully staffed.

  •   The Supervisor of Education did not receive GED testing authorization
      for a significant period of time; as a result, no testing was performed
      during the period.

  •   The institution experienced a decrease in the inmate population or the
      number of inmates with GED needs.

  •   The institution’s GED testing license was suspended because of a GED
      testing security breach.

  •   The institution experienced prolonged periods of lock-down.

  •   The institution reduced in the number of classes offered.


                                      29
   •   Inmates did not complete the course because the course was too long.

   •   Inmates were transferred prior to completing the program.

       Overall, we noted from the responses that institutions that met their
goals appear to promote a proactive management approach (i.e., strongly
encouraging inmate participation, screening applicants, and unit team
involvement) and effectively used their available resources (i.e., shortening
class time and adding more classes). Those institutions that did not meet
their goals attributed their failure to inadequate staffing, an insufficient
number of classes offered, and factors outside the control of staff such as
inmate population, inmate transfers, and prolonged periods of lock-down.
However, in our judgment some of these adverse factors could have been
recognized and mitigated if, as noted below, the BOP had a process in place
to determine why goals were not met and timely action taken to remedy
poor performance.

      We conducted interviews with BOP officials related to the large
percentage of institutions that failed to meet their annual occupational and
educational goals during FY 1999 through FY 2002. BOP officials stated that
currently institutions are not held accountable for failing to meet their goals.
BOP officials also stated the Central office has been moving towards
performance monitoring since 1998. Currently the institutions are only held
accountable for the program review guidelines, which focus on compliance
with BOP policy rather than performance.

       Despite the fact that the BOP’s annual report process was in place and
a large number of institutions failed to meet one or more of their annual
occupational or educational goals during FY 1999 through FY 2002, the BOP
did not have a mechanism to assess the information included in the required
reports, hold institutions accountable, or redirect resources to meet
emerging deficiencies. Institutions were not required to develop or
implement corrective action plans to remedy performance and ensure that
their goals are met in the future. In our judgment, the BOP’s failure to hold
institutions accountable for low performance contributed to its institutions
not meeting their completion goals.

       During our audit, the BOP issued a draft program review guideline that
includes a review of the institution’s performance towards meeting
its occupational, GED, and percent participation program goals. We noted
that the BOP’s program reviews generally only occur every 3 years for
institutions that receive a superior or good program review rating, every
2 years for institutions that receive an acceptable rating, and every


                                       30
18 months for institutions that receive a deficient rating. As a result, it
could be up to 3 years before corrective actions are taken for institutions
that failed to meet their annual occupational and educational program goals.
Further, the draft program review guidelines do not include a review of the
ESL, ACE, or parenting program goals. In our judgment, the draft program
review guidelines are not sufficient to ensure that corrective actions are
implemented timely. We recommend that the BOP establish and implement
an annual process to ensure that institutions are held accountable for
meeting their occupational and educational goals and that corrective action
plans are developed to remedy program performance and ensure that goals
are met in future fiscal years.

      We also noted during our audit that the FY 2001 Annual Program
Report for Education and Recreation Services only includes the occupational
and educational outcomes reported for FY 2000 and FY 2001, and the
projected outcomes for FY 2002. The FY 2001 report does not include the
FY 2001 occupational and educational goals for comparison with the
outcomes. The FY 2001 goals can only be found in the FY 2000 Annual
Program Report for Education and Recreation Services. Similarly, the
FY 2002 Annual Program Report for Education and Recreation Services does
not include the FY 2002 occupational and educational goals for comparison
with the outcomes. We recommend that the Annual Program Report for
Education and Recreation Services be revised to include both the goals and
outcomes for the reported fiscal year, so that the BOP can readily determine
whether its institutions meet their completion goals.


Percentage of Reentry Program Completions

       In addition to reviewing each institution’s occupational and educational
goals and outcomes, we also compared the number of inmates who
completed occupational and educational programs to the number of inmates
who eventually withdrew from the programs. We calculated a program
performance factor based on the number of completions divided by the
number of completions plus total withdrawals for each fiscal year.41 In our
judgment, this comparison is an important indicator of an institution’s
success and can be used to compare program performance among
institutions.


      41
           We used completion and withdrawal data that was reported in the BOP’s Key
Indicators system for educational and occupational programs to calculate the performance
factor.



                                           31
       According to BOP officials, the security level of an institution is one of
the factors that can have an impact on occupational and educational
program performance. For example, BOP officials stated that inmates at
high security institutions are more likely to refuse programs because they
are generally serving longer sentences than inmates at minimum, low, and
medium security institutions. As a result, we also analyzed the performance
factor by security level and determined the range in performance among the
institutions within the same security level.

      The BOP offers two types of occupational programs – occupational
technical programs and occupational vocational programs (which includes
apprenticeship programs). We calculated the performance factor for both
the occupational technical and vocational programs during FY 1999 through
FY 2002, based on completion and withdrawal data reported in the BOP’s
Key Indicators system for each of the institutions included in our audit. The
details of our calculations and analysis of each institution’s performance
factors for FY 2001 and FY 2002 are included in Appendix IX for occupational
technical programs and Appendix X for occupational vocational programs.

       Based on the occupational technical and vocational performance
factors, we found that during FY 1999 through FY 2002 there was a
significant range in the percentage of inmates that completed occupational
technical and vocational programs for each security level, as shown below.

                        Range in Performance Factors
                     Among Minimum Security Institutions
                          FY 1999 through FY 2002

               Occupational Technical                    Occupational Vocational
             Institutions Performance                   Institutions  Performance
    FY        Reporting   Factor Range                   Reporting   Factor Range
  1999              2                 100%                    10              0% - 100%
  2000              1                 100%                    10              25% - 100%
  2001              1                 100%                    11              50% - 100%
  2002              6            75% - 100%                   11               0% - 98%
 Source: The OIG analysis of the completions and withdrawals for occupational technical and
 occupational vocational programs reported for each minimum security institution in the BOP’s Key
 Indicators system.




                                               32
                         Range in Performance Factors
                        Among Low Security Institutions
                           FY 1999 through FY 2002

              Occupational Technical                     Occupational Vocational
            Institutions Performance                    Institutions  Performance
   FY        Reporting   Factor Range                    Reporting   Factor Range
 1999             13             0% - 100%                    20               8% - 98%
 2000             15              0% - 98%                    22              0% - 100%
 2001             15             0% - 100%                    24              0% - 100%
 2002             18             6% - 100%                    24              0% - 100%
Source: The OIG analysis of the completions and withdrawals for occupational technical and
occupational vocational programs reported for each low security institution in the BOP’s Key
Indicators system.


                         Range in Performance Factors
                       Among Medium Security Institutions
                           FY 1999 through FY 2002

              Occupational Technical                     Occupational Vocational
            Institutions Performance                    Institutions  Performance
   FY        Reporting   Factor Range                    Reporting   Factor Range
 1999             13             0% - 100%                    30              0% - 100%
 2000             13              0% - 99%                    30             17% - 100%
 2001             12             55% - 100%                   32              0% - 100%
 2002             23             0% - 100%                    31             25% - 100%
Source: The OIG analysis of the completions and withdrawals for occupational technical and
occupational vocational programs reported for each medium security institution in the BOP’s Key
Indicators system.




                                               33
                                               Range in Performance Factors
                                              Among High Security Institutions
                                                 FY 1999 through FY 2002

                                     Occupational Technical                     Occupational Vocational
                                   Institutions Performance                    Institutions  Performance
          FY                        Reporting   Factor Range                    Reporting   Factor Range
   1999                                2               79% - 97%                        9                          0% - 100%
   2000                                3               75% - 99%                        8                          0% - 100%
   2001                                5               0% - 100%                        9                          0% - 97%
   2002                                9               0% - 100%                        11                         0% - 98%
 Source: The OIG analysis of the completions and withdrawals for occupational technical and
 occupational vocational programs reported for each high security institution in the BOP’s Key
 Indicators system.



      As shown in the previous tables, there are significant ranges in the
performance factors among institutions of the same security level. The
following charts further demonstrate the wide range in performance factors
among institutions of the same security level for FY 2002.


                                                           Occupational Technical
                                                FY 2002 Performance Factor - Minimum Security
    Performance Factor




                         120.00%
                         100.00%
                          80.00%
                          60.00%
                          40.00%
                          20.00%
                           0.00%
                                       Pe




                                                       Br




                                                                   Du




                                                                                    Se




                                                                                                         Ya




                                                                                                                        Ald
                                                         ya
                                         ns




                                                                                                           nk
                                                                                      ym
                                                                     lut




                                                                                                                           ers
                                                           nF
                                           ac




                                                                                                             ton
                                                                        hF




                                                                                        ou




                                                                                                                              on
                                             ola




                                                             PC




                                                                                          rJ




                                                                                                              FP
                                                                          PC




                                                                                                                              FP
                                                                                            oh
                                                 FP




                                                                                                                C




                                                                                                                                C
                                                                                              ns
                                                   C




                                                                                                on
                                                                                                   FP
                                                                                                     C




                                                                      Institution

                                                                   Performance Factor

Source: The OIG analysis of the FY 2002 performance factor for occupational technical programs
reported for each minimum security institution in the BOP’s Key Indicators system.




                                                                    34
                                                               Occupational Vocational
                                                    FY 2002 Performance Factor - Minimum Security
    Performance Factor




                            100.00%
                            80.00%
                            60.00%
                            40.00%




                                                                                                          0%
                            20.00%




                                                                                                       0.0
                             0.00%
                                      Ne



                                                   Pe



                                                   Mo



                                                   Ya



                                                   Br



                                                                              Eg



                                                                                       Ald



                                                                                       M



                                                                                       Al



                                                                                       Se



                                                                                       Du
                                                                                         on
                                                     ya




                                                                                          en
                                                      ns




                                                      nk




                                                                                          ym



                                                                                          luth
                                                                                lin



                                                                                           ers
                                                      rga
                                        llis




                                                                                            tgo
                                                        n




                                                                                             wo
                                                        ac




                                                        ton




                                                                                 FP




                                                                                              ou
                                                                                              on
                                                          nto
                                             FP




                                                          FP




                                                                                               FP
                                                           ola




                                                                                                m



                                                                                                od



                                                                                                rJ
                                                             FP




                                                                                   C
                                                             wn




                                                                                                 FP
                                               C




                                                                                                 ery
                                                              C




                                                                                                 C
                                                               FP




                                                                                                  oh
                                                                                                   FP
                                                                C




                                                                                                    C
                                                                 FC




                                                                                                     FP




                                                                                                     ns
                                                                  C




                                                                                                      C



                                                                                                       on
                                                                    I




                                                                                                        C




                                                                                                          FP
                                                                                                            C
                                                                         Institution

                                                                      Performance Factor


Source: The OIG analysis of the FY 2002 performance factor for occupational vocational programs
reported for each minimum security institution in the BOP’s Key Indicators system.




                                                              Occupational Technical
                                                     FY 2002 Performance Factor - Low Security



                            120.00%
       Performance Factor




                            100.00%
                             80.00%
                             60.00%
                             40.00%
                             20.00%
                              0.00%
                                      As

                                      Be FCI

                                      Sa nt F

                                      Bu

                                      Ta CI

                                      Lo see

                                      Lo FCI

                                      Big CI

                                      Fo

                                      Se CI

                                      M ile F

                                      Te

                                      Sa a FC

                                      La

                                      W

                                      Fo FC

                                      Ba

                                      Al
                                        ilan




                                         en I
                                         as CI
                                         mp




                                         xa
                                         ret



                                          rt D FCI
                                          lah
                                          hla




                                          nd
                                          au




                                          rre

                                          str
                                          tne I
                                          ffo




                                           ag




                                           Tu CI
                                            Sp




                                             ec
                                             rka




                                             wo
                                             to




                                              op CI
                                              rd




                                              sto I
                                              mo
                                               nd




                                               st
                                               ov
                                               as

                                               oc CI




                                               na
                                               ix F
                                               rF




                                               FC I
                                                rin




                                                 a
                                                 F




                                                  n

                                                  ne




                                                  Ci
                                                  F




                                                  od
                                                  F
                                                   F
                                                   g




                                                   I
                                                    C




                                                    C
                                                     ty
                                                      F




                                                       FC
                                                        CI




                                                        I
                                                        F




                                                        F
                                                        C




                                                          I




                                                                        Institution

                                                                     Performance Factor

Source: The OIG analysis of the FY 2002 performance factor for occupational technical programs
reported for each low security institution in the BOP’s Key Indicators system.




                                                                        35
                                                    Occupational Vocational
                                           FY 2002 Performance Factor - Low Security
   Performance Factor




                             100.00%
                             80.00%
                             60.00%
                             40.00%
                             20.00%
                              0.00%
                                       For
                                       Saf
                                       Ash
                                       Sea
                                       But
                                       Bas
                                       San
                                       Tall
                                       Lom
                                       Mila
                                       For
                                       Alle
                                       Yaz
                                       Col
                                       Elkt
                                       Lor
                                       Pet
                                       Dan
                                       Dub
                                       Bea
                                       Tex
                                       Big
                                       La T
                                       Wa
                                           ema
                                           t Di
                                           ner




                                           ersb
                                           rest




                                           etto




                                           sec
                                           ford




                                           aha




                                           nwo




                                           on




                                            arka
                                            Spr
                                            trop




                                            oo C
                                            land




                                            nF




                                            um
                                            dsto
                                            gov




                                             bur
                                             lin F
                                              poc




                                              una
                                                xF




                                                 FCI




                                                 a FC
                                                 ont
                                                 FCI




                                                 CI
                                                 sse




                                                 yF




                                                 ing
                                                  ille




                                                  nF




                                                  urg
                                                  FC
                                                  City




                                                  od
                                                   FC




                                                   na F
                                                   ne
                                                    FCI




                                                    CI
                                                    FCI




                                                    FCI




                                                    ity F




                                                     FCI
                                                      CI




                                                       CI
                                                       eF
                                                       FCI




                                                       I
                                                       FCI




                                                       FCI


                                                       F
                                                       C
                                                        I




                                                        FCI




                                                         FCI




                                                         I
                                                          FCI




                                                          CI
                                                           CI
                                                           I
                                                           CI
                                                             CI


                                                                Institution

                                                            Performance Factor

Source: The OIG analysis of the FY 2002 performance factor for occupational vocational programs
reported for each low security institution in the BOP’s Key Indicators system.




                                                     Occupational Technical
                                          FY 2002 Performance Factor - Medium Security
        Performance Factor




                             100.00%
                              80.00%

                              60.00%

                              40.00%
                              20.00%
                                                                                            0%
                                                                                            0%
                                                                                         0.0
                                                                                         0.0




                               0.00%
                                       Flo
                                       Ra ce F
                                       El rook
                                       Be o FC I
                                       Ot FC
                                       Je e FC
                                       M FCI
                                       Ox his F
                                       Bu FC
                                       Be r FC
                                       Te on
                                       Ph al Is I
                                       Vic F FC
                                       Es ile
                                       M CI
                                       Gr i FC
                                       Sh vile
                                       M an F
                                       Pe na
                                       Ed FCI
                                       Th ield F
                                       En Riv
                                       Sc oo FCI
                                         ari
                                         em




                                         iam
                                         su
                                          Re F


                                          isv I




                                          ee I




                                          ree C
                                          rm t FC




                                           til FC




                                           hu d F
                                           oe lan
                                           ck




                                           au I




                                           eri FC




                                           gle ers
                                           kin FC
                                           for C
                                           tne I




                                           ge
                                            y B CI
                                            ren




                                            tor CI




                                              an CI
                                              p I




                                              F
                                               ley I




                                               d
                                               n
                                                d




                                                nix d
                                                m
                                                il
                                                n C




                                                ylk CI
                                                p




                                                in




                                                 f
                                                 v




                                                 w

                                                   il F
                                                       CI
                                                        I


                                                        I
                                                        I




                                                         I




                                                         I
                                                           I




                                                              Institution

                                                           Performance Factor


Source: The OIG analysis of the FY 2002 performance factor for occupational technical programs
reported for each medium security institution in the BOP’s Key Indicators system.




                                                              36
                                                            Occupational Vocational
                                                  FY 2002 Performance Factor - Medium Security
    Performance Factor




                                100.00%
                                 80.00%
                                 60.00%
                                 40.00%
                                 20.00%
                                  0.00%
                                          Tus
                                          Bec FCI
                                          But y FCI
                                          Col FCI
                                          Me an FCI
                                          Oak is FC
                                          Alle
                                          Cum od FC
                                          Vic
                                          Pek ille FC
                                          Est
                                          Oxf CI
                                          Fair FCI
                                          Tall
                                          Mia
                                          Ter FCI
                                          Edg al Isla
                                          Ma
                                          Ma
                                          Sch ester F
                                          Flor kill FC
                                          El R e FCI
                                          She o FCI
                                          McK n FCI
                                          Ray n FCI
                                          Otis ook FC
                                          Pho
                                          Thr
                                          Eng
                                          Gre ood F I
                                          Bea ille FC
                                              torv nd FC
                                              mp




                                              rian FCI
                                              nch FCI
                                              ill F
                                              ner




                                              ord




                                              ee
                                              em




                                              min
                                               ade I
                                               mi
                                               nwo CI
                                               con




                                               env
                                               ton
                                               kle




                                               enc
                                               in F




                                               uyl




                                               ville




                                               um
                                               enix I


                                                lew rs FC
                                                efie




                                                rida
                                                dale




                                                en


                                                 ea
                                                 Br
                                                 ber
                                                   h




                                                   R
                                                    n




                                                    ont I
                                                    g



                                                     ld
                                                     FC
                                                     C
                                                      la




                                                      a




                                                      i
                                                       FC
                                                       aF




                                                       v
                                                       FCI
                                                        F




                                                        I




                                                         e



                                                          FCI
                                                           CI


                                                            nd F
                                                            I




                                                            CI
                                                            I
                                                             I




                                                              CI




                                                              I
                                                               I
                                                                 I




                                                                   CI
                                                                           Institution


                                                                     Performance Factor

Source: The OIG analysis of the FY 2002 perfo rmance factor for occupational vocational programs
reported for each medium security institution in the BOP’s Key Indicators system.




                                                             Occupational Technical
                                                    FY 2002 Performance Factor - High Security
           Performance Factor




                                100.00%
                                 80.00%
                                 60.00%
                                 40.00%
                                 20.00%
                                                                                                             0%
                                                                                                          0.0




                                  0.00%
                                           Le



                                           At



                                                             Al



                                                             M



                                                                               Po



                                                                                          Be



                                                                                          Le



                                                                                          Flo



                                                                                                              Te
                                                               ari
                                             lan



                                                                en




                                                                                             av
                                              wi




                                                                                                                rre
                                                                                             au




                                                                                             ren
                                                                                 loc
                                                                 on
                                                sb




                                                                   wo




                                                                                               en
                                                 ta




                                                                                                m




                                                                                                                    Ha
                                                                                                ce
                                                                                    k
                                                   urg




                                                                    US




                                                                                                 on



                                                                                                 wo
                                                    US




                                                                                   US
                                                                     od




                                                                                                                      ute
                                                                                                   US
                                                                                                   tU



                                                                                                    rth
                                                                       P
                                                       US



                                                       P



                                                                        US




                                                                                     P




                                                                                                                       US
                                                                                                       P
                                                                                                       SP




                                                                                                        US
                                                         P




                                                                          P




                                                                                                                         P
                                                                                                          P




                                                                          Institution

                                                                     Performance Factor


Source: The OIG analysis of the FY 2002 performance factor for occupational technical progra ms
reported for each high security institution in the BOP’s Key Indicators system.




                                                                        37
                                                 Occupational Vocational
                                        FY 2002 Performance Factor - High Security
    Performance Factor




                         100.00%
                         80.00%
                         60.00%
                         40.00%
                         20.00%
                          0.00%
                                   Le



                                   Lo



                                   Te



                                   Al




                                                                At



                                                                Le



                                                                             M



                                                                             Co



                                                                             Be



                                                                             Flo
                                   Po



                                                                  lan




                                                                               ar
                                     en
                                      m




                                                                   av
                                      wi




                                      rre




                                                                                au



                                                                                ren
                                                                                lem
                                       loc




                                                                                  ion
                                         po
                                         sb




                                         wo




                                                                     en
                                                                     ta




                                                                                    m
                                          Ha




                                                                                    ce
                                          kU




                                                                                     an
                                           cU
                                           urg




                                                                        wo
                                                                        US




                                                                                      on
                                            od




                                                                                      US




                                                                                       US
                                             ute




                                             SP




                                                                                        US



                                                                                        tU
                                                                          rth
                                               SP




                                                                           P
                                               US




                                               US




                                                                                         P




                                                                                          P
                                                 US




                                                                                          SP
                                                                                           US




                                                                                           P
                                                  P




                                                  P
                                                   P




                                                                                             P
                                                           Institution

                                                        Performance Factor

Source: The OIG analysis of the FY 2002 performance factor for occupational vocational programs
reported for each high security institution in the BOP’s Key Indicators system.


      Despite the wide range in the percentage of inmates that completed
occupational technical and vocational programs at institutions of the same
security level, we found that similar to the occupational and educational
completion goals and outcomes the BOP did not have a formal process for
reviewing performance data at each institution to identify low performance.

       To determine the factors that may have contributed to institutions with
a low, average, or high performance factor for its occupational technical and
vocational programs for FY 1999 through FY 2001, we included in our
questionnaires to 24 of the 82 institutions questions pertaining to the
performance factors. Based on the questionnaires, we found that
institutions that had a high performance factor for occupational technical and
vocational programs most commonly cited the following factors:

   •                     Screening of inmates prior to enrollment to ensure that they have the
                         ability and are willing to commit to completing the course.

   •                     Support from the unit team to ensure that inmates are not transferred
                         prior to completing the course.

   •                     Shortening weekly class time to allow more inmates to complete the
                         program.


                                                          38
  •   Expanding the occupational program.

  •   Offering programs based on inmate interests.

      Based on the responses to our questions, we found that institutions
that had a low performance factor for occupational technical and
occupational vocational programs most commonly cited the following
factors:

  •   Occupational programs were not fully staffed.

  •   Programs were eliminated because of contract or security reasons.

  •   Inmates were released or transferred prior to completing the program.

  •   Inmates withdrew from the program in order to maintain work
      assignments.

  •   Curriculum was too difficult or too long for inmates to complete.

       Similar to the responses we received related to goals and outcomes,
institutions with high performance rates appear to be proactive in the
management and use of available resources (i.e., inmate screening,
sufficient number of classes offered to meet inmate needs, and strongly
encouraging inmate participation). Those institutions that did not meet their
goals attribute their failure to inadequate staffing, difficult classes, and
factors outside the control of staff such as inmate transfers and security
issues.

      We also reviewed the GED performance factor as reported in the BOP’s
Key Indicators system. Similar to the other areas we reviewed, we found a
wide range in the percentage of inmates that completed the GED program
among the BOP institutions. For example, during FY 2002

  •   the GED performance factor for minimum security institutions ranged
      from 22 to 57 percent,

  •   the GED performance factor for low security institutions ranged from
      8 to 45 percent,

  •   the GED performance factor for medium security institutions ranged
      from 0 to 45 percent, and



                                     39
   •   the GED performance factor for high security institutions ranged from
       7 to 53 percent.

      Our discussions with BOP officials during the audit revealed that they
did not believe that the GED performance factor included in the BOP’s Key
Indicators system was an accurate assessment of its institutions’ literacy
programs. BOP officials felt that since the GED literacy program was a
mandatory program, looking at a GED performance factor based on
voluntary withdrawals would be a better measure of performance since
involuntary withdrawals are often outside the control of the education
department, i.e. the inmate might have been released or transferred prior to
completing the program.

       To account for the BOP’s concerns, we recalculated the GED
performance factor based only on voluntary withdrawals for each of the
institutions included in our audit.42 The results of our calculation revealed
higher completion rates for each institution; however, we continued to find
that wide ranges among institutions in the percentage of inmates that
completed the GED program. For example, during FY 2002

   •   the GED performance factor based on voluntary withdrawals for
       minimum security institutions now ranged from 63 to 99 percent
       (compared to the 22 to 57 percent reported),

   •   the GED performance factor based on voluntary withdrawals for low
       security institutions now ranged from 49 to 97 percent (compared to
       the 8 to 45 percent reported),

   •   the GED performance factor based on voluntary withdrawals for
       medium security institutions now ranged from 0 to 79 percent
       (compared to the 0 to 45 percent reported), and

   •   the GED performance factor based on voluntary withdrawals for high
       security institutions ranged from 17 to 82 percent (compared to the
       7 to 53 percent reported).

      When we presented this analysis to the BOP education officials, they
stated that they also did not believe that a GED performance factor based on
voluntary withdrawals provided an accurate assessment of the literacy

       42
          The GED performance factor based on voluntary withdrawals was calculated
based on completions divided by completions plus voluntary withdrawals for the fiscal year.



                                            40
program performance at its institutions. They felt that factors such as
inmates dropping one literacy class and subsequently enrolling in a different
class could increase the number of voluntary withdrawals and negatively
impact the GED performance factor based on voluntary withdrawals.
However, we were unable to obtain any data from the BOP that supports
that the wide range in performance is solely a result of factors such as
inmates dropping one literacy class and subsequently enrolling in a different
class.

       In our judgment, the BOP needs to develop a suitable measure of
literacy program performance at its institutions. If BOP officials believe that
the GED performance factor included in its Key Indicators system does not
accurately measure literary program performance then it should be changed.
The new performance measure should provide an accurate picture of
the percentage of all inmates that arrive at the BOP institutions without a
GED credential or high school diploma that complete the literacy program
during incarceration.

       In the absence of reliable information to measure GED program
performance, we asked BOP officials how they monitor the GED program
performance at the institutions. They stated that closely track
the percentage of citizen inmates required to participate in the literacy
program that have dropped out and are therefore not promotable above the
maintenance pay grade for BOP work programs. These inmates are
designated as GED Dropped Non-promotable (GED DN) in the BOP’s SENTRY
system.43 The BOP’s Key Indicators system also includes data on the
number and percentage of GED Dropped Non-promotable inmates at each
institution as of the end of the fiscal year. 44

       In our judgment, the percentage of GED Dropped Non-promotable
inmates based on the BOP’s SENTRY system also is not an accurate measure
of literacy program performance. The percentage of GED Dropped
Non-promotable inmates does not provide an accurate picture of the total
number of inmates that arrive at the institution without a GED credential or
high school diploma who subsequently complete the literacy program during
incarceration. Further, the percentage is based on the total institution
population that includes inmates who arrive at the institution with a GED


      43
          SENTRY is the BOP’s national on-line automated information system used to
provide operational and management information requirements.
      44
           The BOP’s Key Indicators, Current Educational Needs Fact Sheet.



                                            41
credential or high school diploma and inmates whose GED status is
unknown.

      Nonetheless, since BOP officials indicated that they closely track
the percentage of GED Dropped Non-promotable inmates, and this
information is included in the BOP’s Key Indicators system, we also reviewed
these percentages for each security level and each institution included in our
audit for FY 1999 through FY 2002. The details of our review of
the percentage of GED Dropped Non-promotable inmates at each institution
for FY 2001 and FY 2002 are included in Appendix XI. We found that for
each security level the percentage of GED Dropped Non-promotable inmates
generally decreased from FY 1999 through FY 2002. However, as with the
other areas we looked at, we found a significant range among institutions at
the same security level. Specifically,

   •   For FY 1999, there was an 88 percent difference in the percentage of
       GED Dropped Non-promotable inmates between the lowest and
       highest minimum security institutions, a 90 percent difference betwe en
       the low security institutions, a 96 percent difference between the
       medium security institutions, and a 60 percent difference between the
       high security institutions.

   •   For FY 2000, there was a 90 percent difference in the percentage of
       GED Dropped Non-promotable inmates between the lowest and
       highest minimum security institutions, an 85 percent difference
       between the low security institutions, a 94 percent difference between
       the medium security institutions, and a 72 percent difference between
       the high security institutions.

   •   For FY 2001, there was a 93 percent difference in the percentage of
       GED Dropped Non-promotable inmates between the lowest and
       highest minimum security institutions, a 93 percent difference between
       the low security institutions, a 91 percent difference between the
       medium security institutions, and a 60 percent difference between the
       high security institutions.

   •   For FY 2002, there was a 96 percent difference in the percentage of
       GED Dropped Non-promotable inmates between the lowest and
       highest minimum security institutions, a 93 percent difference between
       the low security institutions, a 93 percent difference between the
       medium security institutions, and a 59 percent difference between the
       high security institutions.



                                      42
      We also noted that the BOP maintains data on the percentage of
noncitizen inmates required to participate in the literacy program that have
dropped out and are therefore subject to a loss of good conduct time. These
inmates are designated as Exempt GED Non-promotable (GED XN) in the
BOP’s SENTRY system. The BOP’s Key Indicators system also includes data
on the number and percentage of Exempt GED Non-promotable inmates at
each institution as of the fiscal year-end.

      We reviewed the percentage of Exempt GED Non-promotable inmates
for each security level during FY 1999 through FY 2002 based on the data
contained in the BOP’s Key Indicators system. We found that, with the
exception of minimum security institutions, for each security level as a whole
the percentage of Exempt GED Non-promotable inmates increased from
FY 1999 through FY 2002, as shown in the following charts.


                                             Exempt from GED / Non-promotable (XN) - Minimum Security
                                                                FY 1999 - FY 2002
    Percent Exempt from GED / Non-




                                     0.22%




                                                                                                          0%




                                                                                                                         0%
                                                          0%




                                     0.20%

                                                                                                       0.2




                                                                                                                      0.2
                                                       0.2
            promotable (XN)




                                     0.18%

                                     0.16%

                                     0.14%

                                     0.12%
                                                                             0%




                                     0.10%
                                                                          0.1




                                     0.08%
                                                1999




                                                                   2000




                                                                                                2001




                                                                                                               2002


                                                                                  Fiscal Year

                                                                 Exempt from GED / Non-promotable (XN)

Source: The OIG analysis of the percentage Exempt GED Non-promotable inmates at minimum
security institutions reported in the BOP’s Key Indicators system for FY 1999 through FY 2002.




                                                                           43
                                               Exempt from GED / Non-promotable (XN) - Low Security
                                                                  FY 1999 - 2002
    Percent Exempt from GED / Non-




                                                                                                                %




                                                                                                                                 %
                                     21.00%




                                                                                                             .00




                                                                                                                              .00
            promotable (XN)




                                                                                                           21




                                                                                                                            21
                                     19.50%




                                                                                 %
                                                                              .30
                                                                            19
                                     18.00%                  %
                                                          .50
                                                        17




                                     16.50%
                                                1999




                                                                    2000




                                                                                                   2001




                                                                                                                    2002
                                                                                     Fiscal Year

                                                                  Exempt from GED / Non-promotable (XN)

Source: The OIG analysis of the percentage Exempt GED Non-promotable inmates at low security
institutions reported in the BOP’s Key Indicators system for FY 1999 through FY 2002.




                                              Exempt from GED / Non-promotable (XN) - Medium Security
                                                                 FY 1999 - FY 2002
    Percent Exempt from GED / Non-




                                     12.00%
                                                                                                                %




                                                                                                                                  %
                                                                                                             .50




                                                                                                                               .30
                                     11.00%
                                                                                                           11
            promotable (XN)




                                                                                                                             11
                                     10.00%
                                                                               0%
                                                                            9.6




                                     9.00%

                                     8.00%

                                     7.00%
                                                           0%
                                                        6.5




                                     6.00%
                                                 1999




                                                                     2000




                                                                                                    2001




                                                                                                                     2002




                                                                                     Fiscal Year

                                                                  Exempt from GED / Non-promotable (XN)

Source: The OIG analysis of the percentage Exempt GED Non-promotable inmates at medium
security institutions reported in the BOP’s Key Indicators system for FY 1999 through FY 2002.




                                                                            44
                                             Exempt from GED / Non-promotable (XN) - High Security
                                                                FY 1999 - 2002
    Percent Exempt from GED / Non-



                                     6.00%




                                                                                                                       0%
                                     5.50%




                                                                                                                    5.5
                                                                                                        0%
            promotable (XN)




                                     5.00%




                                                                                                     5.1
                                                                           0%
                                     4.50%




                                                                        4.5
                                     4.00%

                                     3.50%

                                     3.00%
                                                       0%
                                                    3.0




                                     2.50%
                                             1999




                                                                 2000




                                                                                              2001




                                                                                                             2002
                                                                                Fiscal Year

                                                               Exempt from GED / Non-promotable (XN)

Source: The OIG analysis of the percentage Exempt GED Non-promotable inmates at high security
institutions reported in the BOP’s Key Indicators system for FY 1999 through FY 2002.


      As shown in the previous charts, the percentage of Exempt GED
Non-promotable inmates increased for each security level from FY 1999
through FY 2002. Therefore, in our judgment, the BOP has not adequately
monitored the percentage of noncitizen inmates that have dropped out of
the GED program.


Psychological Programs and RPP Participation

      As stated previously, we were unable to analyze the percentage of
inmates who complete the BOP’s psychological programs because the BOP
does not maintain completion and withdrawal statistics for these programs in
its Key Indicators system.

      In its budget, the BOP tracks the following performance indicators
related to its psychological programs:

   •                         percentage of inmates in residential drug treatment,

   •                         number of inmates in non-residential drug treatment,

   •                         percentage of intake assessments,


                                                                        45
   •   number of individual therapy/crisis counseling sessions provided, and

   •   number of suicide risk assessments.

However, these performance indicators only cover a small portion of the
psychological programs offered by the BOP.

     Prior to January 2003, the BOP did not report on psychological
program performance data for most of its programs. As a result, we were
unable to use this data to analyze trends related to performance, such as
completion rates, failure rates, and withdrawal rates.

      Since January 2003, the BOP has reported on monthly participation
data for the majority of its psychological programs; however, this data is still
not included in its Key Indicators system. The data provided in the monthly
reports prepared by the BOP’s Office of Research and Evaluation includes:
(1) admissions, (2) completions, (3) expulsions, (4) failures,
(5) withdrawals, (6) incompletes, and (7) waiting lists for the following
programs.

   •   Residential Drug Abuse Treatment Program,

   •   Non-Residential Drug Abuse Treatment Program,

   •   Transitional Drug Abuse Treatment Program,

   •   BRAVE Program,

   •   CODE Program,

   •   New Pathways Program, and

   •   Sex Offender Treatment Program.

      BOP officials stated that the participation data is a tool but not
necessarily a measure of performance. For example, BOP officials stated
that a large failure or expulsion rate in a psychological program is not
necessarily an indication of low performance because sometimes expulsions
are necessary to hold inmates accountable for their actions.

      BOP officials also stated that it is difficult to evaluate performance of
psychological programs since they are dealing with human behavior that is
not easily determined based on completion rates or other data and that


                                       46
statistical data for these types of programs is best used as a tool to evaluate
trends over a period of time. In our judgment, participation data of this
nature is also relevant and should be used by management as an indicator
of potential immediate concerns. For example, a large number of
withdrawals could indicate inmates are being transferred to another
institution prior to completing a program. In addition, a large number of
expulsions, failures, and withdrawals also may indicate a problem related to
a specific psychological program at an institution.

       At each of the three regional offices included in our audit, we identified
the process for evaluating the monthly psychological program participation
data for the institutions in their respective areas. We found that the BOP
regional offices did not have a standardized process for evaluating the
participation data or holding its institutions accountable for low participation.
Generally, if the regional officials stated that if they noted trends in the
participation data, such as a high failure rate in a particular program on the
monthly participation report, they would follow-up by telephone. However,
we found no formal review process in place at the regional level.

      As with its psychological programs, we found that he BOP does not
maintain completion and withdrawal statistics for the RPP in its Key
Indicators system. Additionally, one of the expected outcomes of the BOP’s
RPP is that inmate recidivism will be reduced. Yet, the BOP has not
conducted any studies demonstrating that successful participation in its RPP
leads to a reduction in recidivism.

       All eligible inmates committed to BOP custody are required to
participate in the RPP and must enroll in the program no later than
30 months prior to release to the community or a CCC. Although the BOP
can determine the RPP status of each inmate at any given point in time, no
statistical data related to RPP performance is tracked.

       At each of the three regional offices included in our audit, we identified
the process for evaluating RPP participation for its institutions. We found
that two of the three regional offices did not review RPP participation. The
third, the Northeast Regional Office, sends a monthly roster to each of its
institutions listing those inmates within 30 months of release that have not
enrolled in the RPP. However, no formal response is required from the
institutions. The BOP should, at a minimum, track participation data for its
institutions to determine the percentage of eligible inmates that have
completed the RPP prior to release into the community. Based on our
discussions with BOP officials, we determined that the percentage of eligible



                                       47
inmates that have completed the RPP prior to release into the community
could be included in its Key Indicators system.

      In addition to tracking the percentage of eligible inmates that have
completed the RPP prior to release into the community, the BOP needs to
establish a mechanism to hold institutions accountable for RPP performance
and implement corrective actions plans to remedy low performance.


Conclusion

      In summary, we found that the BOP does not ensure that:
(1) institutions set realistic occupational and educational completion goals,
(2) institutions are held accountable for meeting goals, (3) data for
occupational, educational, and psychological programs is reviewed to identify
low performance, and (4) statistical data related to RPP performance is not
maintained. As a result, we concluded that the BOP does not provide
assurance that each of its institutions maximized the number of inmates that
complete programs designed to prepare inmates for successful reentry into
society.


Recommendations

     We recommend that the BOP:

1.   Ensure that a formalized process is established to set realistic
     occupational and educational completion goals stated as a percentage
     of completions to account for total enrollments and inmate population.
     The factors considered in setting educational goals should include the
     security level of the institution, inmate population, classroom size,
     number of classes, number of instructors, whether the institution has a
     wait list for its programs, and historical educational program
     completion data.

2.   Establish and implement a formal process to ensure that institutions
     are held accountable for meeting their occupational and educational
     goals and that corrective action plans are developed to remedy
     performance so that goals are met in future years.




                                     48
3.    Revise the Annual Program Report for Education and Recreation
      Services to include both the occupational and educational goals and
      outcomes for the reported fiscal year so that the BOP can readily
      determine whether the institution met its goals.

4.    Establish and implement a formal standardized process for evaluating
      the performance factor for occupational technical and vocational
      programs on an annual basis to ensure that the BOP institutions are
      held accountable for low performance and that corrective action plans
      are developed to remedy occupational program performance.

5.    Ensure that a formal standardized process is developed and
      implemented to screen all inmates prior to enrollment in all
      occupational programs to ensure that they have the ability and are
      willing to commit to completing the course.

6.    Ensure that a suitable measure of literacy program performance is
      developed to evaluate its institutions. The new performance measure
      should provide an accurate picture of the percentage of all inmates
      that arrive at the BOP institutions without a GED credential or high
      school diploma who complete the literacy program during
      incarceration.

7.    Ensure that the percentage of citizen inmates required to participate in
      the literacy program that have dropped out at each institution is more
      closely evaluated.

8.    Ensure that the percentage of noncitizen inmates that have dropped
      out of the literacy program at each institution is monitored.

9.    Establish and implement a mechanism to hold institutions accountable
      for the monthly psychological program participation data that includes
      corrective action plans for institutions with low participation.

10.   Ensure that participation data is tracked for all of the BOP institutions
      to determine the percentage of eligible inmates that have completed
      the RPP prior to release into the community.

11.   Establish and implement a mechanism to hold institutions accountable
      for RPP performance that includes corrective action plans for
      institutions with low performance.




                                       49
II.   Community Corrections Centers (CCC)

      The BOP offers transitional services to inmates through
      CCC placement, which has been found to increase the
      chances of successful reentry into society. The BOP
      establishes CCC utilization targets for its minimum, low,
      and medium security institutions. However, our audit
      revealed that a large number of institutions failed to meet
      their CCC utilization targets during FY 2000 through
      FY 2002. Also, the BOP has not developed a CCC
      utilization target for its high security institutions, and does
      not adequately ensure that all eligible inmates are
      provided the opportunity to transition through a CCC in
      preparation for reentry into society.

      In addition to reentry programs offered to inmates while serving their
sentences at BOP institutions, the BOP provides services that assist inmates
when they transition from incarceration into the community. The primary
transitional service provided by the BOP is the placement of inmates in
CCCs, also known as halfway houses. Pursuant to 18 U.S.C. § 3624(c), the
BOP is required, to the extent possible, to assure that inmates spend a
reasonable part of their term of incarceration under conditions that will
afford the prisoner a reasonable opportunity to adjust to and prepare for
reentry into the community. The BOP believes the transitional services
provided through a CCC meet the requirements of 18 U.S.C. § 3624(c).
Pursuant to this federal statute, the BOP can place inmates in a CCC for a
period not to exceed the last 6 months of confinement or a period equal to
10 percent of the inmate’s sentence, whichever is less.

      At the institutions we visited, we reviewed inmate files to determine
whether eligible inmates were placed in CCCs prior to release. We found
that the unit team generally referred eligible inmates for CCC placement;
however, not all inmates referred for CCC placement were transitioned
through a CCC. The reasons that those inmates that were not transitioned
through a CCC included that the inmates (1) were not eligible (e.g., were
deportable aliens), (2) were considered a flight risk, (3) were considered a
high risk, or (4) refused placement.




                                       50
      BOP policy requires that eligible inmates be released to the community
through a CCC. However, the policy also states that the BOP does not
ordinarily consider the following inmates for CCC programs.45

   •   Inmates who are assigned a “Sex Offender” Public Safety Factor.

   •   Inmates who are assigned a “Deportable Alien” Public Safety Factor.

   •   Inmates who require inpatient medical, psychological, or psychiatric
       treatment.

   •   Inmates who refuse to participate in the Inmate Financial
       Responsibility Program.

   •   Inmates who refuse to participate, withdraw, are expelled, or
       otherwise fail to meet attendance and examination requirements in a
       required Drug Abuse Education program.

   •   Inmates serving sentences of 6 months or less.

   •   Inmates who refuse to participate in the RPP.

   •   Inmates who pose a significant threat to the community. These are
       inmates whose current offense or behavioral history suggests a
       substantial or continuing threat to the community.

       BOP officials we interviewed believe that CCCs provide an excellent
transitional environment for inmates nearing the end of their sentences.
According to the BOP, during the transitional period at a CCC, inmate
activities are closely monitored, and inmates are provided with a suitable
residence, structured programs, job placement and counseling. CCCs also
offer drug testing and counseling for alcohol and drug-related problems.
Further, during their stay inmates are required to pay a subsistence charge
to defer the cost of their confinement in a CCC (25 percent of their gross
income, not to exceed the average daily cost of their CCC placement).

     A strategic objective of the BOP sets target CCC utilization rates for
minimum, low, and medium security institutions.46 (The CCC utilization rate

       45
            BOP Program Statement No. 7310.04, Community Corrections Center (CCC)
Utilization and Transfer Procedure, dated December 16, 1998.
       46
            The BOP, State of the Bureau 2002, Accomplishments and Goals.



                                            51
is the percentage of inmates transitioned into the community through a CCC,
as compared to the percentage of inmates released directly into the
community.) The target CCC utilization rates are shown below.

                        Target CCC Utilization Rates
                                        CCC Utilization
                     Security Level          Target
                   Minimum Security             80 percent
                   Low Security                 70 percent
                   Medium Security              65 percent

       As stated previously, BOP policy requires that eligible inmates be
released to the community through a CCC, regardless of security level.47
Nonetheless, we noted that the BOP has not established a CCC utilization
target for its high security institutions. We found that the average CCC
utilization rate for the BOP high security institutions was 23 percent in
FY 2000, 39 percent in FY 2001, and 45 percent in FY 2002. In its policy,
the BOP also states that one reason for referring an inmate to a CCC prior to
release directly into the community is to increase public safety by aiding in
the transition of an inmate into the community. In our judgment, inmates in
high security institutions have the greatest need for transitioning through
the controlled CCC environment prior to being released directly into the
community, especially since the average sentence of inmates placed in high
security institutions was 12 years as of the end of FY 2002.

      Historically, BOP officials at high security institutions have been
reluctant to place their inmates in CCCs prior to release because they were
considered a public safety risk. Nonetheless, in our judgment the BOP
should also establish a CCC utilization target for its high security institutions
to ensure that eligible inmates released from these institutions are provided
with the same opportunity to transition through a CCC prior to release into
the community. During the course of our audit, several BOP officials at the
regional offices concurred that a CCC utilization target should be set for the
high security institutions. In establishing a CCC utilization target for its high
security institutions, the BOP should consider the average CCC utilization
rates noted in the preceding paragraph.



      47
            BOP Program Statement No. 7310.04, Community Corrections Center (CCC)
Utilization and Transfer Procedure, dated December 16, 1998.



                                         52
       The 82 institutions we reviewed included 13 high security institutions
and 1 maximum security institution. Therefore, we were only able to review
the CCC utilization targets and outcomes during FY 2000 through FY 2002
for the remaining 68 minimum, low, and medium security institutions. We
used the total number of inmates transferred to a CCC and the total number
of inmates released directly to the community as reported in the BOP’s Key
Indicators system to calculate the CCC utilization rate for each institution
and compared this calculation to the BOP’s CCC utilization targets. The
details of our calculations and analysis of each institution’s CCC utilization
rate for FY 2001 and FY 2002 are included in Appendix XII.

       Overall, the results of our review revealed that a large number of
institutions failed to meet the BOP’s stated CCC utilization targets for
FY 2000 through FY 2002. Specifically, we found the following for each fiscal
year.

   •   For the 67 institutions reporting in FY 2000, 36 (54 percent) failed to
       meet their CCC utilization target for that fiscal year.

   •   For the 67 institutions reporting in FY 2001, 19 (28 percent) failed to
       meet their CCC utilization target for that fiscal year.

   •   For the 68 institutions reporting in FY 2002, 27 (40 percent) failed to
       meet their CCC utilization target for that fiscal year.

      Since the BOP established its CCC utilization targets by security level,
we analyzed the CCC utilization targets and outcomes by security level and
determined the range in performance among the institutions within the same
security level.

       Our analysis of the CCC utilization targets and outcomes by security
level revealed that for FY 2000, none of the 11 minimum security institutions
reporting failed to meet their CCC utilization target, 14 (58 percent) of the
24 low security institutions reporting failed to meet their CCC utilization
target, and 22 (69 percent) of the 32 medium security institutions reporting
failed to meet their CCC utilization target.

     Additionally, for each security level there was generally a significant
range in the CCC utilization rates achieved by each institution
(Appendix XIII), as shown in the following charts.




                                       53
  CCC Utilization Rates Achieved
Among Minimum Security Institutions
     FY 2000 through FY 2002
        Institutions CCC Utilization
  FY     Reporting     Rate Range
  2000       11          81% - 97%
  2001       11          81% - 94%
  2002       11          80% - 96%



   CCC Utilization Rates Achieved
  Among Low Security Institutions
     FY 2000 through FY 2002
         Institutions   CCC Utilization
   FY     Reporting      Rate Range
  2000       24          47% - 86%
  2001       24          56% - 88%
  2002       24          52% - 83%



  CCC Utilization Rates Achieved
Among Medium Security Institutions
     FY 2000 through FY 2002
        Institutions CCC Utilization
  FY     Reporting     Rate Range
  2000       32          42% - 100%
  2001       32          54% - 89%
  2002       33          35% - 88%




                  54
                      CCC Utilization Rates Achieved
                     Among High Security Institutions
                         FY 2000 through FY 2002
                            Institutions CCC Utilization
                      FY     Reporting     Rate Range
                     2000          9           0% - 36%
                     2001         11           0% - 56%
                     2002         13           0% - 75%

       To determine the factors that may have contributed to institutions not
meeting their CCC utilization targets during FY 2000 through FY 2002, we
included questions regarding the CCC utilization rates in the questionnaires
we sent to 24 institutions, as discussed in Finding I of this report. Based on
the responses to our questions, we found that institutions that met their CCC
utilization targets most commonly cited the following factors:

   •   The prior BOP Director and executive staff strongly encouraged
       institutions to refer inmates for CCC placement.

   •   Institution staff stressed the use and referral for CCC placement at
       unit team meetings and staff strongly encouraged inmates to
       participate.

   •   The institution started the CCC referral process early, especially in
       cases of inmates with short sentences.

   •   Eligible inmates who have completed the Residential Drug Abuse
       Program and qualified for the one-year sentence reduction received
       mandatory CCC placement.

   •   Institution staff counseled inmates who initially refuse CCC placement
       about the benefits of the program.

       Based on the responses to our questionnaires, we found that
institutions that did not meet their CCC utilization targets most commonly
cited the following factors:

   •   The institution applied a conservative interpretation of the BOP’s policy
       regarding the eligibility of inmates for CCC placement.




                                       55
   •   The institution had a large number of inmates who declined CCC
       placement.

   •   The institution had a large number of inmates with pending charges in
       other districts and inmates with short sentences.

       Overall, institutions that met their goals attributed their success to
support from executive staff and unit teams that strongly encourage inmate
participation. Those institutions that did not meet their goals attributed their
failure to conservative interpretation of policy and factors outside the control
of staff, such as a large percentage of inmates that were ineligible for CCC
placement.

       According to BOP officials, at each quarterly executive staff meeting
CCC utilization rates are reviewed and the regional directors may be asked
to comment on any utilization rate outliers (institutions with CCC utilization
rates that are significantly lower than the target utilization rate). BOP
officials also stated that the regional directors are ultimately held responsible
for monitoring the CCC utilization rates within their region. Although
quarterly meetings are held and regional directors monitor their respective
regional progress, only one specific security level (minimum, low, medium or
high) is addressed at each quarterly meeting and each regional director may
have a different process for monitoring CCC utilization rates. However, as
shown previously, we found that during FY 2000 through FY 2002, between
28 and 54 percent of institutions we looked at failed to meet their CCC
utilization targets.

       As with the other areas we reviewed, this may be attributed BOP
regional offices did not follow a formal standardized process to ensure that
institutions are held accountable for meeting their targets and that
corrective action plans are developed to remedy low CCC utilization. At each
of the three regional offices we identified the process for reviewing CCC
utilization rates and found that each of the three regional offices had
different processes. For example, one regional office did not have a process
in place for reviewing CCC utilization rates, while another reviewed the rates
but did not necessarily follow-up consistently with institutions that did not
meet their targets.

      Conversely, the Northeast Regional Office has established a formal
process to ensure that all eligible inmates at each of its institutions are
provided the opportunity to transition into the community through a CCC.
The Northeast Regional Office officials review the CCC utilization data
contained in Key Indicators system and the quarterly CCC utilization report


                                       56
prepared by the BOP’s Central Office in order to determine if its institutions
are “on track” to meet established CCC utilization targets. Further, the
Northeast Regional Office requires each of its institutions to submit a
monthly CCC utilization report identifying both the number of inmates
referred for and those denied CCC placement. For all inmates denied CCC
placement, regional officials ask the institution to provide a detailed
explanation regarding the basis for the inmate’s CCC denial. Regional
officials then review each denial in order to determine whether the denial is
in compliance with the CCC utilization policy.

       We also found that the CCC utilization rates and targets cannot be
used to determine whether all eligible inmates at each institution were
released to the community through a CCC, as required by BOP policy.
Currently, the CCC utilization targets range from 65 percent for medium
security level institutions to 80 percent for minimum security level
institutions (a CCC utilization target has not been established for high
security level institutions). Therefore, even if an institution achieves or
exceeds the CCC utilization target for its security level, the BOP does not
assure that all eligible inmates were transitioned through a CCC. In our
judgment implementing a formal process for reviewing eligible inmates that
are denied CCC placement, similar to the Northeast Regional Office, would
also ensure that all eligible inmates are placed in a CCC prior to release.

       It should be noted that subsequent to our audit, the BOP proposed a
revision to the CCC utilization targets including the establishment of a CCC
utilization target for high security level institutions and increasing the targets
for minimum, low and medium security level institutions. However, to date
the BOP has not approved or implemented the proposed revisions to the CCC
utilization targets.


Recommendations

      We recommend that the BOP:

12.   Establish a CCC utilization target for its high security institutions.

13.   Establish and implement a formal process to ensure that all eligible
      inmates are placed in a CCC prior to release.




                                       57
                                                               APPENDIX I


               STATEMENT ON COMPLIANCE WITH
                   LAWS AND REGULATIONS


       We conducted our audit of the BOP preparation of Inmates for Reentry
into Society in accordance with Government Auditing Standards. As required
by the standards, we audited the BOP’s programs designed to prepare
inmates for reentry into society in order to obtain reasonable assurance that
the BOP complied with laws and regulations, that, if not complied with, in
our judgment could have a material effect on the administration its
programs. Compliance with laws and regulations related to the preparation
of inmates for reentry into society is the responsibility of the BOP
management. An audit includes examining, on a test basis, evidence about
compliance with laws and regulations. At the time of our audit, the pertinent
legislation and the applicable regulations were the:

  •   Violent Crime Control and Law Enforcement Act of 1994 (VCCLEA),

  •   Prison Litigation Reform Act of 1995 (PLRA), and

  •   Crime Control Act of 1990.

      Except for the issues discussed in the Findings and Recommendations
section of this report, nothing came to our attention that caused us to
believe that the BOP management was not in compliance with the laws listed
above.




                                     58
                                                                 APPENDIX II


           STATEMENT ON MANAGEMENT CONTROLS


      In planning and performing our audit of the BOP Preparation of
Inmates for Reentry into Society, we considered the BOP’s management
controls for the purpose of determining our auditing procedures. The
evaluation was not made for the purpose of providing assurance on the
management control structure as a whole; however, we noted certain
matters that we consider reportable conditions under generally accepted
government auditing standards.

  •   The BOP did not ensure that its institutions set realistic occupational
      and educational completion goals. Further, the program completion
      goals are stated as the number of completions rather than a
      percentage of completions, which does not accurately reflect program
      performance because it does not take into account the number of
      enrollments or the inmate population, see Finding I.

  •   The BOP did not have a mechanism in place to hold institutions
      accountable for meeting goals. Additionally, institutions were not
      required to develop or implement corrective actions plans to remedy
      performance and ensure that goals are met in the future, see
      Finding I.

  •   Despite the wide range in the percentage of inmates that successfully
      completed occupationa l programs and the percentage of inmates that
      withdrew from the mandatory GED program at institutions of the same
      security level, the BOP did not use the data for reviewing program
      performance at each of its institutions, see Finding I.

  •   The BOP has only tracked the participation data for most of its
      psychological programs since January 2003. However, the BOP does
      not use its data for reviewing program participation at each of its
      institutions, see Finding I.

  •   The BOP also does not track the percentage of inmates that
      successfully complete the RPP at each of its institutions prior to
      release, see Finding I.

  •   The BOP has not established a CCC utilization target for its high
      security institutions. Additionally, the BOP does not have a formal
      standardized process to ensure that institutions are held accountable



                                      59
                                                              APPENDIX II


      for meeting their goals and that corrective actions plans are developed
      to remedy low CCC utilization, see Finding II.

  •   The CCC utilization rates and targets cannot be used to determine
      whether all eligible inmates at each institution were released to the
      community through a CCC, as required by BOP policy, see Finding II.

      Because we are not expressing an opinion on the BOP’s overall
management control structure, this statement is intended solely for the
information and use of the BOP in managing its programs designed to
prepare inmates for reentry into society.




                                     60
                                                               APPENDIX III


           OBJECTIVES, SCOPE, AND METHODOLOGY


      The purpose of our audit was to determine whether the BOP ensures
that federal inmates benefit from its programs designed to prepare inmates
for successful reentry into society. The objectives of our audit were to
determine whether the BOP ensures that each of its institutions maximize
the number inmates that complete programs designed to prepare inmates
for reentry into society including occupational, educational, psychological,
and other programs; and all eligible inmates are provided the opportunity to
transition through a CCC in preparation for reentry into society.

      We conducted our audit in accordance with Government Auditing
Standards. We included such tests as were necessary to accomplish the
audit objectives.

     We conducted fieldwork at the BOP Central Office, and conducted field
work and/or obtained information through questionnaires from the following
BOP regional offices and institutions:

  •   North Central Regional Office, Kansas City, Kansas;

  •   Northeast Regional Office, Philadelphia, Pennsylvania;

  •   South Central Regional Office, Dallas, Texas;

  •   FPC Alderson, Alderson, West Virginia;

  •   USP Allenwood, White Deer, Pennsylvania;

  •   USP Atlanta, Atlanta, Georgia;

  •   FCI Bastrop, Bastrop, Texas;

  •   FCI Beaumont, Beaumont, Texas;

  •   FCI Beckley, Beaver, West Virginia;

  •   FCI Butner, Butner, North Carolina;

  •   FPC Eglin, Eglin, Florida;




                                       61
                                                         APPENDIX III


•   FCI El Reno, El Reno, Oklahoma;

•   FCI Elkton, Elkton, Ohio;

•   FCI Englewood, Englewood, Colorado;

•   ADX Florence, Florence, Colorado;

•   FCI Florence and the adjacent camp, Florence, Colorado;

•   USP Florence, Florence, Colorado;

•   FCI Fort Dix, Fort Dix, New Jersey;

•   FCI Greenville, Greenville, Illinois;

•   USP Leavenworth, Leavenworth, Kansas;

•   USP Lompoc, Lompoc, California;

•   USP Marion, Marion, Illinois;

•   FCI Milan, Milan, Michigan;

•   FCI Morgantown, Morgantown, West Virginia;

•   FPC Pensacola, Pensacola, Florida;

•   FCI Safford, Safford, Arizona ;

•   FCI Sandstone, Sandstone, Minnesota;

•   FPC Seymour Johnson, Goldsboro, North Carolina;

•   USP Terre Haute, Terre Haute, Indiana; and

•   FPC Yankton, Yankton, South Dakota.




                                      62
                                                                  APPENDIX III


      We also examined reported data for the 82 institutions listed in the
following table.

         Institution     Security Level       Institution       Security Level
    ADX Florence           Maximum        FCI Petersburg            Low
    FCI Allenwood            Low          FCI Petersburg          Medium
    FCI Allenwood           Medium        FCI Phoenix             Medium
    FCI Ashland              Low          FCI Ray Brook           Medium
    FCI Bastrop              Low          FCI Safford               Low
    FCI Beaumont             Low          FCI Sandstone             Low
    FCI Beaumont            Medium        FCI Schuylkill          Medium
    FCI Beckley             Medium        FCI Seagoville            Low
    FCI Big Spring           Low          FCI Sheridan            Medium
    FCI Butner               Low          FCI Talladega           Medium
    FCI Butner              Medium        FCI Tallahassee           Low
    FCI Coleman              Low          FCI Terminal Island     Medium
    FCI Coleman             Medium        FCI Texarkana             Low
    FCI Cumberland          Medium        FCI Three Rivers        Medium
    FCI Danbury              Low          FCI Tucson              Medium
    FCI Dublin               Low          FCI Victorville         Medium
    FCI Edgefield           Medium        FCI Waseca                Low
    FCI El Reno             Medium        FCI Yazoo City            Low
    FCI Elkton               Low          FPC Alderson            Minimum
    FCI Englewood           Medium        FPC Allenwood           Minimum
    FCI Estill              Medium        FPC Bryan               Minimum
    FCI Fairton             Medium        FPC Duluth              Minimum
    FCI Florence            Medium        FPC Eglin               Minimum
    FCI Forrest City         Low          FPC Montgomery          Minimum
    FCI Fort Dix             Low          FPC Nellis              Minimum
    FCI Greenville          Medium        FPC Pensacola           Minimum
    FCI Jesup               Medium        FPC Seymour Johnson     Minimum
    FCI La Tuna              Low          FPC Yankton             Minimum
    FCI Lompoc               Low          USP Allenwood             High
    FCI Loretto              Low          USP Atlanta               High
    FCI Manchester          Medium        USP Atwater               High
    FCI Marianna            Medium        USP Beaumont              High
    FCI McKean              Medium        USP Coleman               High
    FCI Memphis             Medium        USP Florence              High
    FCI Miami               Medium        USP Leavenworth           High
    FCI Milan                Low          USP Lee                   High
    FCI Morgantown         Minimum        USP Lewisburg             High
    FCI Oakdale             Medium        USP Lompoc                High
    FCI Otisville           Medium        USP Marion                High
    FCI Oxford              Medium        USP Pollock               High
    FCI Pekin               Medium        USP Terre Haute           High


      The 82 institutions include the ADX and all FCIs, FPCs, and USPs. We
excluded the FDCs, FMCs, FTCs, MCCs, MCFPs, and MDCs because of the
unique missions of these institutions.


                                      63
                                                                        APPENDIX III


       To determine the percentage of the educational and occupational goals
achieved, we obtained the Annual Program Report for Education and
Recreation Services for FY 1999 through FY 2002 for each institution
included in our audit. We compared the completion goals and outcomes
reported for each institution’s GED, ESL, ACE, parenting, and occupational
programs and determined the percentage of goal achieved, which equates to
the outcome divided by goal. Additionally, for FY 2002 we compared the
National Strategic Plan performance indicator goal and outcome for
the percent of inmates enrolled in one or more education programs for each
institution and determined the percentage of goal obtained.

      To determine the percentage of the CCC utilization targets achieved
for each institution during FY 2000 through 2002, we obtained the total
number of inmates transferred to a CCC and total number of inmates
released directly to the community as reported in the BOP’s Key Indicators
system.48 To calculate the CCC utilization rate for each institution, which
equates to the number of inmates transferred to a CCC divided by the
number of inmates transferred to a CCC plus the number of inmates
released directly into the community. We then compared the CCC utilization
rate for each institution to the BOP’s goal for that security level and
determined the percentage of the goal achieved which equates to the
outcome divided by goal.

      To determine the GED performance factor for each institution during
FY 1999 through FY 2002, we obtained the total number of completions and
withdrawals from the BOP’s Key Indicators system. We then calculated the
GED performance factor, which equates to completions divided by
completions plus withdrawals. Additionally, to determine the GED
performance factor based on voluntary withdrawals for each institution, we
obtained the total number of completions and voluntary withdrawals from
the BOP’s Key Indicators system. We then calculated the GED performance
factor, which equates to completions divided by completions plus voluntary
withdrawals.

      To determine the percentage of citizen inmates required to participate
in the literacy program that have dropped out and are therefore not
promotable above the maintenance pay grade for work programs, we
obtained the percentage of GED Dropped Non-promotable (GED DN) from
the BOP’s Key Indicators system for FY 1999 through FY 2002. Additionally,

      48
           The BOP, Key Indicators, A Strategic Support System of the Federal Bureau of
Prisons, Volume 14, Number 1, January 2003.



                                           64
                                                             APPENDIX III


to determine the percentage of noncitizen inmates required participate in the
literacy program that have dropped out and are therefore not promotable
above the maintenance pay grade for work programs, we obtained the
percentage of Exempt GED Non-promotable (GED XN) from the BOP’s Key
Indicators system.

      Finally, to determine the occupational technical and vocational
performance factors for each institution during FY 1999 through FY 2002, we
obtained the total number of completions and withdrawals from the BOP’s
Key Indicators system. We then calculated the occupational technical
performance factor, which equates to completions divided by completions
plus withdrawals.




                                     65
                                                                APPENDIX IV


       ANALYSIS OF THE OCCUPATIONAL EDUCATION
     GOALS AND OUTCOMES FY 2001 THROUGH FY 2002


       For the institutions included in our audit, we reviewed the occupational
goals and outcomes for FY 1999 through FY 2002 reported in each
institution’s Annual Program Report for Education and Recreation Services.
(The BOP did not require its institutions to establish occupational goals for
FY 2002 because of a change in the format of the Annual Program Report for
Education and Recreation Services; however, we used the FY 2002
occupational projected outcomes reported in the FY 2001 Annual Program
Report for Education and Recreation Services as the FY 2002 occupational
goals for our analysis.)

       The following schedules provide the details of our analysis of the
occupational goals and outcomes reported by each institution in its Annual
Program Report for Education and Recreation Services for FY 2001 through
FY 2002. Those institutions for which the occupational goal and/or outcome
is shown as “---“ in the following schedules did not include a goal and/or
outcome in their Annual Program Report for Education and Recreation
Services. Further, unless noted otherwise, those institutions for which the
occupational goal and/or outcome is shown as “N/A“ did not submit an
Program Report for Education and Recreation Services because the
institution was not open and/or fully operational during the fiscal year.




                                      66
                                                                           APPENDIX IV



  Occupational Education Completion Goals and Outcomes FY 2001
                                                                           Percent of
                                                                          Occupational
        Institution          Security Level     Goal49     Outcome       Goal Achieved50
 FPC Yankton                    Minimum             35        103            294.29%
 FPC Montgomery                 Minimum            100        282            282.00%
 FPC Nellis                     Minimum              7         10            142.86%
 FPC Seymour Johnson            Minimum             10         11            110.00%
 FCI Morgantown                 Minimum            200        201            100.50%
 FPC Duluth                     Minimum             31         30             96.77%
 FPC Allenwood                  Minimum             50         45             90.00%
 FPC Bryan                      Minimum            214        181             84.58%
 FPC Pensacola                  Minimum            100         75             75.00%
 FPC Alderson                   Minimum            262        109             41.60%
 FPC Eglin                      Minimum            160         39             24.38%
 FCI Fort Dix                     Low              755      1,969            260.79%
 FCI Lompoc                       Low              245        444            181.22%
 FCI Milan                        Low              133        205            154.14%
 FCI Loretto                      Low              200        296            148.00%
 FCI Sandstone                    Low               40         52            130.00%
 FCI Texarkana                    Low              150        187            124.67%
 FCI Yazoo City                   Low              225        263            116.89%
 FCI Bastrop                      Low              250        289            115.60%
 FCI Beaumont                     Low              270        301            111.48%
 FCI Dublin                       Low               56         62            110.71%
 FCI Forrest City                 Low               50         55            110.00%
 FCI Safford                      Low              100        108            108.00%
 FCI La Tuna                      Low              225        235            104.44%
 FCI Tallahassee                  Low              183        183            100.00%
 FCI Petersburg                   Low              130        129             99.23%
 FCI Ashland                      Low              253        247             97.63%
 FCI Big Spring                   Low              628        593             94.43%
 FCI Danbury                      Low              217        185             85.25%
 FCI Butner                       Low              305        227             74.43%



       49
           The BOP changed the format of its Annual Program Report for Education and
Recreation Services in FY 2001. The current year goals are no longer included in the report.
Therefore, for our analysis we used the FY 2001 goals reported in the FY 2000 Annual
Program Report for Education and Recreation Services.
       50
            The percentage of goal achieved is equal to the outcome divided by the goal.



                                              67
                                                              APPENDIX IV


 Occupational Education Completion Goals and Outcomes FY 2001
                                                              Percent of
                                                             Occupational
       Institution    Security Level    Goal49    Outcome   Goal Achieved50
FCI Allenwood             Low                90      59          65.56%
FCI Waseca                Low                69      24          34.78%
FCI Elkton                Low               260      82          31.54%
FCI Seagoville            Low               710     133          18.73%
FCI Schuylkill           Medium             125     271         216.80%
FCI Greenville           Medium              40      73         182.50%
FCI Fairton              Medium             200     330         165.00%
FCI Beckley              Medium             402     628         156.22%
FCI Talladega            Medium             100     154         154.00%
FCI Oxford               Medium              54      78         144.44%
FCI Cumberland           Medium              50      69         138.00%
FCI Marianna             Medium             125     172         137.60%
FCI Miami                Medium             143     189         132.17%
FCI Phoenix              Medium             160     194         121.25%
FCI Edgefield            Medium             180     214         118.89%
FCI Butner               Medium             140     160         114.29%
FCI El Reno              Medium             210     225         107.14%
FCI Memphis              Medium             158     152          96.20%
FCI Terminal Island      Medium             153     137          89.54%
FCI McKean               Medium             175     153          87.43%
FCI Jesup                Medium             170     147          86.47%
FCI Pekin                Medium             110      92          83.64%
FCI Tucson               Medium              30      24          80.00%
FCI Englewood            Medium              20      15          75.00%
FCI Three Rivers         Medium             151     112          74.17%
FCI Ray Brook            Medium              75      55          73.33%
FCI Florence             Medium             128      93          72.66%
FCI Beaumont             Medium             220     153          69.55%
FCI Estill               Medium             360     231          64.17%
FCI Otisville            Medium             200     108          54.00%
FCI Sheridan             Medium             475     256          53.89%
FCI Manchester           Medium             155      80          51.61%
FCI Allenwood            Medium              71      36          50.70%
FCI Oakdale              Medium             405     132          32.59%
FCI Petersburg           Medium             N/A     N/A          ------
FCI Victorville          Medium             N/A      19          ------
USP Lewisburg             High              160     258         161.25%
USP Terre Haute           High               40      64         160.00%
USP Atlanta               High               50      76         152.00%


                                       68
                                                                          APPENDIX IV


  Occupational Education Completion Goals and Outcomes FY 2001
                                                                         Percent of
                                                                        Occupational
        Institution         Security Level     Goal49     Outcome      Goal Achieved50
 USP Lompoc                      High             245       336             137.14%
 USP Leavenworth                 High              32        28              87.50%
 USP Allenwood                   High             210       180              85.71%
 USP Marion                      High             150       126              84.00%
 USP Beaumont                    High             266       103              38.72%
 USP Florence                    High             245        51              20.82%
 USP Atwater                     High             N/A       N/A              ------
 USP Lee                         High             N/A       N/A              ------
 USP Pollock                     High             N/A       N/A              ------
 ADX Florence                  Maximum            N/A51     N/A              ------
 FCC Coleman                    N/A52             203       166              81.77%




       51
           The ADX Florence is a maximum security institution. Because of the unique
mission of the institution the ADX Florence does not offer occupational education programs.
       52
           The FY 2001 occupational goals for FCI Coleman (Low Security), FCI Coleman
(Medium Security), and USP Coleman were combined in a single FY 2000 Annual Program
Report for Education and Recreation Services report for the Federal Correctional Complex,
and the FY 2001 occupational outcomes were combined in a single FY 2001 report.



                                             69
                                                                           APPENDIX IV



  Occupational Education Completion Goals and Outcomes FY 2002
                                                                          Percent of
                                                                         Occupational
        Institution          Security Level     Goal53     Outcome      Goal Achieved54
 FPC Yankton                    Minimum             20       111             555.00%
 FPC Seymour Johnson            Minimum             25        34             136.00%
 FPC Pensacola                  Minimum             76        84             110.53%
 FPC Duluth                     Minimum             31        29              93.55%
 FCI Morgantown                 Minimum            260       222              85.38%
 FPC Nellis                     Minimum             10         8              80.00%
 FPC Alderson                   Minimum            137       105              76.64%
 FPC Bryan                      Minimum            232       161              69.40%
 FPC Eglin                      Minimum             44        26              59.09%
 FPC Allenwood                  Minimum             49       N/A55            ------
 FPC Montgomery                 Minimum             ---      153              ------
 FCI Waseca                       Low               27        61             225.93%
 FCI Texarkana                    Low              142       190             133.80%
 FCI Sandstone                    Low               36        47             130.56%
 FCI Danbury                      Low              202       253             125.25%
 FCI Safford                      Low              125       134             107.20%
 FCI Forrest City                 Low               32        34             106.25%
 FCI Fort Dix                     Low              652       685             105.06%
 FCI Petersburg                   Low              146       153             104.79%
 FCI Elkton                       Low               41        41             100.00%
 FCI Bastrop                      Low              330       326              98.79%
 FCI Beaumont                     Low              321       316              98.44%
 FCI Allenwood                    Low              111       104              93.69%
 FCI Big Spring                   Low              538       494              91.82%
 FCI Tallahassee                  Low              207       185              89.37%
 FCI Dublin                       Low              118       103              87.29%
 FCI Butner                       Low              253       203              80.24%
 FCI Lompoc                       Low              575       454              78.96%
 FCI Seagoville                   Low              169       132              78.11%
 FCI Milan                        Low              227       175              77.09%


       53
           The BOP changed the format of its Annual Program Report for Education and
Recreation Services in FY 2001. The current year goals are no longer included in the report.
Further, the BOP did not require its institutions to establish goals for FY 2002. Therefore,
for our analysis we used the FY 2002 projected outcomes reported in the FY 2001 Annual
Program Report for Education and Recreation Services.
       54
            The percentage of goal achieved is equal to the outcome divided by the goal.
       55
          The FPC Allenwood did not submit a FY 2002 Annual Program Report for
Education and Recreation Services because the institution was merged with FCI Allenwood
(Medium) in FY 2002.



                                              70
                                                               APPENDIX IV


 Occupational Education Completion Goals and Outcomes FY 2002
                                                               Percent of
                                                              Occupational
       Institution    Security Level    Goal53     Outcome   Goal Achieved54
FCI Loretto               Low               260       84          32.31%
FCI Ashland               Low               256       82          32.03%
FCI La Tuna               Low               296       71          23.99%
FCI Yazoo City            Low               242       55          22.73%
FCI Tucson               Medium              20       43         215.00%
FCI Miami                Medium             215      435         202.33%
FCI Oxford               Medium              82      163         198.78%
FCI Sheridan             Medium             304      429         141.12%
FCI McKean               Medium             132      166         125.76%
FCI Cumberland           Medium              82       96         117.07%
FCI Estill               Medium             222      250         112.61%
FCI Florence             Medium              97      107         110.31%
FCI Butner               Medium             150      161         107.33%
FCI Talladega            Medium             125      132         105.60%
FCI Phoenix              Medium             196      191          97.45%
FCI Beaumont             Medium             191      180          94.24%
FCI Victorville          Medium              80       73          91.25%
FCI Pekin                Medium              72       64          88.89%
FCI El Reno              Medium             235      205          87.23%
FCI Allenwood            Medium              97       84          86.60%
FCI Three Rivers         Medium             136      111          81.62%
FCI Terminal Island      Medium             212      170          80.19%
FCI Fairton              Medium             371      294          79.25%
FCI Oakdale              Medium             152      115          75.66%
FCI Englewood            Medium              64       48          75.00%
FCI Ray Brook            Medium              54       39          72.22%
FCI Marianna             Medium             235      160          68.09%
FCI Beckley              Medium             392      256          65.31%
FCI Otisville            Medium             196      121          61.73%
FCI Greenville           Medium             227      116          51.10%
FCI Jesup                Medium             163       81          49.69%
FCI Manchester           Medium             135       64          47.41%
FCI Schuylkill           Medium             310       98          31.61%
FCI Edgefield            Medium             249       54          21.69%
FCI Memphis              Medium              ---     220          ------
FCI Petersburg           Medium             N/A      N/A          ------
USP Beaumont              High              110      236         214.55%
USP Terre Haute           High               60      127         211.67%
USP Leavenworth           High               52       68         130.77%
USP Atlanta               High               99       77          77.78%
USP Pollock               High              120       81          67.50%
USP Allenwood             High              202      126          62.38%
USP Lompoc                High              414      207          50.00%



                                       71
                                                                          APPENDIX IV


  Occupational Education Completion Goals and Outcomes FY 2002
                                                                         Percent of
                                                                        Occupational
        Institution         Security Level     Goal53     Outcome      Goal Achieved54
 USP Lewisburg                   High             351       174              49.57%
 USP Florence                    High              56         7              12.50%
 USP Marion                      High             125        14              11.20%
 USP Atwater                     High             N/A       N/A              ------
 USP Lee                         High             N/A         0              ------
 ADX Florence                  Maximum            N/A56     N/A              ------
 FCC Coleman                    N/A57             178       239             134.27%




       56
           The ADX Florence is a maximum security institution. Because of the unique
mission of the institution the ADX Florence does not offer occupational education programs.
       57
          The FY 2002 occupational projected outcomes for FCI Coleman (Low Security),
FCI Coleman (Medium Security), and USP Coleman were combined in a single FY 2001
Annual Program Report for Education and Recreation Services report for the Federal
Correctional Complex and the FY 2002 occupational outcomes were combined in a single
FY 2002 report.



                                             72
                                                              APPENDIX V


        ANALYSIS OF THE GED GOALS AND OUTCOMES
                        FY 2001


      For the institutions included in our audit, we reviewed the GED goals
and outcomes for FY 1999 through FY 2001 reported in each institution’s
Annual Program Report for Education and Recreation Services. (The BOP did
not require its institutions to establish GED goals for FY 2002 because of a
change in the GED testing format that was implemented at the beginning of
calendar year 2002.)

      The following schedule provides the details of our analysis of the GED
goals and outcomes reported by each institution in its Annual Program
Report for Education and Recreation Services for FY 2001. Those institutions
for which the GED goal and/or outcome is shown as “---“ in the following
schedules did not include a goal and/or outcome in their Annual Program
Report for Education and Recreation Services. Further, unless noted
otherwise, those institutions for which the GED goal and/or outcome is
shown as “N/A“ did not submit an Program Report for Education and
Recreation Services because the institution was not open and/or fully
operational during the fiscal year.




                                    73
                                                                             APPENDIX V



                   GED Completion Goals and Outcomes FY 2001

                                                                          Percent of GED
            Institution       Security Level     Goal58     Outcome       Goal Achieved59
 FPC Nellis                      Minimum             35        63             180.00%
 FPC Eglin                       Minimum             30        46             153.33%
 FPC Alderson                    Minimum             50        71             142.00%
 FPC Montgomery                  Minimum             56        59             105.36%
 FPC Bryan                       Minimum            120       121             100.83%
 FPC Seymour Johnson             Minimum             35        34              97.14%
 FCI Morgantown                  Minimum             70        64              91.43%
 FPC Pensacola                   Minimum             40        35              87.50%
 FPC Duluth                      Minimum             60        51              85.00%
 FPC Yankton                     Minimum             60        45              75.00%
 FPC Allenwood                   Minimum            125        48              38.40%
 FCI Loretto                       Low               55        89             161.82%
 FCI Texarkana                     Low               50        80             160.00%
 FCI Butner                        Low               50        66             132.00%
 FCI Elkton                        Low               77        97             125.97%
 FCI Bastrop                       Low               45        54             120.00%
 FCI Sandstone                     Low               40        46             115.00%
 FCI Petersburg                    Low               40        45             112.50%
 FCI Safford                       Low               70        78             111.43%
 FCI Tallahassee                   Low               80        89             111.25%
 FCI Lompoc                        Low              120       133             110.83%
 FCI Seagoville                    Low               45        47             104.44%
 FCI Dublin                        Low               75        77             102.67%
 FCI Forrest City                  Low              150       147              98.00%
 FCI Waseca                        Low               90        88              97.78%
 FCI Allenwood                     Low               70        66              94.29%
 FCI Yazoo City                    Low               85        75              88.24%
 FCI Fort Dix                      Low              240       200              83.33%
 FCI Beaumont                      Low               75        60              80.00%
 FCI La Tuna                       Low              110        86              78.18%
 FCI Milan                         Low              100        78              78.00%
 FCI Big Spring                    Low               50        37              74.00%
 FCI Ashland                       Low              100        70              70.00%
 FCI Danbury                       Low              100        29              29.00%



       58
           The BOP changed the format of its Annual Program Report for Education and
Recreation Services in FY 2001. The current year goals are no longer included in the report.
Therefore, for our analysis we used the FY 2001 goals reported in the FY 2000 Annual
Program Report for Education and Recreation Services.
       59
             The percentage of goal achieved is equal to the outcome divided by the goal.



                                               74
                                                                APPENDIX V


              GED Completion Goals and Outcomes FY 2001

                                                             Percent of GED
                                              58
       Institution    Security Level    Goal       Outcome   Goal Achieved59
FCI Tucson               Medium               5       53       1,060.00%
FCI Miami                Medium              40       92         230.00%
FCI Talladega            Medium              65       97         149.23%
FCI El Reno              Medium              75      111         148.00%
FCI Cumberland           Medium              60       82         136.67%
FCI Florence             Medium             110      149         135.45%
FCI Marianna             Medium              50       66         132.00%
FCI Sheridan             Medium              80      104         130.00%
FCI Oakdale              Medium              35       45         128.57%
FCI Greenville           Medium              80       99         123.75%
FCI Three Rivers         Medium              70       85         121.43%
FCI Estill               Medium              50       59         118.00%
FCI Fairton              Medium              50       58         116.00%
FCI Beckley              Medium             110      122         110.91%
FCI McKean               Medium              75       83         110.67%
FCI Allenwood            Medium              60       64         106.67%
FCI Ray Brook            Medium              65       69         106.15%
FCI Pekin                Medium              70       74         105.71%
FCI Manchester           Medium             120      125         104.17%
FCI Oxford               Medium              65       65         100.00%
FCI Schuylkill           Medium              75       75         100.00%
FCI Victorville          Medium              65       65         100.00%
FCI Phoenix              Medium              75       73          97.33%
FCI Jesup                Medium              85       81          95.29%
FCI Memphis              Medium             146      134          91.78%
FCI Edgefield            Medium              70       63          90.00%
FCI Butner               Medium              60       51          85.00%
FCI Englewood            Medium              50       39          78.00%
FCI Otisville            Medium             100       74          74.00%
FCI Terminal Island      Medium             100       62          62.00%
FCI Beaumont             Medium              90       53          58.89%
FCI Petersburg           Medium             N/A      N/A          ------
USP Terre Haute           High               30       90         300.00%
USP Allenwood             High               25       29         116.00%
USP Beaumont              High               20       21         105.00%
USP Leavenworth           High               80       84         105.00%
USP Atlanta               High              100      100         100.00%
USP Marion                High               33       31          93.94%
USP Florence              High               32       27          84.38%
USP Lewisburg             High               90       67          74.44%
USP Lompoc                High               80       49          61.25%
USP Atwater               High              N/A      N/A          ------
USP Lee                   High              N/A      N/A          ------
USP Pollock               High              N/A       16          ------


                                       75
                                                                         APPENDIX V


                  GED Completion Goals and Outcomes FY 2001

                                                                      Percent of GED
                                                       58
           Institution     Security Level    Goal           Outcome   Goal Achieved59
 ADX Florence                Maximum               4            7         175.00%
 FCC Coleman                  N/A60              200          237         118.50%




      60
           The FY 2001 GED goals for FCI Coleman (Low Security), FCI Coleman (Medium
Security), and USP Coleman were combined in a single FY 2000 Annual Program Report for
Education and Recreation Services report for the Federal Correctional Complex and the
FY 2001 GED outcomes were combined in a single FY 2001 report.



                                            76
                                                              APPENDIX VI


        ANALYSIS OF THE ESL GOALS AND OUTCOMES
               FY 2001 THROUGH FY 2002


      For the institutions included in our audit, we reviewed the ESL goals
and outcomes for FY 1999 through FY 2002 reported in each institution’s
Annual Program Report for Education and Recreation Services. (The BOP did
not require its institutions to establish ESL goals for FY 2002 because of a
change in the format of the Annual Program Report for Education and
Recreation Services; however, we used the FY 2002 ESL projected outcomes
reported in the FY 2001 Annual Program Report for Education and Recreation
Services as the FY 2002 ESL goals for our analysis.)

      The following schedules provide the details of our analysis of the ESL
goals and outcomes reported by each institution in its Annual Program
Report for Education and Recreation Services for FY 2001 through FY 2002.
Those institutions for which the ESL goal and/or outcome is shown as “---“ in
the following schedules did not include a goal and/or outcome in their Annual
Program Report for Education and Recreation Services. Further, unless
noted otherwise, those institutions for which the ESL goal and/or outcome is
shown as “N/A“ did not submit an Program Report for Education and
Recreation Services because the institution was not open and/or fully
operational during the fiscal year.




                                     77
                                                                            APPENDIX VI




                   ESL Completion Goals and Outcomes FY 2001
                                                                         Percent of ESL
            Institution       Security Level     Goal61     Outcome      Goal Achieved62
 FPC Bryan                       Minimum             7          22            314.29%
 FPC Allenwood                   Minimum             5           9            180.00%
 FPC Montgomery                  Minimum            10          17            170.00%
 FPC Pensacola                   Minimum            10          17            170.00%
 FPC Yankton                     Minimum             3           4            133.33%
 FPC Eglin                       Minimum            11          12            109.09%
 FPC Alderson                    Minimum             1           1            100.00%
 FPC Duluth                      Minimum             1           0              0.00%
 FCI Morgantown                  Minimum             1           0              0.00%
 FPC Nellis                      Minimum             4           0              0.00%
 FPC Seymour Johnson             Minimum             1           0              0.00%
 FCI Tallahassee                   Low              35          52            148.57%
 FCI Seagoville                    Low              15          22            146.67%
 FCI Elkton                        Low              40          50            125.00%
 FCI Loretto                       Low              20          25            125.00%
 FCI Safford                       Low              20          25            125.00%
 FCI Texarkana                     Low              60          74            123.33%
 FCI La Tuna                       Low              40          44            110.00%
 FCI Fort Dix                      Low              80          87            108.75%
 FCI Waseca                        Low              30          29             96.67%
 FCI Allenwood                     Low              45          36             80.00%
 FCI Sandstone                     Low              10           7             70.00%
 FCI Petersburg                    Low              15          10             66.67%
 FCI Yazoo City                    Low              40          26             65.00%
 FCI Forrest City                  Low              45          26             57.78%
 FCI Big Spring                    Low              50          28             56.00%
 FCI Butner                        Low              10           5             50.00%
 FCI Lompoc                        Low              70          33             47.14%
 FCI Bastrop                       Low              20           9             45.00%
 FCI Beaumont                      Low              30          13             43.33%
 FCI Dublin                        Low              20           8             40.00%
 FCI Danbury                       Low              30           9             30.00%
 FCI Ashland                       Low              20           4             20.00%
 FCI Milan                         Low               5           0              0.00%



       61
           The BOP changed the format of its Annual Program Report for Education and
Recreation Services in FY 2001. The current year goals are no longer included in the report.
Therefore, for our analysis we used the FY 2001 goals reported in the FY 2000 Annual
Program Report for Education and Recreation Services.
       62
             The percentage of goal achieved is equal to the outcome divided by the goal.



                                               78
                                                              APPENDIX VI


              ESL Completion Goals and Outcomes FY 2001
                                                            Percent of ESL
       Institution    Security Level    Goal61    Outcome   Goal Achieved62
FCI Talladega            Medium               5     11          220.00%
FCI Sheridan             Medium             10      19          190.00%
FCI Oakdale              Medium             30      48          160.00%
FCI El Reno              Medium             10      13          130.00%
FCI Pekin                Medium             10      12          120.00%
FCI McKean               Medium               5       6         120.00%
FCI Florence             Medium             25      29          116.00%
FCI Manchester           Medium             12      13          108.33%
FCI Phoenix              Medium             20      20          100.00%
FCI Jesup                Medium             15      14           93.33%
FCI Ray Brook            Medium             15      14           93.33%
FCI Otisville            Medium             25      22           88.00%
FCI Terminal Island      Medium             20      16           80.00%
FCI Allenwood            Medium             15      12           80.00%
FCI Butner               Medium               5       4          80.00%
FCI Memphis              Medium             35      27           77.14%
FCI Cumberland           Medium             15      11           73.33%
FCI Beckley              Medium             10        7          70.00%
FCI Greenville           Medium             10        6          60.00%
FCI Estill               Medium               5       3          60.00%
FCI Miami                Medium             15        8          53.33%
FCI Three Rivers         Medium             20      10           50.00%
FCI Oxford               Medium               6       3          50.00%
FCI Victorville          Medium             25      12           48.00%
FCI Marianna             Medium             15        7          46.67%
FCI Englewood            Medium             30      12           40.00%
FCI Beaumont             Medium             30        8          26.67%
FCI Edgefield            Medium               8       1          12.50%
FCI Fairton              Medium             10        1          10.00%
FCI Schuylkill           Medium             15        1           6.67%
FCI Tucson               Medium               1       0           0.00%
FCI Petersburg           Medium             N/A     N/A          ------
USP Terre Haute           High              10      15          150.00%
USP Lompoc                High              15        9          60.00%
USP Lewisburg             High              10        6          60.00%
USP Allenwood             High                5       3          60.00%
USP Atlanta               High              10        4          40.00%
USP Leavenworth           High              10        4          40.00%
USP Florence              High              15        2          13.33%
USP Beaumont              High                3       0           0.00%
USP Marion                High                2       0           0.00%
USP Pollock               High              N/A       1          ------
USP Atwater               High              N/A     N/A          ------
USP Lee                   High              N/A     N/A          ------



                                       79
                                                                      APPENDIX VI


                  ESL Completion Goals and Outcomes FY 2001
                                                                    Percent of ESL
           Institution     Security Level    Goal61    Outcome      Goal Achieved62
 ADX Florence                Maximum              1        0              0.00%
 FCC Coleman                  N/A63              45      107            237.78%




      63
           The FY 2001 ESL goals for FCI Coleman (Low Security), FCI Coleman (Medium
Security), and USP Coleman were combined in a single FY 2000 Annual Program Report for
Education and Recreation Services report for the Federal Correctional Complex and the
FY 2001 ESL outcomes were combined in a single FY 2001 report.



                                            80
                                                                            APPENDIX VI



                   ESL Completion Goals and Outcomes FY 2002
                                                                          Percent of ESL
            Institution       Security Level     Goal64     Outcome       Goal Achieved65
 FPC Eglin                       Minimum             12        17             141.67%
 FPC Alderson                    Minimum               3        3             100.00%
 FPC Bryan                       Minimum             25         6              24.00%
 FPC Pensacola                   Minimum             20         4              20.00%
 FPC Duluth                      Minimum               1        0               0.00%
 FPC Montgomery                  Minimum             ---       18              ------
 FPC Yankton                     Minimum             ---        1              ------
 FCI Morgantown                  Minimum             ---        0              ------
 FPC Nellis                      Minimum             ---        0              ------
 FPC Seymour Johnson             Minimum             ---        0              ------
 FPC Allenwood                   Minimum               8      N/A66            ------
 FCI Safford                       Low               25        41             164.00%
 FCI Waseca                        Low               30        42             140.00%
 FCI Dublin                        Low               10        14             140.00%
 FCI Big Spring                    Low               35        44             125.71%
 FCI Texarkana                     Low               60        72             120.00%
 FCI Loretto                       Low               20        24             120.00%
 FCI Lompoc                        Low               50        53             106.00%
 FCI Petersburg                    Low               10         9              90.00%
 FCI Danbury                       Low               15        13              86.67%
 FCI La Tuna                       Low               50        40              80.00%
 FCI Yazoo City                    Low               35        28              80.00%
 FCI Fort Dix                      Low              100        79              79.00%
 FCI Forrest City                  Low               25        19              76.00%
 FCI Seagoville                    Low               30        22              73.33%
 FCI Butner                        Low               15        11              73.33%
 FCI Bastrop                       Low               15         8              53.33%
 FCI Tallahassee                   Low               40        21              52.50%
 FCI Elkton                        Low               45        23              51.11%
 FCI Allenwood                     Low               40        15              37.50%
 FCI Sandstone                     Low               10         3              30.00%

       64
           The BOP changed the format of its Annual Program Report for Education and
Recreation Services in FY 2001. The current year goals are no longer included in the report.
Further, the BOP did not require its institutions to establish goals for FY 2002. Therefore,
for our analysis we used the FY 2002 projected outcomes reported in the FY 2001 Annual
Program Report for Education and Recreation Services.
       65
             The percentage of goal achieved is equal to the outcome divided by the goal.
       66
          The FPC Allenwood did not submit a FY 2002 Annual Program Report for
Education and Recreation Services because the institution was merged with FCI Allenwood
(Medium) in FY 2002.



                                               81
                                                              APPENDIX VI


              ESL Completion Goals and Outcomes FY 2002
                                                            Percent of ESL
       Institution    Security Level    Goal64    Outcome   Goal Achieved65
FCI Beaumont              Low               30        7          23.33%
FCI Ashland               Low                 5       0           0.00%
FCI Milan                 Low               ---       0          ------
FCI Three Rivers         Medium             12      23          191.67%
FCI Miami                Medium             30      55          183.33%
FCI Greenville           Medium               4       6         150.00%
FCI Allenwood            Medium             12      16          133.33%
FCI Phoenix              Medium             20      24          120.00%
FCI Beaumont             Medium               5       6         120.00%
FCI Ray Brook            Medium               4       4         100.00%
FCI Florence             Medium             28      27           96.43%
FCI Sheridan             Medium             40      36           90.00%
FCI El Reno              Medium             15      12           80.00%
FCI Englewood            Medium             10        7          70.00%
FCI Cumberland           Medium             15      10           66.67%
FCI Fairton              Medium               3       2          66.67%
FCI Marianna             Medium               8       5          62.50%
FCI Jesup                Medium             15        8          53.33%
FCI Talladega            Medium             10        5          50.00%
FCI Otisville            Medium             20        9          45.00%
FCI Terminal Island      Medium             20        8          40.00%
FCI Oakdale              Medium             25        8          32.00%
FCI Victorville          Medium             30        6          20.00%
FCI Schuylkill           Medium             10        2          20.00%
FCI Tucson               Medium             10        2          20.00%
FCI Beckley              Medium             28        5          17.86%
FCI Manchester           Medium             15        2          13.33%
FCI Pekin                Medium             15        1           6.67%
FCI Estill               Medium               5       0           0.00%
FCI Memphis              Medium             ---     15           ------
FCI McKean               Medium             ---       5          ------
FCI Oxford               Medium             ---       1          ------
FCI Butner               Medium             ---       0          ------
FCI Edgefield            Medium             ---       0          ------
FCI Petersburg           Medium             N/A     N/A          ------
USP Lompoc                High                8     15          187.50%
USP Allenwood             High                5       7         140.00%
USP Terre Haute           High              20      25          125.00%
USP Pollock               High                4       3          75.00%
USP Florence              High              12        3          25.00%
USP Atlanta               High                4       0           0.00%
USP Atwater               High                1       0           0.00%
USP Beaumont              High                5       0           0.00%
USP Leavenworth           High              ---       3          ------


                                       82
                                                                      APPENDIX VI


                  ESL Completion Goals and Outcomes FY 2002
                                                                   Percent of ESL
           Institution     Security Level    Goal64     Outcome    Goal Achieved65
 USP Lee                       High              N/A        3            ------
 USP Marion                    High               ---       1            ------
 USP Lewisburg                 High               10      ---            ------
 ADX Florence                Maximum              ---       0            ------
 FCC Coleman                  N/A67              100      53             53.00%




      67
          The FY 2002 ESL projected outcomes for FCI Coleman (Low Security),
FCI Coleman (Medium Security), and USP Coleman were combined in a single FY 2001
Annual Program Report for Education and Recreation Services report for the Federal
Correctional Complex and the FY 2002 ESL outcomes were combined in a single FY 2002
report.



                                            83
                                                             APPENDIX VII


        ANALYSIS OF THE ACE GOALS AND OUTCOMES
               FY 2001 THROUGH FY 2002


      For the institutions included in our audit, we reviewed the ACE goals
and outcomes for FY 1999 through FY 2002 reported in each institution’s
Annual Program Report for Education and Recreation Services. (The BOP did
not require its institutions to establish ACE goals for FY 2002 because of a
change in the format of the Annual Program Report for Education and
Recreation Services; however, we used the FY 2002 ACE projected outcomes
reported in the FY 2001 Annual Program Report for Education and Recreation
Services as the FY 2002 ACE goals for our analysis.)

      The following schedules provide the details of our analysis of the ACE
goals and outcomes reported by each institution in its Annual Program
Report for Education and Recreation Services for FY 2001 through FY 2002.
Those institutions for which the ACE goal and/or outcome is shown as “---“
in the following schedules did not include a goal and/or outcome in their
Annual Program Report for Education and Recreation Services. Further,
unless noted otherwise, those institutions for which the ACE goal and/or
outcome is shown as “N/A“ did not submit an Program Report for Education
and Recreation Services because the institution was not open and/or fully
operational during the fiscal year.




                                     84
                                                                           APPENDIX VII




                   ACE Completion Goals and Outcomes FY 2001

                                                                          Percent of ACE
            Institution       Security Level     Goal68     Outcome       Goal Achieved69
 FPC Nellis                      Minimum          160          454            283.75%
 FPC Pensacola                   Minimum          160          294            183.75%
 FPC Bryan                       Minimum        1,547        1,622            104.85%
 FPC Yankton                     Minimum          115          120            104.35%
 FPC Allenwood                   Minimum          800          808            101.00%
 FPC Duluth                      Minimum          650          591             90.92%
 FPC Seymour Johnson             Minimum          150          113             75.33%
 FPC Eglin                       Minimum          260          188             72.31%
 FCI Morgantown                  Minimum          600          377             62.83%
 FPC Alderson                    Minimum           60           34             56.67%
 FPC Montgomery                  Minimum        1,275          152             11.92%
 FCI Waseca                        Low            120        1,004            836.67%
 FCI Bastrop                       Low             95          577            607.37%
 FCI Allenwood                     Low          1,100        1,894            172.18%
 FCI La Tuna                       Low            270          361            133.70%
 FCI Butner                        Low            170          225            132.35%
 FCI Sandstone                     Low            200          240            120.00%
 FCI Safford                       Low            600          674            112.33%
 FCI Petersburg                    Low            415          450            108.43%
 FCI Milan                         Low            500          528            105.60%
 FCI Loretto                       Low            350          362            103.43%
 FCI Ashland                       Low            400          397             99.25%
 FCI Yazoo City                    Low            700          694             99.14%
 FCI Big Spring                    Low            610          600             98.36%
 FCI Danbury                       Low            550          530             96.36%
 FCI Beaumont                      Low          1,400        1,323             94.50%
 FCI Elkton                        Low            850          788             92.71%
 FCI Forrest City                  Low          1,300        1,185             91.15%
 FCI Texarkana                     Low            211          190             90.05%
 FCI Lompoc                        Low            950          697             73.37%
 FCI Seagoville                    Low          1,120          716             63.93%

       68
           The BOP changed the format of its Annual Program Report for Education and
Recreation Services in FY 2001. The current year goals are no longer included in the report.
Therefore, for our analysis we used the FY 2001 goals reported in the FY 2000 Annual
Program Report for Education and Recreation Services.
       69
             The percentage of goal achieved is equal to the outcome divided by the goal.



                                               85
                                                            APPENDIX VII


              ACE Completion Goals and Outcomes FY 2001

                                                           Percent of ACE
       Institution    Security Level    Goal68   Outcome   Goal Achieved69
FCI Tallahassee           Low             250      154          61.60%
FCI Dublin                Low             150       84          56.00%
FCI Fort Dix              Low             500      215          43.00%
FCI Butner               Medium            95      398         418.95%
FCI Talladega            Medium            65      192         295.38%
FCI Schuylkill           Medium           570    1,116         195.79%
FCI Oakdale              Medium         1,000    1,907         190.70%
FCI Three Rivers         Medium           400      695         173.75%
FCI Sheridan             Medium           500      787         157.40%
FCI Estill               Medium           400      628         157.00%
FCI Victorville          Medium           400      620         155.00%
FCI Oxford               Medium           450      645         143.33%
FCI Ray Brook            Medium           360      445         123.61%
FCI Otisville            Medium           750      909         121.20%
FCI Memphis              Medium           925    1,105         119.46%
FCI Florence             Medium           458      532         116.16%
FCI Englewood            Medium           250      290         116.00%
FCI Greenville           Medium           650      749         115.23%
FCI Terminal Island      Medium           200      227         113.50%
FCI Edgefield            Medium           185      205         110.81%
FCI El Reno              Medium         1,000    1,067         106.70%
FCI Fairton              Medium           800      768          96.00%
FCI McKean               Medium           350      331          94.57%
FCI Pekin                Medium           500      470          94.00%
FCI Phoenix              Medium           300      279          93.00%
FCI Beaumont             Medium           600      544          90.67%
FCI Marianna             Medium           250      226          90.40%
FCI Allenwood            Medium           380      332          87.37%
FCI Beckley              Medium         2,200    1,912          86.91%
FCI Manchester           Medium           330      222          67.27%
FCI Tucson               Medium            30       16          53.33%
FCI Miami                Medium           400      211          52.75%
FCI Jesup                Medium         1,000      498          49.80%
FCI Cumberland           Medium           700       60           8.57%
FCI Petersburg           Medium           N/A      N/A          ------
USP Terre Haute           High            141      424         300.71%
USP Leavenworth           High            340      576         169.41%
USP Allenwood             High            175      294         168.00%



                                       86
                                                                     APPENDIX VII


                  ACE Completion Goals and Outcomes FY 2001

                                                                    Percent of ACE
           Institution     Security Level    Goal68    Outcome      Goal Achieved69
 USP Atlanta                   High               50       69           138.00%
 USP Marion                    High              275      348           126.55%
 USP Florence                  High              132      121            91.67%
 USP Lewisburg                 High              500      456            91.20%
 USP Beaumont                  High              855      673            78.71%
 USP Lompoc                    High              125       68            54.40%
 USP Pollock                   High              N/A       87            ------
 USP Atwater                   High              N/A      N/A            ------
 USP Lee                       High              N/A      N/A            ------
 ADX Florence                Maximum             650      690           106.15%
 FCC Coleman                  N/A70              737    1,612           218.72%




      70
           The FY 2001 ACE goals for FCI Coleman (Low Security), FCI Coleman (Medium
Security), and USP Coleman were combined in a single FY 2000 Annual Program Report for
Education and Recreation Services report for the Federal Correctional Complex and the
FY 2001 ACE outcomes were combined in a single FY 2001 report.



                                            87
                                                                           APPENDIX VII



                   ACE Completion Goals and Outcomes FY 2002
                                                                          Percent of ACE
            Institution       Security Level     Goal71     Outcome       Goal Achieved72
 FPC Pensacola                   Minimum           80          196            245.00%
 FPC Alderson                    Minimum           68          151            222.06%
 FPC Nellis                      Minimum          454          813            179.07%
 FPC Bryan                       Minimum        1,700        1,608             94.59%
 FPC Eglin                       Minimum          195          164             84.10%
 FCI Morgantown                  Minimum          400          331             82.75%
 FPC Duluth                      Minimum          650          423             65.08%
 FPC Seymour Johnson             Minimum          116           64             55.17%
 FPC Yankton                     Minimum          132           69             52.27%
 FPC Montgomery                  Minimum           ---         150             ------
 FPC Allenwood                   Minimum        1,024         N/A73            ------
 FCI Dublin                        Low             75          234            312.00%
 FCI Texarkana                     Low            100          241            241.00%
 FCI Loretto                       Low            350          773            220.86%
 FCI Butner                        Low            250          453            181.20%
 FCI Petersburg                    Low            450          691            153.56%
 FCI Yazoo City                    Low            700        1,056            150.86%
 FCI La Tuna                       Low            430          563            130.93%
 FCI Big Spring                    Low            200          235            117.50%
 FCI Lompoc                        Low            700          822            117.43%
 FCI Safford                       Low            680          754            110.88%
 FCI Beaumont                      Low          1,360        1,471            108.16%
 FCI Fort Dix                      Low            232          238            102.59%
 FCI Sandstone                     Low            250          254            101.60%
 FCI Allenwood                     Low          1,900        1,891             99.53%
 FCI Elkton                        Low            800          794             99.25%
 FCI Seagoville                    Low            750          716             95.47%


       71
           The BOP changed the format of its Annual Program Report for Education and
Recreation Services in FY 2001. The current year goals are no longer included in the report.
Further, the BOP did not require its institutions to establish goals for FY 2002. Therefore,
for our analysis we used the FY 2002 projected outcomes reported in the FY 2001 Annual
Program Report for Education and Recreation Services.
       72
             The percentage of goal achieved is equal to the outcome divided by the goal.
       73
          The FPC Allenwood did not submit a FY 2002 Annual Program Report for
Education and Recreation Services because the institution was merged with FCI Allenwood
(Medium) in FY 2002.



                                               88
                                                            APPENDIX VII


              ACE Completion Goals and Outcomes FY 2002
                                                           Percent of ACE
       Institution    Security Level    Goal71   Outcome   Goal Achieved72
FCI Waseca                Low             700      519          74.14%
FCI Forrest City          Low           1,200      859          71.58%
FCI Tallahassee           Low             204      139          68.14%
FCI Bastrop               Low             600      407          67.83%
FCI Milan                 Low             540      318          58.89%
FCI Danbury               Low             600      277          46.17%
FCI Ashland               Low              ---     583          ------
FCI Talladega            Medium           120      293         244.17%
FCI Oxford               Medium           248      568         229.03%
FCI Tucson               Medium            30       66         220.00%
FCI Butner               Medium           288      473         164.24%
FCI Jesup                Medium           475      769         161.89%
FCI Victorville          Medium           730    1,103         151.10%
FCI Pekin                Medium           500      753         150.60%
FCI Phoenix              Medium           300      449         149.67%
FCI Beaumont             Medium           600      894         149.00%
FCI Marianna             Medium           230      324         140.87%
FCI Oakdale              Medium         1,640    2,174         132.56%
FCI Schuylkill           Medium         1,200    1,527         127.25%
FCI Ray Brook            Medium           336      417         124.11%
FCI McKean               Medium           300      357         119.00%
FCI Terminal Island      Medium           230      272         118.26%
FCI Greenville           Medium           800      828         103.50%
FCI Englewood            Medium           290      292         100.69%
FCI Fairton              Medium           800      795          99.38%
FCI Florence             Medium           555      548          98.74%
FCI Otisville            Medium           876      852          97.26%
FCI Allenwood            Medium           400      387          96.75%
FCI El Reno              Medium         1,000      963          96.30%
FCI Three Rivers         Medium           710      663          93.38%
FCI Cumberland           Medium            70       60          85.71%
FCI Beckley              Medium         1,876    1,523          81.18%
FCI Sheridan             Medium           872      694          79.59%
FCI Estill               Medium           844      668          79.15%
FCI Edgefield            Medium           316      240          75.95%
FCI Miami                Medium           276      170          61.59%
FCI Memphis              Medium            ---   1,007          ------
FCI Manchester           Medium            ---     153          ------
FCI Petersburg           Medium           N/A      N/A          ------



                                       89
                                                                    APPENDIX VII


                  ACE Completion Goals and Outcomes FY 2002
                                                                   Percent of ACE
           Institution    Security Level    Goal71    Outcome      Goal Achieved72
 USP Leavenworth               High           300        442            147.33%
 USP Terre Haute               High           430        620            144.19%
 USP Florence                  High           132        177            134.09%
 USP Beaumont                  High           600        759            126.50%
 USP Lompoc                    High            75         91            121.33%
 USP Pollock                   High           300        345            115.00%
 USP Lewisburg                 High           500        441             88.20%
 USP Atlanta                   High           100         57             57.00%
 USP Marion                    High           420        227             54.05%
 USP Allenwood                 High           275        100             36.36%
 USP Atwater                   High           200         29             14.50%
 USP Lee                       High           N/A        319             ------
 ADX Florence                Maximum          700        881            125.86%
 FCC Coleman                  N/A74         1,500      1,238             82.53%




      74
          The FY 2002 ACE projected outcomes for FCI Coleman (Low Security),
FCI Coleman (Medium Security), and USP Coleman were combined in a single FY 2001
Annual Program Report for Education and Recreation Services report for the Federal
Correctional Complex and the FY 2002 ACE outcomes were combined in a single FY 2002
report.



                                           90
                                                           APPENDIX VIII


   ANALYSIS OF THE PARENTING GOALS AND OUTCOMES
              FY 2001 THROUGH FY 2002


       For the institutions included in our audit, we reviewed the parenting
goals and outcomes for FY 1999 through FY 2002 reported in each
institution’s Annual Program Report for Education and Recreation Services.
(The BOP did not require its institutions to establish parenting goals for
FY 2002 because of a change in the format of the Annual Program Report for
Education and Recreation Services; however, we used the FY 2002 parenting
projected outcomes reported in the FY 2001 Annual Program Report for
Education and Recreation Services as the FY 2002 parenting goals for our
analysis.)

      The following schedules provide the details of our analysis of the
parenting goals and outcomes reported by each institution in its Annual
Program Report for Education and Recreation Services for FY 2001 through
FY 2002. Those institutions for which the parenting goal and/or outcome is
shown as “---“ in the following schedules did not include a goal and/or
outcome in their Annual Program Report for Education and Recreation
Services. Further, unless noted otherwise, those institutions for which the
parenting goal and/or outcome is shown as “N/A“ did not submit an Program
Report for Education and Recreation Services because the institution was not
open and/or fully operational during the fiscal year.




                                    91
                                                                         APPENDIX VIII




               Parenting Completion Goals and Outcomes FY 2001
                                                                            Percent of
                                                                            Parenting
            Institution       Security Level     Goal75     Outcome       Goal Achieved76
 FPC Nellis                      Minimum             20       167             835.00%
 FPC Seymour Johnson             Minimum             25        61             244.00%
 FPC Eglin                       Minimum             25        44             176.00%
 FPC Pensacola                   Minimum             20        33             165.00%
 FPC Montgomery                  Minimum             30        37             123.33%
 FCI Morgantown                  Minimum            200       230             115.00%
 FPC Bryan                       Minimum            500       547             109.40%
 FPC Alderson                    Minimum            900       811              90.11%
 FPC Duluth                      Minimum             80        62              77.50%
 FPC Yankton                     Minimum             75        50              66.67%
 FPC Allenwood                   Minimum            200       102              51.00%
 FCI Butner                        Low               30        54             180.00%
 FCI Safford                       Low               50        88             176.00%
 FCI Dublin                        Low              500       797             159.40%
 FCI Sandstone                     Low              150       221             147.33%
 FCI Bastrop                       Low              220       318             144.55%
 FCI Allenwood                     Low              170       228             134.12%
 FCI Waseca                        Low               70        81             115.71%
 FCI Texarkana                     Low               70        74             105.71%
 FCI Petersburg                    Low               90        94             104.44%
 FCI Milan                         Low               95        96             101.05%
 FCI Lompoc                        Low              375       367              97.87%
 FCI Beaumont                      Low              195       189              96.92%
 FCI Big Spring                    Low              180       159              88.33%
 FCI Loretto                       Low              125       110              88.00%
 FCI La Tuna                       Low              220       183              83.18%
 FCI Danbury                       Low              100        78              78.00%
 FCI Forrest City                  Low              240       167              69.58%
 FCI Yazoo City                    Low              100        65              65.00%
 FCI Tallahassee                   Low               50        31              62.00%
 FCI Elkton                        Low              110        51              46.36%

       75
           The BOP changed the format of its Annual Program Report for Education and
Recreation Services in FY 2001. The current year goals are no longer included in the report.
Therefore, for our analysis we used the FY 2001 goals reported in the FY 2000 Annual
Program Report for Education and Recreation Services.
       76
             The percentage of goal achieved is equal to the outcome divided by the goal.



                                               92
                                                             APPENDIX VIII



          Parenting Completion Goals and Outcomes FY 2001
                                                               Percent of
                                                               Parenting
       Institution    Security Level    Goal75     Outcome   Goal Achieved76
FCI Seagoville            Low                55       21          38.18%
FCI Fort Dix              Low               120       45          37.50%
FCI Ashland               Low               600      180          30.00%
FCI Oakdale              Medium              50      219         438.00%
FCI Marianna             Medium              75      271         361.33%
FCI Florence             Medium              85      173         203.53%
FCI Miami                Medium             100      176         176.00%
FCI Cumberland           Medium             200      343         171.50%
FCI McKean               Medium             300      500         166.67%
FCI Allenwood            Medium             150      208         138.67%
FCI Victorville          Medium             150      208         138.67%
FCI Memphis              Medium             173      216         124.86%
FCI Butner               Medium              90       99         110.00%
FCI Manchester           Medium             100      108         108.00%
FCI Three Rivers         Medium              75       77         102.67%
FCI Schuylkill           Medium             250      253         101.20%
FCI Englewood            Medium              60       57          95.00%
FCI Oxford               Medium              65       61          93.85%
FCI Ray Brook            Medium             120      110          91.67%
FCI Phoenix              Medium              80       67          83.75%
FCI Otisville            Medium             300      243          81.00%
FCI Beckley              Medium             100       75          75.00%
FCI Tucson               Medium              60       45          75.00%
FCI Beaumont             Medium             150      107          71.33%
FCI Pekin                Medium             300      209          69.67%
FCI Jesup                Medium             120       83          69.17%
FCI Sheridan             Medium             120       83          69.17%
FCI Greenville           Medium              65       44          67.69%
FCI Edgefield            Medium             150      100          66.67%
FCI Fairton              Medium             250      139          55.60%
FCI Terminal Island      Medium              35       15          42.86%
FCI Talladega            Medium              70       29          41.43%
FCI Estill               Medium             125       19          15.20%
FCI El Reno              Medium              ---      78          ------
FCI Petersburg           Medium             N/A      N/A          ------
USP Terre Haute           High               25       69         276.00%
USP Florence              High               30       45         150.00%
USP Marion                High               30       42         140.00%



                                       93
                                                                       APPENDIX VIII



               Parenting Completion Goals and Outcomes FY 2001
                                                                         Percent of
                                                                         Parenting
            Institution     Security Level    Goal75     Outcome       Goal Achieved76
 USP Lompoc                     High               30        37            123.33%
 USP Lewisburg                  High              350       401            114.57%
 USP Beaumont                   High               60        65            108.33%
 USP Allenwood                  High              200       200            100.00%
 USP Leavenworth                High               50        42             84.00%
 USP Atlanta                    High              100        67             67.00%
 USP Pollock                    High              N/A        20             ------
 USP Atwater                    High              N/A       N/A             ------
 USP Lee                        High              N/A       N/A             ------
 ADX Florence                 Maximum              20        12             60.00%
 FCC Coleman                   N/A77              200       260            130.00%




       77
           The FY 2001 parenting goals for FCI Coleman (Low Security), FCI Coleman
(Medium Security), and USP Coleman were combined in a single FY 2000 Annual Program
Report for Education and Recreation Services report for the Federal Correctional Complex
and the FY 2001 parenting outcomes were combined in a single FY 2001 report.



                                             94
                                                                         APPENDIX VIII



               Parenting Completion Goals and Outcomes FY 2002
                                                                            Percent of
                                                                            Parenting
            Institution       Security Level     Goal78     Outcome       Goal Achieved79
 FPC Alderson                    Minimum            200       297             148.50%
 FPC Yankton                     Minimum             88        90             102.27%
 FPC Duluth                      Minimum             70        63              90.00%
 FPC Seymour Johnson             Minimum             55        47              85.45%
 FPC Eglin                       Minimum             46        32              69.57%
 FPC Bryan                       Minimum            600       339              56.50%
 FCI Morgantown                  Minimum            200        83              41.50%
 FPC Nellis                      Minimum            167        55              32.93%
 FPC Montgomery                  Minimum             ---       30              ------
 FPC Pensacola                   Minimum             ---       20              ------
 FPC Allenwood                   Minimum             85       N/A80            ------
 FCI Fort Dix                      Low               92       172             186.96%
 FCI Petersburg                    Low               94       152             161.70%
 FCI Elkton                        Low               75       116             154.67%
 FCI Tallahassee                   Low               40        61             152.50%
 FCI Yazoo City                    Low               70       103             147.14%
 FCI Ashland                       Low              447       641             143.40%
 FCI Waseca                        Low               81       113             139.51%
 FCI Loretto                       Low               60        83             138.33%
 FCI Safford                       Low               50        60             120.00%
 FCI Sandstone                     Low              200       235             117.50%
 FCI Texarkana                     Low               48        55             114.58%
 FCI Big Spring                    Low              160       161             100.63%
 FCI Lompoc                        Low              400       368              92.00%
 FCI Allenwood                     Low              230       205              89.13%
 FCI Butner                        Low               60        50              83.33%
 FCI Dublin                        Low              600       492              82.00%

       78
           The BOP changed the format of its Annual Program Report for Education and
Recreation Services in FY 2001. The current year goals are no longer included in the report.
Further, the BOP did not require its institutions to establish goals for FY 2002. Therefore,
for our analysis we used the FY 2002 projected outcomes reported in the FY 2001 Annual
Program Report for Education and Recreation Services.
       79
             The percentage of goal achieved is equal to the outcome divided by the goal.
       80
          The FPC Allenwood did not submit a FY 2002 Annual Program Report for
Education and Recreation Services because the institution was merged with FCI Allenwood
(Medium) in FY 2002.



                                               95
                                                             APPENDIX VIII


          Parenting Completion Goals and Outcomes FY 2002
                                                               Percent of
                                                               Parenting
       Institution    Security Level    Goal78     Outcome   Goal Achieved79
FCI Bastrop               Low               330      252          76.36%
FCI La Tuna               Low               225      153          68.00%
FCI Beaumont              Low               200      129          64.50%
FCI Danbury               Low                80       47          58.75%
FCI Milan                 Low               105       61          58.10%
FCI Forrest City          Low               180      104          57.78%
FCI Seagoville            Low                40       21          52.50%
FCI Fairton              Medium             150      905         603.33%
FCI Otisville            Medium             100      350         350.00%
FCI Sheridan             Medium              25       75         300.00%
FCI El Reno              Medium             125      353         282.40%
FCI Jesup                Medium              97      213         219.59%
FCI Phoenix              Medium              50      101         202.00%
FCI Estill               Medium              40       78         195.00%
FCI Marianna             Medium             125      226         180.80%
FCI Ray Brook            Medium              64      112         175.00%
FCI Three Rivers         Medium             120      206         171.67%
FCI Greenville           Medium              72      102         141.67%
FCI Victorville          Medium             180      247         137.22%
FCI McKean               Medium             364      408         112.09%
FCI Allenwood            Medium             125      131         104.80%
FCI Florence             Medium             160      165         103.13%
FCI Oakdale              Medium              96       96         100.00%
FCI Beckley              Medium             144      129          89.58%
FCI Cumberland           Medium             400      343          85.75%
FCI Terminal Island      Medium              30       25          83.33%
FCI Schuylkill           Medium             275      228          82.91%
FCI Talladega            Medium              60       43          71.67%
FCI Butner               Medium             196      139          70.92%
FCI Beaumont             Medium             115       80          69.57%
FCI Englewood            Medium              60       40          66.67%
FCI Edgefield            Medium             172      113          65.70%
FCI Manchester           Medium             110       71          64.55%
FCI Miami                Medium             150       37          24.67%
FCI Tucson               Medium              30        7          23.33%
FCI Pekin                Medium              ---     197          ------
FCI Memphis              Medium              ---     144          ------
FCI Oxford               Medium              ---      66          ------



                                       96
                                                                    APPENDIX VIII


              Parenting Completion Goals and Outcomes FY 2002
                                                                      Percent of
                                                                      Parenting
           Institution     Security Level    Goal78     Outcome     Goal Achieved79
 FCI Petersburg              Medium              N/A      N/A             ------
 USP Terre Haute               High               60       97            161.67%
 USP Lewisburg                 High              350      449            128.29%
 USP Allenwood                 High              200      243            121.50%
 USP Atlanta                   High               75       87            116.00%
 USP Pollock                   High               80       80            100.00%
 USP Lompoc                    High               45       39             86.67%
 USP Marion                    High               75       63             84.00%
 USP Beaumont                  High               72       59             81.94%
 USP Florence                  High               28        7             25.00%
 USP Atwater                   High               10        0              0.00%
 USP Lee                       High              N/A       56             ------
 USP Leavenworth               High               ---      28             ------
 ADX Florence                Maximum              20       48            240.00%
 FCC Coleman                  N/A81              250      144             57.60%




      81
          The FY 2002 parenting projected outcomes for FCI Coleman (Low Security),
FCI Coleman (Medium Security), and USP Coleman were combined in a single FY 2001
Annual Program Report for Education and Recreation Services report for the Federal
Correctional Complex and the FY 2002 parenting outcomes were combined in a single
FY 2002 report.



                                            97
                                                                          APPENDIX IX


            ANALYSIS OF THE PERCENT PARTICIPATION
                     GOALS AND OUTCOMES
                            FY 2002


      For the institutions included in our audit, we reviewed the percent of
inmates enrolled in one or more education programs (percent participation)
goals and outcomes for FY 2002, reported in each institution’s Annual
Program Report for Education and Recreation Services.82 The institutions in
conjunction with the regional offices establish their own percent participation
goals.

      The following schedule provides the details of our analysis of the
percent participation goals and outcomes reported by each institution in its
Annual Program Report for Education and Recreation Services for FY 2002.
Those institutions for which the percent participation goal and/or outcome is
shown as “---“ in the following schedule did not include a goal and/or
outcome in their Annual Program Report for Education and Recreation
Services. Further, unless noted otherwise, those institutions for which the
percent participation goal and/or outcome is shown as “N/A“ did not submit
an Annual Program Report for Education and Recreation Services because
the institution was not open and/or fully operational during the fiscal year.




       82
          FY 2002 was the first year that the BOP institutions were required to report the
percent participation goals and outcomes in the Annual Program Report for Education and
Recreation Services.



                                            98
                                                                           APPENDIX IX



              Percent Participation Goals and Outcomes FY 2002

                                                                          Percentage of
           Institution       Security Level        Goal    Outcome       Goal Achieved83
 FPC Eglin                      Minimum         27.00%       27.00%          100.00%
 FPC Pensacola                  Minimum         50.00%       50.00%          100.00%
 FPC Seymour Johnson            Minimum         38.00%       38.00%          100.00%
 FPC Bryan                      Minimum         60.00%       58.00%           96.67%
 FCI Morgantown                 Minimum         45.00%       43.00%           95.56%
 FPC Yankton                    Minimum         40.00%       38.00%           95.00%
 FPC Duluth                     Minimum         30.00%       28.00%           93.33%
 FPC Nellis                     Minimum         70.00%       16.00%           22.86%
 FPC Alderson                   Minimum           ---          ---            ------
 FPC Allenwood                  Minimum         N/A84         N/A             ------
 FPC Montgomery                 Minimum           ---          ---            ------
 FCI Big Spring                   Low           42.00%       49.00%          116.67%
 FCI Seagoville                   Low           35.00%       39.00%          111.43%
 FCI Ashland                      Low           36.00%       40.00%          111.11%
 FCI Lompoc                       Low           47.00%       52.00%          110.64%
 FCI Texarkana                    Low           44.00%       47.00%          106.82%
 FCI La Tuna                      Low           38.00%       39.00%          102.63%
 FCI Bastrop                      Low           40.00%       41.00%          102.50%
 FCI Danbury                      Low           53.30%       54.00%          101.31%
 FCI Beaumont                     Low           43.00%       43.00%          100.00%
 FCI Milan                        Low           70.00%       70.00%          100.00%
 FCI Petersburg                   Low           51.00%       51.00%          100.00%
 FCI Sandstone                    Low           35.00%       35.00%          100.00%
 FCI Elkton                       Low           45.00%       43.00%           95.56%
 FCI Tallahassee                  Low           55.00%       52.00%           94.55%
 FCI Loretto                      Low           39.00%       35.00%           89.74%
 FCI Butner                       Low           38.00%       34.00%           89.47%
 FCI Allenwood                    Low           42.00%       37.00%           88.10%
 FCI Forrest City                 Low           47.00%       41.00%           87.23%
 FCI Dublin                       Low           60.00%       52.00%           86.67%
 FCI Waseca                       Low           35.00%       28.00%           80.00%
 FCI Yazoo City                   Low           40.00%       28.00%           70.00%

      83
            The percentage of goal achieved is equal to the outcome divided by the goal.
      84
          The FPC Allenwood did not submit a FY 2002 Annual Program Report for
Education and Recreation Services because the institution was merged with FCI Allenwood
(Medium) in FY 2002.



                                              99
                                                              APPENDIX IX


           Percent Participation Goals and Outcomes FY 2002

                                                             Percentage of
       Institution    Security Level     Goal     Outcome   Goal Achieved83
FCI Fort Dix              Low              ---     27.19%        ------
FCI Safford               Low              ---     42.00%        ------
FCI Fairton              Medium          62.00%    82.00%       132.26%
FCI Beaumont             Medium          27.00%    33.00%       122.22%
FCI Jesup                Medium          35.00%    39.50%       112.86%
FCI Memphis              Medium          36.00%    40.00%       111.11%
FCI Miami                Medium          45.00%    49.00%       108.89%
FCI Oakdale              Medium          34.00%    36.70%       107.94%
FCI Greenville           Medium          33.00%    35.00%       106.06%
FCI Ray Brook            Medium          31.60%    33.40%       105.70%
FCI Englewood            Medium          36.00%    38.00%       105.56%
FCI Phoenix              Medium          40.00%    42.00%       105.00%
FCI Three Rivers         Medium          40.00%    42.00%       105.00%
FCI Oxford               Medium          40.00%    41.00%       102.50%
FCI Terminal Island      Medium          40.00%    41.00%       102.50%
FCI Edgefield            Medium          32.00%    32.00%       100.00%
FCI Manchester           Medium          42.00%    42.00%       100.00%
FCI McKean               Medium          35.00%    35.00%       100.00%
FCI Sheridan             Medium          35.00%    35.00%       100.00%
FCI Allenwood            Medium          41.70%    40.80%        97.84%
FCI Florence             Medium          34.00%    33.16%        97.53%
FCI El Reno              Medium          36.00%    35.00%        97.22%
FCI Pekin                Medium          35.00%    33.00%        94.29%
FCI Victorville          Medium          30.00%    28.25%        94.17%
FCI Marianna             Medium          35.00%    32.00%        91.43%
FCI Estill               Medium          46.00%    41.00%        89.13%
FCI Beckley              Medium          40.00%    35.00%        87.50%
FCI Schuylkill           Medium          40.00%    33.00%        82.50%
FCI Tucson               Medium          40.00%    31.00%        77.50%
FCI Talladega            Medium          35.00%    27.00%        77.14%
FCI Butner               Medium          46.00%      ---         ------
FCI Cumberland           Medium            ---      2.90%        ------
FCI Otisville            Medium          40.00%      ---         ------
FCI Petersburg           Medium           N/A       N/A          ------
USP Marion                High           25.00%    30.00%       120.00%
USP Pollock               High           40.00%    40.70%       101.75%
USP Allenwood             High           32.00%    32.00%       100.00%
USP Atwater               High           23.00%    23.00%       100.00%
USP Terre Haute           High           35.00%    35.00%       100.00%


                                       100
                                                                        APPENDIX IX


              Percent Participation Goals and Outcomes FY 2002

                                                                      Percentage of
           Institution     Security Level     Goal      Outcome      Goal Achieved83
 USP Lewisburg                  High          40.00%      37.00%           92.50%
 USP Beaumont                   High          34.00%      31.00%           91.18%
 USP Lompoc                     High          18.00%      16.00%           88.89%
 USP Atlanta                    High          30.00%      23.00%           76.67%
 USP Leavenworth                High          27.00%      19.90%           73.70%
 USP Florence                   High          38.00%      28.00%           73.68%
 USP Lee                        High            ---       36.00%           ------
 ADX Florence                 Maximum         48.00%      47.00%           97.92%
 FCC Coleman                   N/A85          39.00%      39.00%          100.00%




      85
          The percent participation goal and outcome for FCI Coleman (Low Security),
FCI Coleman (Medium Security), and USP Coleman were combined in a single FY 2002
Annual Program Report for Education and Recreation Services report for the Federal
Correctional Complex.



                                            101
                                                                          APPENDIX X


      ANALYSIS OF THE OCCUPATIONAL TECHNICAL
    PERFORMANCE FACTORS FY 2001 THROUGH FY 2002


      For the occupational technical programs at each institution, we
calculated a program performance factor for FY 1999 through FY 2002,
based on the number of completions divided by the number of completions
plus total withdrawals for each fiscal year. (We used completion and
withdrawal data that was reported in the BOP’s Key Indicators system for
occupational technical programs to calculate the performance factor.) The
performance factor measures the percentage of inmates who complete the
occupational technical programs as compared to the percentage of inmates
who withdraw from the programs.86

      The following schedules provide the details of our calculations and
analysis of the occupational technical performance factor for FY 2001
through FY 2002. Unless noted otherwise, those institutions for which the
completions and/or total withdrawals are shown as “N/A“ were not open
and/or fully operational during the fiscal year.




       86
          The performance factors for the occupational technical programs included in the
BOP’s Key Indicators was calculated based on completions divided by completions plus total
withdrawals for the fiscal year.



                                           102
                                                                             APPENDIX X



            Occupational Technical Performance Factors FY 2001
                                                                 Total         Performance
      Institution         Security Level    Completions       Withdrawals        Factor87
FPC Duluth                   Minimum               30                0           100.00%
FPC Alderson                 Minimum                0                0             N/A
FPC Allenwood                Minimum                0                0             N/A
FPC Bryan                    Minimum                0                0             N/A
FPC Eglin                    Minimum                0                0             N/A
FPC Montgomery               Minimum                0                0             N/A
FCI Morgantown               Minimum                0                0             N/A
FPC Nellis                   Minimum                0                0             N/A
FPC Pensacola                Minimum                0                0             N/A
FPC Seymour Johnson          Minimum                0                0             N/A
FPC Yankton                  Minimum                0                0             N/A
FCI Beaumont                   Low                301                0           100.00%
FCI Safford                    Low                108                0           100.00%
FCI Butner                     Low                 59                2            96.72%
FCI Fort Dix                   Low              1,392               62            95.74%
FCI Bastrop                    Low                 56                4            93.33%
FCI Seagoville                 Low                228               31            88.03%
FCI La Tuna                    Low                232               32            87.88%
FCI Lompoc                     Low                252               42            85.71%
FCI Sandstone                  Low                 11                2            84.62%
FCI Waseca                     Low                116               22            84.06%
FCI Big Spring                 Low                593              130            82.02%
FCI Texarkana                  Low                360               95            79.12%
FCI Milan                      Low                 17                5            77.27%
FCI Forrest City               Low                 50               54            48.08%
FCI Allenwood                  Low                  0                7             0.00%
FCI Ashland                    Low                  0                0             N/A
FCI Coleman                    Low                  0                0             N/A
FCI Danbury                    Low                  0                0             N/A
FCI Dublin                     Low                  0                0             N/A
FCI Elkton                     Low                  0                0             N/A
FCI Loretto                    Low                  0                0             N/A
FCI Petersburg                 Low                  0                0             N/A
FCI Tallahassee                Low                  0                0             N/A
FCI Yazoo City                 Low                  0                0             N/A

       87
           Institutions that did not have an occupational technical program during the fiscal
year are shown as N/A in the performance factor column.



                                            103
                                                                   APPENDIX X


           Occupational Technical Performance Factors FY 2001
                                                        Total       Performance
       Institution    Security Level   Completions   Withdrawals      Factor87
FCI Florence             Medium               20           0         100.00%
FCI Terminal Island      Medium               88           3          96.70%
FCI Otisville            Medium              130           7          94.89%
FCI Jesup                Medium              515         31           94.32%
FCI Butner               Medium              116           8          93.55%
FCI El Reno              Medium              171         23           88.14%
FCI Beaumont             Medium              153         27           85.00%
FCI Phoenix              Medium              101         31           76.52%
FCI Estill               Medium               49         16           75.38%
FCI Sheridan             Medium              261        120           68.50%
FCI Three Rivers         Medium               11           7          61.11%
FCI Pekin                Medium               53         43           55.21%
FCI Allenwood            Medium                 0          0            N/A
FCI Beckley              Medium                 0          0            N/A
FCI Coleman              Medium                 0          0            N/A
FCI Cumberland           Medium                 0          0            N/A
FCI Edgefield            Medium                 0          0            N/A
FCI Englewood            Medium                 0          0            N/A
FCI Fairton              Medium                 0          0            N/A
FCI Greenville           Medium                 0          0            N/A
FCI Manchester           Medium                 0          0            N/A
FCI Marianna             Medium                 0          0            N/A
FCI McKean               Medium                 0          0            N/A
FCI Memphis              Medium                 0          0            N/A
FCI Miami                Medium                 0          0            N/A
FCI Oakdale              Medium                 0          0            N/A
FCI Oxford               Medium                 0          0            N/A
FCI Ray Brook            Medium                 0          0            N/A
FCI Schuylkill           Medium                 0          0            N/A
FCI Talladega            Medium                 0          0            N/A
FCI Tucson               Medium                 0          0            N/A
FCI Victorville          Medium                 0          0            N/A
FCI Petersburg           Medium              N/A        N/A            ------
USP Marion                High               123           0         100.00%
USP Florence              High                82           4          95.35%
USP Beaumont              High               263         75           77.81%
USP Pollock               High                  0          4           0.00%
USP Terre Haute           High                  0          1           0.00%
USP Allenwood             High                  0          0            N/A



                                       104
                                                                 APPENDIX X


          Occupational Technical Performance Factors FY 2001
                                                      Total       Performance
      Institution   Security Level   Completions   Withdrawals      Factor87
USP Atlanta             High                  0          0            N/A
USP Coleman             High                  0          0            N/A
USP Leavenworth         High                  0          0            N/A
USP Lewisburg           High                  0          0            N/A
USP Lompoc              High                  0          0            N/A
USP Atwater             High               N/A        N/A            ------
USP Lee                 High               N/A        N/A            ------
ADX Florence          Maximum                 0          0            N/A




                                     105
                                                                             APPENDIX X



            Occupational Technical Performance Factors FY 2002
                                                                 Total         Performance
      Institution        Security Level    Completions        Withdrawals        Factor88
FPC Bryan                   Minimum                14                 0          100.00%
FPC Pensacola               Minimum                39                 0          100.00%
FPC Duluth                  Minimum                29                 1           96.67%
FPC Seymour Johnson         Minimum                33                 7           82.50%
FPC Yankton                 Minimum                56                12           82.35%
FPC Alderson                Minimum                41                14           74.55%
FPC Allenwood               Minimum                 0                 0            N/A
FPC Eglin                   Minimum                 0                 0            N/A
FPC Montgomery              Minimum                 0                 0            N/A
FCI Morgantown              Minimum                 0                 0            N/A
FPC Nellis                  Minimum                 0                 0            N/A
FCI Ashland                   Low                   2                 0          100.00%
FCI Beaumont                  Low                 314                 0          100.00%
FCI Safford                   Low                 134                 3           97.81%
FCI Butner                    Low                 242                22           91.67%
FCI Tallahassee               Low                  75                11           87.21%
FCI Lompoc                    Low                 308                49           86.27%
FCI Loretto                   Low                  84                14           85.71%
FCI Big Spring                Low                 495                95           83.90%
FCI Fort Dix                  Low                 192                39           83.12%
FCI Seagoville                Low                 156                41           79.19%
FCI Milan                     Low                  26                 7           78.79%
FCI Texarkana                 Low                 325                93           77.75%
FCI Sandstone                 Low                  13                 4           76.47%
FCI La Tuna                   Low                 126                80           61.17%
FCI Waseca                    Low                  64                41           60.95%
FCI Forrest City              Low                  32                27           54.24%
FCI Bastrop                   Low                  68                91           42.77%
FCI Allenwood                 Low                   1                16            5.88%
FCI Coleman                   Low                   0                 0            N/A
FCI Danbury                   Low                   0                 0            N/A
FCI Dublin                    Low                   0                 0            N/A
FCI Elkton                    Low                   0                 0            N/A
FCI Petersburg                Low                   0                 0            N/A
FCI Yazoo City                Low                   0                 0            N/A

       88
           Institutions that did not have an occupational technical program during the fiscal
year are shown as N/A in the performance factor column.



                                            106
                                                                   APPENDIX X


           Occupational Technical Performance Factors FY 2002
                                                        Total       Performance
      Institution     Security Level   Completions   Withdrawals      Factor88
FCI El Reno              Medium              157            0        100.00%
FCI Florence             Medium               22            0        100.00%
FCI Ray Brook            Medium               24            0        100.00%
FCI Beckley              Medium              296            2         99.33%
FCI Otisville            Medium              117            6         95.12%
FCI Jesup                Medium              490           32         93.87%
FCI Memphis              Medium               91           12         88.35%
FCI Oxford               Medium              106           15         87.60%
FCI Butner               Medium              144           23         86.23%
FCI Beaumont             Medium              179           30         85.65%
FCI Terminal Island      Medium               46            8         85.19%
FCI Phoenix              Medium              113           20         84.96%
FCI Victorville          Medium               12            3         80.00%
FCI Estill               Medium              161           41         79.70%
FCI Miami                Medium               44           12         78.57%
FCI Greenville           Medium              104           30         77.61%
FCI Sheridan             Medium              398          115         77.58%
FCI Marianna             Medium               90           36         71.43%
FCI Pekin                Medium               21           11         65.63%
FCI Edgefield            Medium               13            8         61.90%
FCI Three Rivers         Medium                2            2         50.00%
FCI Englewood            Medium                0            2          0.00%
FCI Schuylkill           Medium                0            4          0.00%
FCI Allenwood            Medium                0            0          N/A
FCI Coleman              Medium                0            0          N/A
FCI Cumberland           Medium                0            0          N/A
FCI Fairton              Medium                0            0          N/A
FCI Manchester           Medium                0            0          N/A
FCI McKean               Medium                0            0          N/A
FCI Oakdale              Medium                0            0          N/A
FCI Petersburg           Medium                0            0          N/A
FCI Talladega            Medium                0            0          N/A
FCI Tucson               Medium                0            0          N/A
USP Atlanta               High                26            0        100.00%
USP Lewisburg             High               119            0        100.00%
USP Allenwood             High               103            1         99.04%
USP Marion                High                69            7         90.79%
USP Pollock               High               125           32         79.62%
USP Beaumont              High               244          113         68.35%



                                       107
                                                                APPENDIX X


         Occupational Technical Performance Factors FY 2002
                                                     Total       Performance
     Institution   Security Level   Completions   Withdrawals      Factor88
USP Leavenworth        High               27            25         51.92%
USP Florence           High                6            14         30.00%
USP Terre Haute        High                0            16          0.00%
USP Atwater            High                0             0          N/A
USP Coleman            High                0             0          N/A
USP Lee                High                0             0          N/A
USP Lompoc             High                0             0          N/A
ADX Florence         Maximum               0             0          N/A




                                    108
                                                                         APPENDIX XI


      ANALYSIS OF THE OCCUPATIONAL VOCATIONAL
    PERFORMANCE FACTORS FY 2001 THROUGH FY 2002


      For the occupational vocational programs at each institution, we
calculated a program performance factor for FY 1999 through FY 2002,
based on the number of completions divided by the number of completions
plus total withdrawals for each fiscal year. (We used completion and
withdrawal data that was reported in the BOP’s Key Indicators system for
occupational vocational programs to calculate the performance factor.) The
performance factor measures the percentage of inmates who complete the
occupational vocational programs as compared to the percentage of inmates
who withdraw from the programs.89

      The following schedules provide the details of our analysis of the
occupational vocational performance factor for FY 2001 through FY 2002.
Unless noted otherwise, those institutions for which the completions and/or
total withdrawals are shown as “N/A“ were not open and/or fully operational
during the fiscal year.




       89
          The performance factors for the occupational technical programs included in the
BOP’s Key Indicators was calculated based on completions divided by completions plus total
withdrawals for the fiscal year.



                                           109
                                                                            APPENDIX XI




            Occupational Vocational Performance Factors FY 2001
                                                                 Total         Performance
      Institution         Security Level    Completions       Withdrawals        Factor90
FPC Seymour Johnson          Minimum               11                0           100.00%
FPC Pensacola                Minimum               79                1            98.75%
FPC Yankton                  Minimum               95                2            97.94%
FPC Bryan                    Minimum              183                8            95.81%
FCI Morgantown               Minimum              201                9            95.71%
FPC Eglin                    Minimum              196               12            94.23%
FPC Duluth                   Minimum               12                1            92.31%
FPC Alderson                 Minimum              229               31            88.08%
FPC Montgomery               Minimum              310               50            86.11%
FPC Allenwood                Minimum               45                9            83.33%
FPC Nellis                   Minimum                2                2            50.00%
FCI Milan                      Low                121                0           100.00%
FCI Safford                    Low                 65                0           100.00%
FCI Ashland                    Low                238                3            98.76%
FCI Butner                     Low                289                6            97.97%
FCI Loretto                    Low                308               12            96.25%
FCI Bastrop                    Low                238               12            95.20%
FCI Fort Dix                   Low                560               41            93.18%
FCI Seagoville                 Low                185               16            92.04%
FCI Lompoc                     Low                192               18            91.43%
FCI Coleman                    Low                 93               11            89.42%
FCI Tallahassee                Low                208               28            88.14%
FCI Sandstone                  Low                 44                6            88.00%
FCI Texarkana                  Low                 36                6            85.71%
FCI Petersburg                 Low                152               30            83.52%
FCI Yazoo City                 Low                263               52            83.49%
FCI Forrest City               Low                  5                1            83.33%
FCI Allenwood                  Low                 59               13            81.94%
FCI Danbury                    Low                192               65            74.71%
FCI Elkton                     Low                270               98            73.37%
FCI La Tuna                    Low                  2                1            66.67%
FCI Dublin                     Low                288              146            66.36%
FCI Waseca                     Low                 31               23            57.41%
FCI Beaumont                   Low                  0                1             0.00%
FCI Big Spring                 Low                  0                2             0.00%

       90
           Institutions that did not have an occupational vocational program during the fiscal
year are shown as N/A in the performance factor column.



                                            110
                                                                   APPENDIX XI


          Occupational Vocational Performance Factors FY 2001
                                                        Total       Performance
       Institution    Security Level   Completions   Withdrawals      Factor90
FCI Tucson               Medium               24           0          100.00%
FCI Beckley              Medium              414           5           98.81%
FCI Oakdale              Medium              289           6           97.97%
FCI El Reno              Medium               49           2           96.08%
FCI Coleman              Medium              116           8           93.55%
FCI Butner               Medium               26           2           92.86%
FCI Estill               Medium              182         18            91.00%
FCI Marianna             Medium              242         25            90.64%
FCI Edgefield            Medium              214         23            90.30%
FCI Talladega            Medium              149         16            90.30%
FCI Allenwood            Medium               61           7           89.71%
FCI Manchester           Medium              165         19            89.67%
FCI Schuylkill           Medium              102         13            88.70%
FCI Pekin                Medium               39           6           86.67%
FCI Fairton              Medium              309         48            86.55%
FCI Miami                Medium              302         48            86.29%
FCI Sheridan             Medium               81         13            86.17%
FCI Memphis              Medium              152         25            85.88%
FCI Cumberland           Medium              105         28            78.95%
FCI Ray Brook            Medium               55         16            77.46%
FCI McKean               Medium              306        108            73.91%
FCI Otisville            Medium               31         12            72.09%
FCI Victorville          Medium               43         20            68.25%
FCI Florence             Medium               73         34            68.22%
FCI Phoenix              Medium               93         44            67.88%
FCI Terminal Island      Medium              106         54            66.25%
FCI Greenville           Medium               73         38            65.77%
FCI Oxford               Medium               49         35            58.33%
FCI Jesup                Medium                 2          2           50.00%
FCI Three Rivers         Medium              110        167            39.71%
FCI Englewood            Medium               16         99            13.91%
FCI Beaumont             Medium                 0          6            0.00%
FCI Petersburg           Medium              N/A        N/A             ------
USP Lompoc                High               333         12            96.52%
USP Lewisburg             High               260         11            95.94%
USP Terre Haute           High                70         10            87.50%
USP Allenwood             High                79         17            82.29%
USP Marion                High                  3          1           75.00%
USP Atlanta               High                79         62            56.03%



                                       111
                                                                 APPENDIX XI


         Occupational Vocational Performance Factors FY 2001
                                                      Total       Performance
      Institution   Security Level   Completions   Withdrawals      Factor90
USP Leavenworth         High                34         48           41.46%
USP Florence            High                36         55           39.56%
USP Beaumont            High                  0          1           0.00%
USP Coleman             High                  0          0            N/A
USP Pollock             High                  0          0            N/A
USP Atwater             High               N/A        N/A            ------
USP Lee                 High               N/A        N/A            ------
ADX Florence          Maximum                 0          0            N/A




                                     112
                                                                            APPENDIX XI



            Occupational Vocational Performance Factors FY 2002

                                                                 Total         Performance
      Institution         Security Level    Completions       Withdrawals        Factor91
FPC Nellis                   Minimum                 8                0          100.00%
FPC Pensacola                Minimum                40                0          100.00%
FCI Morgantown               Minimum               250                8           96.90%
FPC Yankton                  Minimum                47                2           95.92%
FPC Bryan                    Minimum               133                6           95.68%
FPC Eglin                    Minimum               140                7           95.24%
FPC Alderson                 Minimum               188               23           89.10%
FPC Montgomery               Minimum               219               50           81.41%
FPC Allenwood                Minimum                42               27           60.87%
FPC Seymour Johnson          Minimum                 1                1           50.00%
FPC Duluth                   Minimum                 0                3            0.00%
FCI Forrest City               Low                   2                0          100.00%
FCI Safford                    Low                  81                1           98.78%
FCI Ashland                    Low                 157                2           98.74%
FCI Seagoville                 Low                  64                1           98.46%
FCI Butner                     Low                 190                3           98.45%
FCI Bastrop                    Low                 262               26           90.97%
FCI Sandstone                  Low                  37                4           90.24%
FCI Tallahassee                Low                 129               14           90.21%
FCI Lompoc                     Low                 146               20           87.95%
FCI Milan                      Low                 147               22           86.98%
FCI Fort Dix                   Low                 620              102           85.87%
FCI Allenwood                  Low                 105               20           84.00%
FCI Yazoo City                 Low                 228               45           83.52%
FCI Coleman                    Low                 109               22           83.21%
FCI Elkton                     Low                 305               67           81.99%
FCI Loretto                    Low                 176               45           79.64%
FCI Petersburg                 Low                 142               45           75.94%
FCI Danbury                    Low                 195               85           69.64%
FCI Dublin                     Low                 303              165           64.74%
FCI Beaumont                   Low                   2                3           40.00%
FCI Texarkana                  Low                  14               23           37.84%
FCI Big Spring                 Low                   1                2           33.33%
FCI La Tuna                    Low                   0                1            0.00%


       91
           Institutions that did not have an occupational vocational program during the fiscal
year are shown as N/A in the performance factor column.



                                            113
                                                                   APPENDIX XI


          Occupational Vocational Performance Factors FY 2002

                                                        Total       Performance
       Institution    Security Level   Completions   Withdrawals      Factor91
FCI Waseca                Low                  0            7           0.00%
FCI Beckley              Medium               11            0         100.00%
FCI Butner               Medium               39            0         100.00%
FCI Tucson               Medium               43            0         100.00%
FCI Coleman              Medium              246            5          98.01%
FCI Memphis              Medium              123            4          96.85%
FCI Oakdale              Medium              428           26          94.27%
FCI Allenwood            Medium              102            8          92.73%
FCI Cumberland           Medium              151           13          92.07%
FCI Victorville          Medium              205           20          91.11%
FCI Pekin                Medium               46            5          90.20%
FCI Estill               Medium              119           16          88.15%
FCI Oxford               Medium               22            3          88.00%
FCI Fairton              Medium              270           41          86.82%
FCI Talladega            Medium              188           32          85.45%
FCI Miami                Medium              276           50          84.66%
FCI Terminal Island      Medium              122           23          84.14%
FCI Edgefield            Medium              139           27          83.73%
FCI Marianna             Medium              150           31          82.87%
FCI Manchester           Medium              117           25          82.39%
FCI Schuylkill           Medium               67           15          81.71%
FCI Florence             Medium               85           22          79.44%
FCI El Reno              Medium               46           12          79.31%
FCI Sheridan             Medium               34            9          79.07%
FCI McKean               Medium              247           75          76.71%
FCI Ray Brook            Medium              130           40          76.47%
FCI Otisville            Medium               73           32          69.52%
FCI Phoenix              Medium               58           58          50.00%
FCI Three Rivers         Medium              107          109          49.54%
FCI Englewood            Medium               49           85          36.57%
FCI Greenville           Medium               12           33          26.67%
FCI Beaumont             Medium                1            3          25.00%
FCI Jesup                Medium                0            0            N/A
FCI Petersburg           Medium                0            0            N/A
USP Lewisburg             High               176            4          97.78%
USP Lompoc                High               280           26          91.50%
USP Terre Haute           High               127           26          83.01%
USP Allenwood             High                23            6          79.31%



                                       114
                                                                 APPENDIX XI


         Occupational Vocational Performance Factors FY 2002

                                                      Total       Performance
      Institution   Security Level   Completions   Withdrawals      Factor91
USP Pollock             High               23             8         74.19%
USP Atlanta             High               51            21         70.83%
USP Leavenworth         High               43            20         68.25%
USP Marion              High                6             8         42.86%
USP Beaumont            High                0             1          0.00%
USP Coleman             High                0             4          0.00%
USP Florence            High                0            66          0.00%
USP Atwater             High                0             0          N/A
USP Lee                 High                0             0          N/A
ADX Florence          Maximum               0             0          N/A




                                     115
                                                              APPENDIX XII


          ANALYSIS OF THE PERCENTAGE OF CITIZEN
          GED DROPPED NON-PROMOTABLE INMATES
                FY 2001 THROUGH FY 2002


       For the institutions included in our audit, we reviewed the percentage
of citizen inmates required to participate in the literacy program that have
dropped out, and are therefore not promotable above the maintenance pay
grade for work programs for FY 1999 through FY 2002. These inmates are
designated as GED Dropped Non-promotable (GED DN) in the BOP’s Key
Indicators.

     The following schedules provide the details of our analysis of the
percentage of GED Dropped Non-promotable inmates as reported by the
BOP in its Key Indicators for FY 2001 through FY 2002. Unless noted
otherwise, those institutions for which the number of GED Dropped
Non-promotable inmates is shown as “N/A“ were not open and/or fully
operational during the fiscal year.




                                     116
                                                            APPENDIX XII



              GED Dropped Non-promotable FY 2001
                                     Number of Inmates Percent of Inmates
                                       GED Dropped       GED Dropped
     Institution      Security Level Non-promotable     Non-promotable
FPC Duluth              Minimum             21                4.00%
FPC Seymour Johnson     Minimum             16                3.00%
FPC Eglin               Minimum             23                2.60%
FPC Allenwood           Minimum             18                2.40%
FPC Montgomery          Minimum             16                1.90%
FPC Pensacola           Minimum             10                1.90%
FPC Nellis              Minimum              9                1.60%
FPC Alderson            Minimum             10                1.20%
FCI Morgantown          Minimum              9                0.80%
FPC Bryan               Minimum              3                0.40%
FPC Yankton             Minimum              2                0.30%
FCI Petersburg            Low               65                4.10%
FCI Butner                Low               50                4.00%
FCI Yazoo City            Low               79                3.80%
FCI Sandstone             Low               29                3.60%
FCI Ashland               Low               42                3.00%
FCI Bastrop               Low               37                2.70%
FCI Beaumont              Low               50                2.60%
FCI Forrest City          Low               53                2.60%
FCI Allenwood             Low               33                2.50%
FCI Milan                 Low               41                2.50%
FCI Danbury               Low               31                2.30%
FCI Coleman               Low               44                2.10%
FCI Fort Dix              Low               86                2.00%
FCI Elkton                Low               40                1.80%
FCI Loretto               Low               20                1.70%
FCI Texarkana             Low               25                1.60%
FCI Waseca                Low               16                1.50%
FCI Seagoville            Low               13                1.30%
FCI Tallahassee           Low               17                1.30%
FCI Dublin                Low               12                0.90%
FCI Big Spring            Low                7                0.80%
FCI La Tuna               Low               13                0.80%
FCI Safford               Low                6                0.70%
FCI Lompoc                Low                3                0.30%
FCI Edgefield           Medium             188                9.50%
FCI Memphis             Medium             126                8.60%
FCI Fairton             Medium              84                6.10%


                                  117
                                                            APPENDIX XII


                GED Dropped Non-promotable FY 2001
                                     Number of Inmates Percent of Inmates
                                       GED Dropped       GED Dropped
       Institution    Security Level Non-promotable     Non-promotable
FCI Miami                Medium             82                5.80%
FCI Estill               Medium             80                5.60%
FCI Schuylkill           Medium             83                5.60%
FCI Coleman              Medium            108                5.40%
FCI Oxford               Medium             60                5.30%
FCI Greenville           Medium             74                5.20%
FCI Marianna             Medium             75                5.20%
FCI Talladega            Medium             75                5.20%
FCI Butner               Medium             59                5.00%
FCI Otisville            Medium             51                4.80%
FCI Pekin                Medium             70                4.70%
FCI Cumberland           Medium             65                4.60%
FCI Manchester           Medium             78                4.60%
FCI Florence             Medium             72                4.40%
FCI McKean               Medium             60                4.20%
FCI Allenwood            Medium             49                3.80%
FCI Beaumont             Medium             60                3.80%
FCI Beckley              Medium             79                3.80%
FCI Englewood            Medium             37                3.50%
FCI Ray Brook            Medium             42                3.50%
FCI Jesup                Medium             61                3.40%
FCI Oakdale              Medium             38                3.10%
FCI Three Rivers         Medium             41                3.00%
FCI Sheridan             Medium             48                2.50%
FCI Victorville          Medium             46                2.40%
FCI El Reno              Medium             38                2.30%
FCI Phoenix              Medium             30                2.30%
FCI Tucson               Medium             14                1.60%
FCI Terminal Island      Medium              9                0.90%
FCI Petersburg           Medium            N/A                  ------
USP Beaumont              High             218               14.30%
USP Atlanta               High             281               12.30%
USP Leavenworth           High             241               11.00%
USP Florence              High              94               10.60%
USP Coleman               High              39                9.70%
USP Allenwood             High             110                9.60%
USP Terre Haute           High             120                7.00%
USP Marion                High              48                6.30%
USP Pollock               High              48                6.20%


                                  118
                                                            APPENDIX XII


                GED Dropped Non-promotable FY 2001
                                     Number of Inmates Percent of Inmates
                                       GED Dropped       GED Dropped
      Institution     Security Level Non-promotable     Non-promotable
USP Lewisburg             High               93               5.90%
USP Lompoc                High               99               5.80%
USP Atwater               High              N/A                 ------
USP Lee                   High              N/A                 ------
ADX Florence            Maximum              60              15.70%




                                  119
                                                            APPENDIX XII



              GED Dropped Non-promotable FY 2002
                                     Number of Inmates Percent of Inmates
                                       GED Dropped       GED Dropped
     Institution      Security Level Non-promotable     Non-promotable
FPC Seymour Johnson     Minimum             25                4.50%
FPC Duluth              Minimum             17                2.90%
FPC Eglin               Minimum             21                2.70%
FPC Allenwood           Minimum             15                2.60%
FPC Pensacola           Minimum             11                2.30%
FPC Montgomery          Minimum             11                1.40%
FCI Morgantown          Minimum             12                1.10%
FPC Yankton             Minimum              5                0.80%
FPC Nellis              Minimum              4                0.70%
FPC Alderson            Minimum              6                0.60%
FPC Bryan               Minimum              2                0.20%
FCI Butner                Low               61                4.50%
FCI Petersburg            Low               60                4.10%
FCI Yazoo City            Low               68                3.30%
FCI Ashland               Low               45                3.10%
FCI Bastrop               Low               41                2.80%
FCI Forrest City          Low               57                2.80%
FCI Sandstone             Low               22                2.70%
FCI Fort Dix              Low              108                2.40%
FCI Allenwood             Low               32                2.30%
FCI Elkton                Low               55                2.30%
FCI Milan                 Low               33                2.30%
FCI Beaumont              Low               39                1.90%
FCI Coleman               Low               39                1.90%
FCI Seagoville            Low               23                1.80%
FCI Texarkana             Low               29                1.80%
FCI Danbury               Low               22                1.70%
FCI Loretto               Low               18                1.50%
FCI Tallahassee           Low               20                1.50%
FCI Waseca                Low               10                1.00%
FCI Dublin                Low               12                0.80%
FCI La Tuna               Low               11                0.70%
FCI Big Spring            Low                6                0.60%
FCI Safford               Low                4                0.50%
FCI Lompoc                Low                4                0.30%
FCI Edgefield           Medium             118                8.30%
FCI Memphis             Medium             122                7.90%



                                  120
                                                            APPENDIX XII


                GED Dropped Non-promotable FY 2002
                                     Number of Inmates Percent of Inmates
                                       GED Dropped       GED Dropped
       Institution    Security Level Non-promotable     Non-promotable
FCI Schuylkill           Medium            113                7.50%
FCI Marianna             Medium            103                6.90%
FCI Estill               Medium             98                6.70%
FCI Cumberland           Medium             99                6.60%
FCI Miami                Medium             94                6.40%
FCI Talladega            Medium             90                6.30%
FCI Coleman              Medium            126                6.00%
FCI Otisville            Medium             66                6.00%
FCI Fairton              Medium             79                5.70%
FCI Manchester           Medium             93                5.60%
FCI Jesup                Medium             97                5.40%
FCI Oxford               Medium             62                5.40%
FCI Petersburg           Medium             65                5.40%
FCI Pekin                Medium             76                5.00%
FCI Greenville           Medium             66                4.50%
FCI Florence             Medium             75                4.40%
FCI Ray Brook            Medium             55                4.30%
FCI Butner               Medium             45                3.70%
FCI El Reno              Medium             49                3.60%
FCI Allenwood            Medium             46                3.40%
FCI Beaumont             Medium             57                3.40%
FCI Beckley              Medium             72                3.40%
FCI McKean               Medium             56                3.40%
FCI Three Rivers         Medium             43                3.20%
FCI Oakdale              Medium             35                2.70%
FCI Englewood            Medium             25                2.50%
FCI Victorville          Medium             41                2.20%
FCI Sheridan             Medium             35                1.90%
FCI Phoenix              Medium             24                1.70%
FCI Tucson               Medium             14                1.70%
FCI Terminal Island      Medium              6                0.60%
USP Beaumont              High             230               13.80%
USP Atlanta               High             324               12.40%
USP Florence              High             117               12.20%
USP Leavenworth           High             222               10.50%
USP Pollock               High             143                9.50%
USP Allenwood             High              98                9.40%
USP Coleman               High             150                9.20%



                                  121
                                                           APPENDIX XII


               GED Dropped Non-promotable FY 2002
                                    Number of Inmates Percent of Inmates
                                      GED Dropped       GED Dropped
      Institution    Security Level Non-promotable     Non-promotable
USP Lompoc               High             110                7.60%
USP Marion               High              58                7.40%
USP Lee                  High              62                6.10%
USP Terre Haute          High              85                6.10%
USP Lewisburg            High              97                6.00%
USP Atwater              High              77                5.60%
ADX Florence           Maximum             53               13.00%




                                 122
                                                                         APPENDIX XIII


           ANALYSIS OF THE CCC UTILIZATION
      TARGETS AND OUTCOMES FY 2001 THROUGH 2002


       For each institution included in our audit, we calculated the CCC
utilization rate, for FY 2000 through FY 2002. To calculate the CCC
utilization rate, we used the total number of inmates transferred to a CCC
and total number of inmates released directly to the community as reported
in the BOP’s Key Indicators.92 For the minimum, low and medium security
institutions, we also compared the CCC utilization rate calculated for each
institution to the CCC utilization target for the corresponding security level.

      The following schedules provide the details of our calculations and
analysis of the CCC utilization rates for FY 2001 through FY 2002. Unless
noted otherwise, those institutions for which the CCC utilization outcome is
shown as “N/A“ did not submit an Program Report for Education and
Recreation Services because the institution was not open and/or fully
operational during the fiscal year.




       92
            The CCC utilization rate is equal to the total number of inmates placed in a CCC
prior to release divided by the total number of inmates released.



                                             123
                                                                         APPENDIX XIII




                CCC Utilization Goals and Outcomes FY 2001
                                                                          Percent of CCC
                                                                          Utilization Goal
     Institution         Security Level       Goal93       Outcome          Achieved94
FPC Yankton                  Minimum         80.00%        94.41%               118.01%
FPC Nellis                   Minimum         80.00%        93.90%               117.38%
FPC Montgomery               Minimum         80.00%        93.13%               116.41%
FCI Morgantown               Minimum         80.00%        91.93%               114.91%
FPC Bryan                    Minimum         80.00%        89.89%               112.36%
FPC Pensacola                Minimum         80.00%        88.65%               110.81%
FPC Seymour Johnson          Minimum         80.00%        88.41%               110.51%
FPC Allenwood                Minimum         80.00%        88.38%               110.48%
FPC Duluth                   Minimum         80.00%        88.35%               110.44%
FPC Eglin                    Minimum         80.00%        84.80%               106.00%
FPC Alderson                 Minimum         80.00%        81.37%               101.71%
FCI Lompoc                     Low           70.00%        87.84%               125.49%
FCI Beaumont                   Low           70.00%        84.11%               120.16%
FCI Safford                    Low           70.00%        82.38%               117.69%
FCI Waseca                     Low           70.00%        81.92%               117.03%
FCI Seagoville                 Low           70.00%        80.60%               115.14%
FCI Danbury                    Low           70.00%        75.85%               108.36%
FCI Texarkana                  Low           70.00%        74.80%               106.86%
FCI Milan                      Low           70.00%        74.74%               106.77%
FCI Tallahassee                Low           70.00%        74.55%               106.50%
FCI Bastrop                    Low           70.00%        74.60%               105.80%
FCI Big Spring                 Low           70.00%        71.58%               102.26%
FCI Coleman                    Low           70.00%        70.66%               100.94%
FCI Dublin                     Low           70.00%        68.20%                97.43%
FCI Elkton                     Low           70.00%        67.85%                96.93%
FCI Fort Dix                   Low           70.00%        67.76%                96.80%
FCI Sandstone                  Low           70.00%        66.67%                95.24%
FCI La Tuna                    Low           70.00%        65.77%                93.96%
FCI Forrest City               Low           70.00%        65.58%                93.69%
FCI Ashland                    Low           70.00%        63.69%                90.99%
FCI Allenwood                  Low           70.00%        61.36%                87.66%
FCI Yazoo City                 Low           70.00%        60.53%                86.47%
FCI Butner                     Low           70.00%        59.78%                85.40%
FCI Loretto                    Low           70.00%        58.00%                82.86%
FCI Petersburg                 Low           70.00%        55.61%                79.44%
FCI Phoenix                  Medium          65.00%        88.51%               136.17%
FCI Florence                 Medium          65.00%        82.72%               127.26%


     93
          The BOP has not established CCC utilization goals for its high security institutions.
     94
          The percentage of goal achieved is equal to the outcome divided by the goal.



                                            124
                                                          APPENDIX XIII


               CCC Utilization Goals and Outcomes FY 2001
                                                          Percent of CCC
                                                          Utilization Goal
      Institution     Security Level   Goal93   Outcome     Achieved94
FCI Otisville            Medium        65.00%   82.67%         127.18%
FCI McKean               Medium        65.00%   80.43%         123.74%
FCI Cumberland           Medium        65.00%   77.94%         119.91%
FCI Oxford               Medium        65.00%   77.44%         119.14%
FCI Estill               Medium        65.00%   76.87%         118.26%
FCI Marianna             Medium        65.00%   74.74%         114.98%
FCI Butner               Medium        65.00%   74.27%         114.26%
FCI Coleman              Medium        65.00%   72.22%         111.11%
FCI Fairton              Medium        65.00%   72.02%         110.80%
FCI Pekin                Medium        65.00%   71.77%         110.42%
FCI Greenville           Medium        65.00%   70.69%         108.75%
FCI Jesup                Medium        65.00%   69.70%         107.23%
FCI Victorville          Medium        65.00%   69.64%         107.14%
FCI Terminal Island      Medium        65.00%   69.19%         106.45%
FCI Talladega            Medium        65.00%   69.11%         106.32%
FCI El Reno              Medium        65.00%   69.01%         106.17%
FCI Memphis              Medium        65.00%   68.99%         106.14%
FCI Sheridan             Medium        65.00%   68.88%         105.97%
FCI Beaumont             Medium        65.00%   67.50%         103.85%
FCI Beckley              Medium        65.00%   67.19%         103.37%
FCI Manchester           Medium        65.00%   66.91%         102.94%
FCI Allenwood            Medium        65.00%   65.52%         100.80%
FCI Englewood            Medium        65.00%   65.00%         100.00%
FCI Oakdale              Medium        65.00%   64.71%          99.55%
FCI Schuylkill           Medium        65.00%   62.39%          95.98%
FCI Tucson               Medium        65.00%   62.33%          95.89%
FCI Ray Brook            Medium        65.00%   59.56%          91.63%
FCI Miami                Medium        65.00%   59.21%          91.09%
FCI Edgefield            Medium        65.00%   57.53%          88.51%
FCI Three Rivers         Medium        65.00%   53.85%          82.85%
FCI Petersburg           Medium        65.00%     N/A          ------
USP Leavenworth           High           N/A    56.25%          N/A
USP Terre Haute           High           N/A    48.28%          N/A
USP Lewisburg             High           N/A    42.42%          N/A
USP Beaumont              High           N/A    40.00%          N/A
USP Allenwood             High           N/A    36.84%          N/A
USP Marion                High           N/A    33.33%          N/A
USP Lompoc                High           N/A    27.59%          N/A
USP Atlanta               High           N/A     5.88%          N/A
USP Coleman               High           N/A     0.00%          N/A
USP Florence              High           N/A     0.00%          N/A
USP Pollock               High           N/A     0.00%          N/A
USP Atwater               High           N/A      N/A          ------



                                       125
                                                                    APPENDIX XIII


               CCC Utilization Goals and Outcomes FY 2001
                                                                     Percent of CCC
                                                                     Utilization Goal
     Institution        Security Level     Goal93      Outcome         Achieved94
USP Lee                      High           N/A           N/A              ------
ADX Florence               Maximum          N/A          N/A95             ------




     95
          No inmates were released directly to the community from ADX Florence.



                                         126
                                                                         APPENDIX XIII



                CCC Utilization Goals and Outcomes FY 2002
                                                                          Percent of CCC
                                                                          Utilization Goal
     Institution         Security Level       Goal96       Outcome          Achieved97
FPC Nellis                   Minimum         80.00%        95.96%               119.95%
FPC Pensacola                Minimum         80.00%        94.34%               117.93%
FPC Duluth                   Minimum         80.00%        92.59%               115.74%
FPC Yankton                  Minimum         80.00%        92.39%               115.49%
FPC Bryan                    Minimum         80.00%        91.63%               114.54%
FPC Eglin                    Minimum         80.00%        90.00%               112.50%
FPC Montgomery               Minimum         80.00%        89.17%               111.46%
FPC Allenwood                Minimum         80.00%        86.59%               108.24%
FCI Morgantown               Minimum         80.00%        85.19%               106.49%
FPC Seymour Johnson          Minimum         80.00%        80.69%               100.86%
FPC Alderson                 Minimum         80.00%        80.27%               100.34%
FCI Seagoville                 Low           70.00%        83.33%               119.04%
FCI Safford                    Low           70.00%        82.86%               118.37%
FCI Lompoc                     Low           70.00%        82.21%               117.44%
FCI Waseca                     Low           70.00%        82.03%               117.19%
FCI Beaumont                   Low           70.00%        81.99%               117.13%
FCI Milan                      Low           70.00%        79.27%               113.24%
FCI Coleman                    Low           70.00%        78.14%               111.63%
FCI Tallahassee                Low           70.00%        77.54%               110.77%
FCI Bastrop                    Low           70.00%        75.62%               108.03%
FCI Danbury                    Low           70.00%        75.43%               107.76%
FCI Forrest City               Low           70.00%        73.58%               105.11%
FCI Texarkana                  Low           70.00%        73.20%               104.57%
FCI Yazoo City                 Low           70.00%        68.31%                97.59%
FCI Ashland                    Low           70.00%        68.26%                97.51%
FCI Dublin                     Low           70.00%        67.40%                96.29%
FCI Big Spring                 Low           70.00%        65.55%                93.64%
FCI Sandstone                  Low           70.00%        64.84%                92.63%
FCI Loretto                    Low           70.00%        64.21%                91.73%
FCI Elkton                     Low           70.00%        63.18%                90.26%
FCI La Tuna                    Low           70.00%        63.02%                90.03%
FCI Fort Dix                   Low           70.00%        61.54%                87.91%
FCI Petersburg                 Low           70.00%        55.34%                79.06%
FCI Butner                     Low           70.00%        55.25%                78.93%
FCI Allenwood                  Low           70.00%        51.97%                74.24%
FCI Oxford                   Medium          65.00%        87.70%               134.92%
FCI Florence                 Medium          65.00%        78.91%               121.40%
FCI Marianna                 Medium          65.00%        78.57%               120.88%


     96
          The BOP has not established CCC utilization goals for its high security institutions.
     97
          The percentage of goal achieved is equal to the outcome divided by the goal.



                                            127
                                                          APPENDIX XIII


                CCC Utilization Goals and Outcomes FY 2002
                                                          Percent of CCC
                                                          Utilization Goal
      Institution     Security Level   Goal96   Outcome     Achieved97
FCI Phoenix              Medium        65.00%   78.02%         120.03%
FCI Terminal Island      Medium        65.00%   77.23%         118.82%
FCI Sheridan             Medium        65.00%   76.95%         118.38%
FCI Schuylkill           Medium        65.00%   74.68%         114.89%
FCI Victorville          Medium        65.00%   72.87%         112.11%
FCI McKean               Medium        65.00%   72.83%         112.05%
FCI Talladega            Medium        65.00%   72.06%         110.86%
FCI Cumberland           Medium        65.00%   69.19%         106.45%
FCI El Reno              Medium        65.00%   67.82%         104.34%
FCI Manchester           Medium        65.00%   67.57%         103.95%
FCI Jesup                Medium        65.00%   67.55%         103.92%
FCI Tucson               Medium        65.00%   66.67%         102.57%
FCI Greenville           Medium        65.00%   65.57%         100.88%
FCI Miami                Medium        65.00%   65.52%         100.80%
FCI Butner               Medium        65.00%   65.43%         100.66%
FCI Estill               Medium        65.00%   64.75%          99.62%
FCI Coleman              Medium        65.00%   64.39%          99.06%
FCI Otisville            Medium        65.00%   63.06%          97.02%
FCI Pekin                Medium        65.00%   62.99%          96.91%
FCI Memphis              Medium        65.00%   62.76%          96.55%
FCI Beckley              Medium        65.00%   62.70%          96.46%
FCI Fairton              Medium        65.00%   62.27%          95.80%
FCI Beaumont             Medium        65.00%   59.50%          91.54%
FCI Oakdale              Medium        65.00%   57.26%          88.09%
FCI Ray Brook            Medium        65.00%   52.33%          80.51%
FCI Three Rivers         Medium        65.00%   50.89%          78.29%
FCI Allenwood            Medium        65.00%   49.54%          76.22%
FCI Edgefield            Medium        65.00%   42.00%          64.62%
FCI Petersburg           Medium        65.00%   41.18%          63.35%
FCI Englewood            Medium        65.00%   35.00%          53.85%
USP Atwater               High           N/A    75.00%          N/A
USP Lompoc                High           N/A    62.07%          N/A
USP Terre Haute           High           N/A    58.82%          N/A
USP Beaumont              High           N/A    58.00%          N/A
USP Leavenworth           High           N/A    53.23%          N/A
USP Marion                High           N/A    50.00%          N/A
USP Florence              High           N/A    45.28%          N/A
USP Allenwood             High           N/A    43.33%          N/A
USP Coleman               High           N/A    36.36%          N/A
USP Lewisburg             High           N/A    27.50%          N/A
USP Pollock               High           N/A    15.79%          N/A
USP Atlanta               High           N/A    15.45%          N/A
USP Lee                   High           N/A     0.00%          N/A




                                       128
                                                                    APPENDIX XIII


               CCC Utilization Goals and Outcomes FY 2002
                                                                     Percent of CCC
                                                                     Utilization Goal
     Institution        Security Level     Goal96      Outcome         Achieved97
ADX Florence               Maximum          N/A          N/A98             ------




     98
          No inmates were released directly to the community from ADX Florence.



                                         129
      APPENDIX XIV




130
      APPENDIX XIV




131
      APPENDIX XIV




132
      APPENDIX XIV




133
      APPENDIX XIV




134
      APPENDIX XIV




135
                                                                APPENDIX XV


             ANALYSIS AND SUMMARY OF ACTIONS
              NECESSARY TO CLOSE THE REPORT


      The BOP response to the audit (Appendix XIV) describes the actions
taken or planned to implement our recommendations. Our analysis of the
BOP’s response to specific recommendations is provided below. In addition
to responding to the recommendations, the BOP made several claims in the
program overview section of its response to which we first respond.

        The BOP states in its response to the draft report that the
establishment of the Inmate Skills Development Branch in June 2003 is one
of the most significant initiatives related to the preparation of inmates for
successful transition into the community. As stated in the background
section of our report, the mission of the Inmate Skills Development Branch
is to “coordinate the [BOP’s] efforts to implement inmate skill development
initiatives and provide a centralized point of liaison with external agencies to
equip inmates with the necessary skills to succeed upon release.” However,
it is important to note that, at this time, we are unable to determine what
impact, if any, the initiative will have on the issues identified in this report
because the Inmate Skills Development Branch is still in its developmental
stage.

       The BOP also states in its response to the draft report that, “Many of
your findings and recommendations were items we self-identified and
reported to your auditors that we were actively addressing.” In our
judgment, this statement is somewhat misleading. While it may be true that
the BOP was aware of some of the findings included in our report, much of
this information was not shared with the auditors until our preliminary
findings were presented to BOP officials.

1.    Resolved. This recommendation can be closed when we receive
      documentation supporting that the BOP has implemented a formal
      process to set realistic occupational and educational program goals
      stated as a percentage of completions to account for total enrollments
      and the inmate population.

2.    Resolved. This recommendation can be closed when we receive
      documentation supporting that the BOP has implemented a formal
      process of accountability for institutions in meeting their occupational
      and educational program completion goals that includes corrective
      action plans, as necessary, to remedy performance issues.



                                      136
                                                            APPENDIX XV



3.   Closed.

4.   Resolved. This recommendation can be closed when we receive
     documentation supporting that the BOP has implemented a formal
     standard process for evaluating institutions’ occupational program
     performance and accountability annually that includes corrective action
     plans, as necessary, to remedy program performance.

5.   Resolved. This recommendation can be closed when we receive
     documentation supporting that the BOP has implemented procedures
     for assessing the occupational needs of inmates and a formal standard
     process for screening inmates prior to enrollment in an occupational
     program.

6.   Resolved. This recommendation can be cl osed when we receive
     documentation supporting that the BOP has implemented new data
     collection procedures that provide an accurate picture of the
     percentage of all inmates entering BOP institutions who lack a high
     school diploma or GED and the percentage of those inmates who
     actually earn a GED while incarcerated in a BOP institution.

7.   Resolved. This recommendation can be closed when we receive
     documentation supporting that the BOP has implemented a
     performance measurement for the percentage of citizen inmates with
     GED needs who have dropped out of the literacy program at the
     national and regional level and incorporated the measure into monthly
     reports for monitoring performance at each institution.

8.   Resolved. This recommendation can be closed when we receive
     documentation supporting that the BOP has implemented a
     performance measurement for the percentage of noncitizen inmates
     with GED needs who have dropped out of the literacy program at the
     national and regional level and incorporated the measure into monthly
     reports for monitoring performance at each institution.

9.   Resolved. This recommendation can be closed when we receive
     documentation supporting that the BOP has implemented a system for
     reporting on psychological program resources and participation that
     includes developing corrective action plans if program participation
     falls below 90 percent.




                                    137
                                                              APPENDIX XV


10.   Resolved. The BOP states in its response to the draft report that
      during the exit conference the auditors agreed to close
      recommendations 10 and 11 based on information provided during the
      exit conference related to the BOP’s plans to eliminate the RPP once
      the Inmate Skills initiative is fully implemented. Rather, the auditors
      stated that if the RPP was eliminated, recommendations 10 and 11
      could be closed; however, we did not agree to close the
      recommendations at this time. This recommendation can be closed
      when we receive documentation supporting that the BOP has
      eliminated the RPP and fully implemented the Inmate Skills initiative
      which focuses on community transition throughout the inmate’s
      incarceration.

11.   Resolved. This recommendation can be closed when we receive
      documentation supporting that the BOP has eliminated the RPP and
      fully implemented the Inmate Skills initiative which focuses on
      community transition throughout the inmate’s incarceration.

12.   Closed.

13.   Resolved. This recommendation can be closed when we receive
      documentation supporting that the BOP has implemented a formal
      process for reviewing eligible inmates that are denied or not referred
      for CCC placement that includes region review for compliance with
      national policy.




                                     138
